<html>
<title> - THE IMPLEMENTATION OF THE YOSEMITE VALLEY PLAN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
            THE IMPLEMENTATION OF THE YOSEMITE VALLEY PLAN

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

     Tuesday, April 22, 2003 in Yosemite National Park, California

                               __________

                           Serial No. 108-16

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

86-612 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel

                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 22, 2003...................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     5
    Nunes, Hon. Devin, a Representative in Congress from the 
      State of California........................................     5
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Abshez, Allan J., Irell & Manella LLP, Los Angeles, 
      California.................................................    61
        Prepared statement of....................................    64
    Kelly, Kevin, Chief Operating Officer, Yosemite Concession 
      Services Corporation, Yosemite National Park, California...    44
        Prepared statement of....................................    45
    Mainella, Fran P., Director, National Park Service, U.S. 
      Department of the Interior.................................     6
        Prepared statement of....................................    11
    Minault, Paul, Northern California Regional Coordinator, The 
      Access Fund, San Francisco, California.....................    55
        Prepared statement of....................................    57
    Mosley, Peggy A., President/CEO, The Groveland Hotel at 
      Yosemite National Park, Groveland, California..............    40
        Prepared statement of....................................    41
    Watson, Jay Thomas, California/Nevada Regional Director, The 
      Wilderness Society, San Francisco, California..............    67
        Prepared statement of....................................    69
    Welch, Stephen R., Executive Vice President, The Pines 
      Resort, Bass Lake, California..............................    26
        Prepared statement of....................................    28
    Whitmore, George, Chairman, Yosemite Committee, Sierra Club, 
      Fresno, California.........................................    71
        Prepared statement of....................................    73



 OVERSIGHT FIELD HEARING ON THE IMPLEMENTATION OF THE YOSEMITE VALLEY 
                                  PLAN

                              ----------                              


                        Tuesday, April 22, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                   Yosemite National Park, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., 
Yosemite National Park, California, Hon. George Radanovich 
[Chairman of the Subcommittee] presiding.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. The Subcommittee on National 
Parks, Recreation, and Public Lands will come to order. My name 
is George Radanovich from Mariposa, proudly, and I am joined 
here with Representative Donna Christensen and Representative 
Devin Nunes for a hearing regarding camping spaces in the 
valley. And I do want to mention just before we get started--
and I have a written text to read as we are doing this--to 
remind everybody that this is not a town hall meeting, but 
rather a hearing, a formal congressional hearing where issues 
get on the record. And I would ask, so that we can do this in 
an orderly fashion, that we have order in the room.
    As you may know, you know, a lot of these congressional 
hearings are for us to get comments and such in the record. And 
we are going to be having three panels of witnesses today to 
talk about the issues regarding Yosemite as it relates to 
camping spaces. This hearing doesn't necessarily cover parking 
spaces or any other issues regarding the management plan or any 
other issues about Yosemite. They do mainly cover, or almost 
solely, the issues of campgrounds in Yosemite Valley.
    As you know, the floods of 1997 took out Upper and Lower 
River Campgrounds and created some damage in the park, and we 
want to know more detail about the plans as it relates to that.
    So, we are restricted to comments from the witnesses that 
are going to be in the three panels today, and at the end of 
each panel, and some have one person, some have a number of 
people, Donna and Devin and I will be allowed to ask them 
questions. And again, the main reason for this is to get it in 
the Congressional Record. And we feel very strongly that we--
well, obviously the three panels consist of every view that we 
can assemble on this issue.
    So I want to welcome you here today, and thank you for 
coming. You can take the snow back. It looks like my friend 
Donna, who is representing the Virgin Islands, is going to get 
all four seasons in a very short time. So we are glad to have 
the snow, but I was glad to see the blue sky when we woke up.
    So welcome here. I thank you for this. And help us get all 
this information out and into the record so that we can make 
sure that Yosemite stays a great place to be.
    So with that, I am going to read my prepared text, and then 
we will get on with this hearing.
    Before I read this statement, I would like to thank 
Superintendent Mike Tollefson, Mike Reynolds, and Don Quellos, 
Steve Shackleton, and the entire park staff for putting 
together the secondary hearing site of the Subcommittee in less 
than 24 hours. As you know, we were hoping to have the hearing 
out by the Superintendent's house outside, but the weather 
caused some real problems, so we had to move it indoors.
    I would also like to point out that this is an official 
Subcommittee hearing where the witnesses who are here today are 
invited by the Subcommittee. It is not a town hall meeting. And 
for those not testifying who wish to submit something for the 
record, though, the hearing record will remain open for 2 
weeks. And we have left a box outside in the back of the area 
for you to submit written comments. If you would like to send 
your comments to the Subcommittee, please see Casey, our 
Subcommittee clerk.
    Casey, do you want to raise your hand?
    This is Casey, everybody, and if you do want to do some--
write out your comments and submit them that way, we would be 
happy to take them, and they will go into the Congressional 
Record. And I think we have a period of about 2 weeks for you 
to submit something to Casey or send back to the Committee in 
Washington.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
      Subcommittee on National Parks, Recreation, and Public Lands

    Good morning. The Subcommittee on National Parks, Recreation and 
Public Lands will come to order.
    Before I make my opening statement, I would like to thank 
Superintendent Mike Tollefson, Mike Reynolds, Don Coelho, Steve 
Shackelton and the entire Park staff for putting together this 
secondary hearing site for the Subcommittee in less than 24-hours. As 
many of you know, we had originally planned to have the hearing 
outdoors near the old superintendent's residence with Half Dome in the 
background, but Mother Nature had other plans.
    I would also like to point out that this is an official 
Subcommittee Hearing, where witnesses here today were invited by the 
Subcommittee. This is NOT a town hall meeting. For those not testifying 
and who wish to submit something for the record, the hearing record 
will remain open for two weeks. We have left out a box on the table to 
the back of the area for you to submit written comment. If you would 
like to send your comments to the Subcommittee, please see Casey, our 
Subcommittee Clerk (Casey, please raise your hand), following the 
hearing and he will give you the address for the Subcommittee.
    As many of you know, I have had the pleasure to represent the 
Valley and Yosemite Park since entering Congress in 1994, as well as 
previously, when I served as a county supervisor for Mariposa County. I 
started coming to this magnificent and wonderful place when I was a 
child and to this day, I hike various parts of the park every summer 
with my family. I say all this because I believe it is very important 
for everyone to know just how I feel about this Park and this Valley--I 
want all of its grandeur to be available to anyone wishing to 
experience it first-hand, as I was able to do.
    I envision this Valley and the Park continuing to be open to all, 
consistent with the Park Service mission to ``provide for the 
enjoyment'' of parklands. To me, this means that we provide to the 
public what they want to have--including recreational activities such 
as camping, backpacking and horseback riding, AND roads for those who 
wish to see the Park from the family minivan; to provide access to 
back-country, AND to provide amenities such as rooms where families can 
stay; to provide a natural sanctuary for the contemplative, as well as 
the more mundane parking spaces for those who wish to stay for a while 
and explore and enrich their lives.
    Let me make it clear, as long as I represent Yosemite National Park 
and this beautiful Valley, I will not allow it to become an exclusive 
retreat available only by tour bus, nor a natural preserve which you 
can get to only on foot. Neither of these alternatives are solutions 
for the future of Yosemite.
    Today, I have brought the Subcommittee to the Valley not to discuss 
not the Park's past, but its future. As we all know, a number of 
constituencies believe that the 1997 Merced River Flood was a sign from 
above to the National Park Service to reverse course in the Valley--to 
remove roads, buildings, and opportunities and access from the public, 
and restore the Valley to a ``wilderness zone'' where only low impact 
hiking would be permitted.
    While the 1997 Flood certainly brought a crisis to the Valley, it 
should not seen as an opportunity to limit access by the public. The 
Valley and Park belong to over 285 million Americans, not a select few.
    I have asked my good friend, the Director of the National Park 
Service, Fran Mainella, to update the Subcommittee generally on the 
implementation of the Yosemite Valley Plan and to specifically address 
the recent NPS campground study as well as the status of parking spaces 
in the Valley. I do wish to state my frustration that a study of out-
of-valley camping that was completed last year was only made available 
to me or to the public last week. The study shows that 204 campsites 
can be relatively easily constructed outside of Yosemite Valley, 
ostensibly to replace campsites in the Valley that were lost in the 
flood and in the subsequent planning process. It is my opinion that 
campsites outside of the Valley do not replace in-Valley campsites. 
Meanwhile, I had asked for a separate study identifying the costs and 
availability of campsites at Upper and Lower Rivers. That study shows 
that were setbacks from the river equal to the setbacks identified in 
the Merced Wild and Scenic River Study, 144 campsites could be 
installed at Upper and Lower Rivers while restoring a significant 
riparian corridor.Opposition to this proposal is based on the fact that 
the campgrounds would be in a flood plain. I cannot think of a better 
use of flood-plains than campgrounds.
    I am most interested in how and when the Park Service will be 
restoring campgrounds in the Valley to their pre-Flood numbers, 
particularly in the Upper and Lower River campgrounds.
    I also look forward to hearing the testimony of our other 
witnesses, especially those who have been coming to this park for many 
years and can speak to their experiences and what they see is the 
future for this Valley and the Park.
    I now turn to the Ranking Member of the Subcommittee, Donna 
Christensen of the U.S. Virgin Islands, for her opening statement.
                                 ______
                                 
    Mr. Radanovich. And as many as you know, I have had the 
pleasure to represent the valley of Yosemite Parks in Congress 
since 1994, and previously when I served as Mariposa County 
supervisor, I enjoyed using Yosemite very much. And I say all 
this because I believe it is very important for everybody to 
know just how I feel about this park and its valley. I want all 
of its grandeur to be available to anyone wishing to experience 
it firsthand as I was able to do and am able to do.
    I envision this valley and the park continuing to be open 
to all, consistent with the Park Service mission to provide for 
the enjoyment of parklands. To me, this means that we provide 
to the public what they want to have, including recreational 
activities such as camping, backpacking, and horseback riding; 
and roads for those who wish to see the park from the family 
minivan, or to provide access to the back country; and also to 
provide amenities such as rooms where families can stay, 
provide a natural sanctuary for the contemplative, as well as 
the more mundane parking spaces for those who wish to stay for 
a while and explore and enrich their lives.
    I want to be very clear that as long as I represent 
Yosemite National Park and this beautiful valley, I will not 
allow it to become an exclusive retreat available only by tour 
bus, nor a natural preserve where you can get to it only on 
foot. Neither of these alternatives are solutions for the 
future of Yosemite and Yosemite Valley.
    Today, I brought the Subcommittee to the valley not to 
discuss the park's past, but its future. As we all know, a 
number of constituencies believe that the 1997 Merced River 
flood was a sign from above to the National Park Service to 
reverse course in the valley, to remove roads, buildings, and 
opportunities and access from the public, and restore the 
valley to a wilderness zone where only low-impact hiking would 
be permitted.
    While the flood of 1997 certainly brought a crisis to the 
valley, it should not be seen as an opportunity to limit access 
by the public. The valley and the park belong to over 285 
million Americans, not a select few.
    I have asked my good friend, Director of the National Park 
Service, Fran Mainella, to update the Subcommittee generally on 
the implementation of the Yosemite Valley plan, and to 
specifically address the recent National Park Service 
campground study as well as the status of parking spaces in the 
valley.
    I do wish to state my frustration that the study of out-of-
valley camping completed last year was only made available to 
me or the public last week. The study shows that 204 campsites 
can be relatively easily constructed outside of Yosemite 
Valley, ostensibly to replace campsites in the valley that were 
lost in the flood and in the subsequent planning process. It is 
my opinion that the campsites outside the valley do not replace 
in-valley campsites.
    Meanwhile, I had asked for a separate study identifying the 
cost and availability of campsites at the Upper and Lower River 
Campgrounds. That study shows that for setbacks from the river 
equal to the setbacks identified in the Merced Wild and Scenic 
River Study, 144 campsites could be installed at Upper and 
Lower Rivers while restoring a significant riparian corridor. 
Opposition to this proposal is based on the fact that the 
campgrounds would be in the flood plains. I can't think of a 
better use of the flood plain than campgrounds, quite frankly.
    I am most interested in how and when the Park Service will 
be restoring campgrounds in the valley to their preflood 
numbers, particularly in the Upper and Lower River Campgrounds. 
I also look forward to hearing the testimony from our 
witnesses, especially those who have been coming to this park 
for many years and can speak to their experience and what they 
see is the future for this valley, the park.
    Mr. Radanovich. I now would recognize the Ranking Member of 
the Subcommittee from the Virgin Islands, Mrs. Donna 
Christensen, Donna, for your opening statement. And welcome to 
Yosemite, Donna.

STATEMENT OF HON. DONNA M. CHRISTENSEN, A DELEGATE IN CONGRESS 
                     FROM THE VIRGIN SLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. And, Mr. 
Chairman, let me say at the outset I really appreciate the 
hospitality of you and the National Park Service Superintendent 
Tollefson for my first visit to this wonderful park. And I have 
been in hearings with you in Washington, and we have had 
pictures and maps, but they certainly don't do the park 
justice. So I am happy for the opportunity to be out here and 
see firsthand the magnificent resources and hear some of the 
challenges and opportunities that Yosemite National Park faces 
today. They are not unlike many that we face in my own 
district.
    The Yosemite Valley plan has been years in the making, I 
think about 20 years, and it entails a lot of work and public 
participation, a significant document for a significant area of 
great beauty and majesty. As one of our premier national parks, 
people from all around the country and the world really have 
expressed an interest and concern for Yosemite. The extent of 
the national news coverage that the Yosemite Valley plan has 
received over the years is a testament to the attraction that 
Yosemite has with the American public.
    Given the public's spotlight on Yosemite, the National Park 
Service has its work cut out to meet the expectations that 
people have for this park as well as meeting the needs and 
concerns of the gateway communities. That challenge is 
compounded by the geology of the valley that we are in. 
Yosemite Valley is only 7 miles long and less than 1 mile wide. 
The floor of the valley is further reduced by rock falls onto 
the flood plain of the Merced River. Within this relatively 
small area, which I understand is the area that is really 
utilized most in Yosemite, about 3 to 4 miles by 1 mile, 
millions of people come annually to experience the nationally 
significant resources of the valley. How to protect these 
important park resources and still maintain the quality visitor 
experience has been a concern going back for many years. I am 
hopeful that today's hearing can contribute to a better 
understanding of what we can and should do to provide for the 
long-term preservation and enjoyment of Yosemite National Park.
    Mr. Chairman, I look forward to learning more on what the 
Yosemite Valley plan will mean for the park's resources and 
visitors. I appreciate the presence of our witnesses here 
today, and look forward to their insight on the subject of 
today's oversight hearing.
    Mr. Radanovich. Thank you, Donna, very much.
    Mr. Radanovich. And also here today is a good friend and 
new Member of Congress from California, representing primarily 
Fresno and Tulare Counties, Mr. Devin Nunes.
    Devin, did you want to open up with anything?

  STATEMENT OF HON. DEVIN NUNES, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Nunes. Thank you, Mr. Chairman and Ranking Member. It 
is a pleasure to be here, being that this is very close to my 
district and has a special place in my heart.
    Some people may not know this, but the Ahwahnee Hotel was 
at one time a naval hospital, and my grandfather was in the 
Navy during World War II. He was injured not in the war, but 
actually broke his arm on leave, and was stationed here. He was 
relocated here for about a year, and he always said how 
wonderful it was.
    Then as a kid my family would bring me up here, and I hiked 
up to Vernal Falls, Nevada Falls, Half Dome, the top of El 
Capitan, the top of Yosemite Falls, and Glacier Point. And as 
you know, it is a really beautiful place.
    And it is an honor for me to be here today as a new Member 
of Congress. They send me on these missions, and a few weeks 
ago Chairman Pombo asked me if I would go up to the north slope 
of Alaska to take part in a field hearing, and I, you know, 
because as the new guy, said, sure. I got up there, and it was 
50 below zero, and I wondered what I got myself into. And then 
last week, George had asked to me to come up here, and I 
thought, well, this is easy. Yosemite is real close. I got in a 
wreck on the way up here, and it snowed. And I don't know, I am 
beginning to think they make freshmen Congressmen go on all 
these trips that no one else wants to go on, Mr. Chairman.
    But I look forward to the testimony today, and thank you 
all for coming. I know this is very important to Mr. 
Radanovich's district, my district, the entire State of 
California and the Nation. So thank you very much.
    Mr. Radanovich. Thank you, Devin, and welcome to Yosemite.
    Mr. Radanovich. We are going to begin with our first panel, 
and if those members would like to come up. I see more signs, 
more different folks.
    Fran, do you want everybody up here?
    Ms. Mainella. Yes, Mr. Chairman. And if I may, if I could 
bring up our Superintendent Mike Tollefson to come forward; 
also, Jon Jarvis, our Regional Director; and also my Deputy 
Director Randy Jones. If they may join us.
    Mr. Radanovich. Thank you very much.
    Fran Mainella is, of course, Director of the National Park 
Service; Mr. Randy Jones, who is with the National Park Service 
as well back in Washington; Superintendent Mike Tollefson; and 
Mr. Jon Jarvis, Regional Director. Welcome.
    And I am going to lay out a few rules for the red light, 
green light that you should be able to see. It is just like a 
traffic light. Green means go, yellow means speed up, and red 
means stop. So if we could, so that this does not drag out 
beyond a couple hours, and we want to conclude this hearing, if 
you would stay within the 5-minute rule, it would be much 
appreciated. Say it that way. I am pretty good about making 
sure that everybody gets to say what needs to be said, so we 
will make some leeway if it is necessary, but it is important 
to stay in that rule if we can.

 STATEMENT OF FRAN MAINELLA, DIRECTOR, NATIONAL PARK SERVICE, 
    ACCOMPANIED BY MIKE TOLLEFSON, SUPERINTENDENT, YOSEMITE 
  NATIONAL PARK; RANDY JONES, NATIONAL PARK SERVICE; AND JON 
        JARVIS, REGIONAL DIRECTOR, NATIONAL PARK SERVICE

    Ms. Mainella. Thank you, Mr. Chairman. Good morning. I 
really appreciate all of you being here and taking the time out 
of your schedule to visit, particularly here on Earth Day and 
part of National Park Week, to be here in Yosemite, one of the 
key cornerstones of our National Park System. I really 
appreciate that all of you took the time to do that.
    Also, I am going to ask if I could have my written 
statement put into the record. I am going to do a summary and 
hopefully be able to stay within that 5-minute period.
    Mr. Radanovich. There being no objection, so ordered. 
Frankly, that is the better way to do it.
    Ms. Mainella. Thank you, sir.
    I do want to mention, though, before I get into some actual 
comments on our issues that we are going to be working on, I 
just want to make sure--and I talked to some of the folks here 
in the audience as I arrived and things to make sure everyone 
knows that we, under this administration, the focus of what we 
like to do, and it matches up so well with your gateway bill, 
Mr. Chairman, that you are working on, is that it is very, very 
important, in fact it is mandatory in our Park Service now, to 
be working with gateway communities and reaching out to 
partners, environmental leaders, recreation users. And this is 
not just something nice to do, it is something expected to do.
    And, in fact, I brought Mike Tollefson in, and I got a lot 
of nasty letters from Smokies because--from those communities 
saying that I pulled him away. But he is here because of his 
ability to work so well with the communities. And I think that 
is an important message that I hope we can send out throughout, 
no matter what issues we talk about, that communication is 
absolutely important.
    I think you know Secretary Norton has really always focused 
on what she calls her four Cs, which is communication, which is 
cooperation, and consultation, all under the service of 
conservation. And I think that, again, this is important for 
us, and you will see that constantly demonstrated through the 
National Park Service as we go forward. So I would just really 
appreciate that acknowledgment of all that we are working on.
    Again, Mr. Chairman, I am just very pleased to be here and 
to be able to talk about where we are in the implementation of 
the Yosemite Valley plan. And I know that this is so important, 
as you know yourself the memories and the values that come when 
you visit Yosemite. Once someone is here, there is an ownership 
that all of us take because it is so significant. And we want 
to make sure that everyone knows that the National Park Service 
is not trying to ever keep people away. We want to encourage 
folks to visit our parks, and we want to emphasize that as we 
go forward not only here at Yosemite, but at so many of our 
parks, 388 in fact, as we address visitation.
    Now, one thing that is unique here in Yosemite, 
particularly, I think, from about over the last couple of 
decades there has been a major change in Yosemite, is that we 
have gone from a number of decades ago where it was 20 percent 
of the visitation was day use--in other words, just coming in 
for the day and leaving--and 80 percent was overnight stays. 
What has happened now, though, is a major change, and this is 
not unique to Yosemite--we are seeing it across our national 
system both not only in national parks, but in State parks and 
others--is a switch to a much heavier visitation by our day use 
visitors. In fact, it is actually completely swapped. It is now 
80 percent day use and 20 percent overnight.
    And this is something that what I hope that you will see in 
the plan that we are working on is in further enhancing, and, 
in fact, as we look at some of the campground areas and things 
like that, emphasizing more day use on some of those, and 
increasing and welcoming our visitors to the park and making 
sure they understand that we do have opportunities here, and we 
welcome our visitors to this to Yosemite, and not--and all our 
national parks throughout.
    Again, as you know, we are currently working on 15 major 
projects--and all of you in Congress, particularly your 
leadership, Congressman Radanovich--for us to be able to move 
forward in this first implementation. And, in fact, we expect 
that this first implementation--and later we can have Mike or 
others go over some of the details of that implementation 
plan--be able to make sure that by December hopefully--our goal 
is to have the majority of the work done by December of 2004. 
It may overlap a little bit into 2005 if we have more 
snowstorms, but this is something that we are really working to 
do.
    And these are major changes that will help traffic flow. It 
will--in fact, we will be working not only to get some of these 
projects done, we are always going to be working on one or two 
additionals that weren't on that list. As you know, in fact, I 
think, starting tomorrow, we are going to actually be working 
on some areas that will further enhance on some projects that 
will actually displace some parking, but in doing so we are 
actually going to increase parking in other areas so that we 
have no net loss of parking in the valley, particularly over 
the next 5 to 7 years as we work forward, and then we will 
continue to readdress that. And we will do what we call 
adaptive management, Mr. Chairman, and we will be looking at 
where that leaves us as far as the parking situation. So I just 
wanted to give you that heads up.
    Also, as you know--and you have helped us work forward on 
the transportation system for Yosemite. And the YARTS system 
really has increased 20 percent over the last 2 years. We do 
expect to see it continue to increase. But again, we want to 
emphasize heavily to make that the enjoyable way and the way to 
work with the gateway communities so some of the business not 
only stays here in the park, but also in those gateway 
communities. And we will look forward to further enhancing 
that.
    We are going to be working on energy efficiency, and we 
talked about some of that yesterday, Mr. Chairman, on how we 
could be more environmentally friendly and work forward with 
our transportation. And as you know, we are looking at possibly 
a diesel-electric hybrid engine, and we rode on one this 
morning to see an example, the quietness and everything. So we 
are going to be working on that as well, and we hope to have 
that moving forward. And this will help us also in our air 
quality, which not only helps the park, but helps all our 
communities. And also in the YARTS, it is in its 4th year, and 
again would be increased. As we work on the technology, we hope 
to further make it the method of choice as people come in, but 
still make available parking opportunities within the park.
    On the subject of campgrounds, which I notice has been such 
an important one, and I apologize to you for that report 
getting to you only a few minutes before--may I continue? I am 
out of time.
    Mr. Radanovich. Please do.
    Ms. Mainella. OK. I talk a lot. Yeah. But on the subject of 
campgrounds, I apologize for that report coming in. In all 
honesty, we had to make sure it went within a format that was 
appropriate within, and many eyes looked at that as it went up. 
So I just want to make sure you know it was important, it was 
high on our radar screen. And this is the first report I am 
talking about is the one that the Appropriations Committee 
asked us to work on, but I know you had worked with them.
    Looking at more of the out-of-valley campgrounds, and to 
make sure that we looked at what opportunities we have, I think 
at this point--and Mike, correct me--we have over--we are close 
to 1,500 campsites in the park today, but only about 475 are 
actually in the valley at this moment. But out-of-valley, that 
report indicated 788 additional campsites could come in.
    Now, to be able to move forward quickly on that, of that 
788, 204 actually match all requirements. And if we can get 
some additional funding to move forward on that or work with 
partners in that, we can move forward on that very rapidly.
    Mr. Radanovich. Can you run through those numbers again 
quickly?
    Ms. Mainella. Yes. What we have right now--and help me, 
Mike, if I go astray, please--is that we have right now, I 
think, close to 1,500 campsites.
    Mr. Radanovich. That is preflood?
    Ms. Mainella. No. That is now.
    Mr. Radanovich. Now.
    Ms. Mainella. Throughout the park now, right now, 1,542. 
Thank you. He whispered in my ear. And of that, of that 1,500 
plus, is 475 that are in the valley itself.
    Mr. Radanovich. Preflood or now?
    Ms. Mainella. No. Now. The prefloods were higher numbers; 
it was close to 800 in the valley.
    We are able to add in with that 204, that out-of-valley, an 
25 additional in-valley that would match up with the management 
plan. Those are things that we could be doing now that is 
compatible.
    Mr. Radanovich. Two hundred four out-of-valley?
    Ms. Mainella. Two hundred four, yes.
    Mr. Radanovich. Twenty-five in-valley?
    Ms. Mainella. Twenty-five in-valley, right. So that would 
jump us up to 1,700 plus campsites at Yosemite, at the park as 
a whole. And so we would be able to move very rapidly on that. 
Again, it would match up with all the plans, and we just would 
need to do some additional funding opportunities. But those are 
some things that I think we can work on and find, again, as we 
work with different individuals, partners, and other things, 
there may be other opportunities for us to move on those very 
quickly.
    The in-valley assessment--and remember, you asked us to do 
a report on the in-valley assessment of campsites separate from 
the out-of-valley that the Appropriations Committee--they 
identified 144 sites possible. And that is remembering in the 
valley originally there was about 3--it was 828 originally; we 
have got 475, and adding another 25 and 50 leaves--the 144 is 
the part that at this point it would be possible.
    Now, in doing that, though, that possibility does not match 
up with the plans. So that is where we have a concern: It does 
not match up with the plans.
    Also, if you go back to my initial comment about 80 percent 
of our visitation now--and by the way, over that two decades, 
even though we had a little drop since September 11th and 
things of that nature, we have actually increased from two 
decades ago, which we were 2.5 million. We are now at 3.4 
million visitors to the park today, and--but that we really 
feel we need to emphasize those day use visitors and find a way 
in that area, in the valley areas where we had some of the 
campsites, to make it so that that larger group, the 80 
percent, can be better served through opportunities through--
and we would be working through an EA, environmental 
assessment, to work with our partners and all the folks, so 
many of the folks here we would want to include, to talk about 
what opportunities we could do there, but still be respectful 
of being in a flood plain.
    But the big thing is reaching out, trying to serve, and 
parks change as to the use, but I am seeing that, across our 
national parks as a whole, a greater visitation day use. And it 
is because a lot of the gateway communities are really jumping 
forth to help us with accommodations. And also the visitations 
to park used to be--remember, we used to do vacation a week to 
2 weeks; now you looking at the majority being much shorter. 
And I don't have all the statistical numbers, but when I served 
on the Commission on Tourism in Florida, we had watched those 
numbers drop to 4 to 5 days as a typical visitation. And 
possibly our folks from--a concessionaire can maybe verify what 
that number drop is. Again, we want to emphasize biking, 
hiking, picnicking, and many other activities.
    And then I would like to work with our partners, our 
communities again, and see if there is any opportunities for us 
to work in adjacent communities to provide some additional 
camping or other accommodations, which I think began--most of 
my experience at other parks, both in State parks and even here 
in the Federal system, most communities like to get the housing 
and overnight accommodations in their communities, and actually 
the normal opposition we receive is, don't build in the parks. 
Make that the day use, the area for people to come; have some 
minor accommodations that draw people there, but then put a 
great emphasis on the outside of the park. And that is more of 
a standard in a lot of our areas and to be having that request.
    I am ready to close because I know I am way past my time, 
but I just think that there is so many exciting things we could 
be doing. And again, I want to just reach out to all the 
communities and all the people that are here as well as all of 
you to realize that we have a commitment. And I guarantee you 
that we will be working much more aggressively in communication 
across all this area, and we are doing it not just here, but in 
all our parks. I think Delegate Christensen knows that we are 
really working hard on that in the Virgin Islands. And, 
Congressman Nunes, I guarantee you we are going to continue to 
work with you on some issues at Sequoia and others that we need 
to talk about. But the biggest thing is we need to reach out 
and make sure we are communicating. And that is a commitment on 
my part, and this team that is sitting here at the table have 
that same commitment.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Director.
    [The prepared statement of Ms. Mainella follows:]

    Statement of Fran P. Mainella, Director, National Park Service, 
                    U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
Subcommittee at this oversight hearing on the Yosemite Valley Plan here 
at Yosemite National Park. I am accompanied by Durand Jones, Deputy 
Director; Jon Jarvis, Regional Director for the Pacific West Region; 
and Michael Tollefson, Superintendent of Yosemite National Park.
    It is a pleasure to have you and the Subcommittee here at the park, 
and we appreciate the opportunity you have provided for us to update 
you on the important projects that are being undertaken here. These 
include the park's transportation plans and the identification of 
potential additional campsites for park visitors.
    I would like to begin by discussing visitation here at Yosemite 
National Park and how it fits with the implementation of the Yosemite 
Valley Plan. Two decades ago, annual visitation at Yosemite was about 
2.5 million, and about 80 percent of the visitors stayed overnight 
while 20 percent came for the day. Now the park receives about 3.4 
million visitors annually, and the proportion of overnight versus day-
use visitors is the reverse: 80 percent are day users while 20 percent 
stay overnight. We believe this change has occurred largely because 
more visitors are using lodging in Yosemite's gateway communities. The 
Yosemite Valley Plan recognizes this trend and seeks changes that will 
accommodate the higher day use of the valley and the park while 
improving the experience of all visitors to Yosemite and protecting the 
park's resources.
    At the same time, the Yosemite Valley Plan also seeks to respect 
the traditions and strong connections many visitors feel with Yosemite. 
We know from surveys that fully half of the park's visitors are making 
return visits. The public comment periods for the Yosemite Valley Plan 
and the Merced Wild and Scenic River Comprehensive Management Plan, 
both of which were completed in 2000, drew more than 22,000 comments, 
demonstrating an extraordinary level of public interest in the park's 
future. This public involvement helped guide the National Park Service 
toward adoption of final plans that we believe will preserve and 
enhance the essence of what so many people find special about visiting 
Yosemite.
First Phase Projects
    We are making significant progress on 15 projects that comprise the 
first phase of implementation of the Yosemite Valley Plan, as reported 
to Congress last year. These are listed on the chart we have labeled as 
``Exhibit 1'' and are identified in this statement by numbers that 
correspond to the chart. This chart, which includes a timeline for the 
projects, is also attached to this statement.
    The Yosemite Falls Project (1) is a tremendous public-private 
partnership, funded predominately by the Yosemite Fund. As a project in 
which the park is working closely with the private sector and local 
communities, it exemplifies what Secretary Gale Norton refers to as the 
``4 C's'': consultation, coordination, and communication all in the 
service of conservation. The major trail improvements have begun and 
the main portion of the project, the relocation of the parking lot and 
restrooms out of the primary view of the waterfalls, will be completed 
in the fall of 2004.
    We will be removing the Cascades Diversion Dam (2) this fall. We 
are beginning Phase I of the Yosemite Lodge Project (3), which includes 
improvements for visitors enjoying the lodge in Yosemite. We are also 
designing the expansion of Camp 4 (4) and improvements to traffic flow 
on Northside Drive (5).
    In addition, we have been working closely with the American Indian 
Council of Mariposa County in another important partnership to design 
an Indian Cultural Center (6) here in the Valley. This fall, the new 
Curry Village cabins (7) and employee housing to replace housing lost 
in the 1997 flood (8) will be completed. These projects will include 
new utility services, which will be the start of the valley-wide Master 
Utilities Upgrade that will vastly improve conditions for modern 
electrical and other utility needs in the valley, while consolidating 
these functions in roadways and other previously disturbed areas so 
that sensitive resources in the park will be preserved.
    The National Park Service will also be making important campground 
improvements in the eastern end of Yosemite Valley (9). These 
campground projects are especially important in meeting our goals of 
maintaining levels of camping opportunities consistent with the 
Yosemite Valley Plan, the Merced River Plan and the 1980 General 
Management Plan. They are a key component of the goal to eventually 
have 500 campsites available in the valley, 25 more than are currently 
available.
    In addition to these critical projects, Yosemite has removed the 
Happy Isles Bridge (10), and is developing plans for the construction 
of an office building in El Portal to replace office space in the 
valley that was lost in the 1997 flood (11).
    We are also developing an important strategy to restore degraded 
and lost riparian and wetland areas along the Merced River in former 
campground areas damaged in the 1997 floods (12). These riverbank areas 
and riparian zones are highly threatened components of the valley 
ecosystem within Yosemite and throughout the Sierra Nevada. Because of 
the unique value of these areas along the beautiful Merced River, 
enhanced visitor use is being integrated with restoration plans to 
offer more visitors opportunities to use these areas for a variety of 
activities, such as picnicking and hiking.
Shuttle Bus Replacement and Transportation
    The transportation system for Yosemite will take a major step 
forward this year when the park orders the new valley shuttle bus fleet 
for use starting in 2005 (13). This new fleet will meet modern goals of 
fuel and emissions efficiencies and provide reliable alternative 
transportation. This is fundamental to reducing congestion, 
accommodating more visitors in the park, and improving the visitor 
experience in the valley.
    After listening to our gateway communities and park visitors and 
conducting extensive analyses, the park decided to purchase new buses 
that use a proven technology known as a ``diesel-electric hybrid'' 
engine. The National Park Service studied many alternatives looking for 
ease of visitor use, reliability, and a reduction of emissions. We 
believe this hybrid design will meet the concerns of the public for the 
visitor experience, noise reduction, and improvement of air quality in 
Yosemite and the region. In addition to this new bus fleet, we are 
developing new shuttle bus stops (14) to accommodate the new buses and 
to improve the overall transportation experience in Yosemite Valley. 
Eventually these will be linked to the improved parking area at 
Yosemite Village (Camp 6) and other valley destinations.
    On the subject of improved transportation, I would like to mention 
that the Yosemite Area Regional Transportation System (YARTS) is now 
entering its fourth year of providing visitors, gateway communities, 
and Yosemite employees an alternative to driving their own vehicles to 
Yosemite. YARTS provides excellent service and connections to broader 
transportation systems such as Amtrak. Visitor usage of YARTS has 
increased by about 20 percent in each of the last two years. Although 
ridership and revenues are increasing, in order to become fully 
functional, YARTS is still in need of strong support to help it expand 
and provide quality service. We are grateful to you, Mr. Chairman, for 
your leadership in the development of YARTS, and to the many partners 
in the communities adjacent to Yosemite that have funded and continue 
to manage and support the YARTS system.
    While we anticipate that visitor use of alternative transportation 
will continue to grow, I want to note that over the next five to seven 
years, while Yosemite Valley Plan projects are underway, the 
availability of parking for day visitors will not be curtailed. As the 
various implementation projects are undertaken, some parking areas will 
change but during this time there will be no net loss of day use 
private-vehicle parking spaces in the valley.
Campground Planning Studies
    Mr. Chairman, the final item on our list is the Parkwide Campground 
Planning Study (15), recently prepared in response to the House 
Appropriations Committee report on the Department of the Interior and 
Related Agencies Appropriations for Fiscal Year 2002. The report 
directed the National Park Service to undertake a study of the 
potential for expanded opportunities for additional camping in Yosemite 
National Park.
    There are currently approximately 1,490 campsites within Yosemite 
National Park, including 475 within the valley. This study looked at 13 
different areas outside the valley, determined the number and type of 
campsites that could be reasonably accommodated at each location, and 
estimated the costs of constructing the new campsites. It identified 
788 potential new campsites of various types within these areas. The 
study is a useful starting point for planning additional campsites, but 
it is not a formal decision document or a compliance document.
    In reviewing this study, the park found that constructing the 
majority of these new sites would require extensive compliance along 
with amendments to the 1980 General Management Plan, as modified by the 
Yosemite Valley Plan, and the Merced River plan. However, the park 
could develop 204 of the identified sites while still complying with 
approved plans. If the additional 25 sites planned for Yosemite Valley 
are added to that number, that would increase number of planned 
campsites by 229, to a total of 1,719 for the park. Yet placement of 
campgrounds would still be limited to areas of Yosemite that were found 
through the planning process to be capable of withstanding the impacts 
of development.
    In addition to the campground study requested by the House 
Appropriations Committee, the park has also prepared a report at your 
request, Mr. Chairman, on replacement of campsites in the Lower Pines, 
Lower River, and Upper River campground areas in the valley. This 
report identified the potential for some campsites in these areas. 
However, using these areas for campgrounds that serve a limited number 
of overnight visitors would preclude making them available for greater 
numbers of day visitors to enjoy for hiking, picnicking, bicycling, and 
other activities. And, developing campsites in these areas would 
require extensive compliance and amendments to the park's three 
approved plans, which would be very costly.
    We share the concern of this Subcommittee about the need to 
accommodate more visitors who wish to camp at Yosemite. The public's 
keen interest in camping has been demonstrated in many ways, including 
the fact that more than 1,400 of the 22,000 comments we received on the 
Yosemite Valley Plan and the Merced River plan addressed camping in 
some form. As we work to increase the availability of campsites within 
Yosemite National Park, we are also cooperating with our gateway 
partners, as well as other Federal and state agencies, to increase the 
capacity for providing camping opportunities outside the park.
    Mr. Chairman, to conclude, the projects underway at Yosemite are 
designed to serve more visitors in better ways, and to enhance the 
experience of everyone who visits this magnificent park, now and in the 
future. They represent some of the most exciting projects we are 
engaged in anywhere in the National Park System today. We look forward 
to moving ahead with these projects with the involvement of our 
neighbors and partners, and with your continued interest and support. 
We would be pleased to answer any questions you or the other members of 
the Subcommittee may have.
                                 ______
                                 
    [An attachment to Ms. Mainella's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T6612.001
    

    Mr. Radanovich. So all three of us can begin to get a 
little more detail about the parking plan and such, I did want 
to ask, since the flood and since the reduction of campground 
spaces particularly as to Upper and Lower River Campgrounds, 
there has been a concern, I think, for myself and a lot of 
people with the reduction of that in the Yosemite Valley plan 
that calls for a reduction of parking spaces down to about 550 
spaces.
    Moves like these since the flood and the adoption of the 
plan at closing hours at the administration has led me to be 
convinced of the Park Service's responsibility to be balancing 
environmental protection with public access and in the 
development of their plans that it is too skewed toward 
environmental preservation and does--particularly in the 
parking spaces, which we are not going to get into today. But 
the fact that a satellite bus system from satellite parking 
lots, and turning people back to park there, and then get bused 
in, as it was set up, for 9 months out of the year, and that is 
how we got our 550 spaces to me was a--you know, anybody who 
has been in Yosemite knows that any time there is heavy traffic 
in the valley in Yosemite is during the Memorial to Labor Day 
weekends, and then only a short time during those--you know, 
peak hours during those times. So even if someone could justify 
a satellite parking system for heavy times of traffic, it would 
only need to operate 3 months out of the year, not 9 months. 
And that is what has led to my conviction that there is a 
concern about blocking people out of the park.
    And as it relates to campgrounds, there is some concern--
you know, I have got a real concern about that being the case 
as well, even though there are some real tough issues about 
preservation and what we think we should be doing with the 
flood plain in Yosemite, particularly Northside Drive and Upper 
and Lower River Campgrounds and how does all that-- the 
increasing camping spaces, how does that affect traffic in the 
Yosemite Valley as it stands right now.
    So, I want to make sure that I get all these questions in 
my mind out so that you can answer them. But in the course of--
at least my concern as far as the camp spaces--that I am 
approaching this as a no land loss from preflood stages, and if 
we have to look at locating some of them outside the valley, 
that is fine. I want as many of them as can be to remain in the 
valley, and that is why that the controversy over these two 
campground spaces is with us right now.
    As I mentioned in my opening statement, if there was a line 
drawn 150 feet from each side of the Merced River as it relates 
to campgrounds, and camping spaces were allowed to be replaced, 
you would probably have 144 spaces, which is close to--let us 
see how I can say this--close to the commitment of no net loss 
camping sites, if you add that to the 204 that could be located 
outside the valley.
    So I am not real interested in opening up the general plan 
for Yosemite, because I think that it would stop a lot of 
projects that are going right now that I think are very good. 
If before we leave, too, if you can have yourself or one of the 
staff enter publicly in the comment--for right now, if you can 
briefly list the different projects that are moving forward 
right now, that would be really helpful because I think it is 
important that these were all consensus projects that are 
moving on very well.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6612.008
    

    Mr. Radanovich. Let me start the questioning. The value of 
the Yosemite whole plan is valued at--can you tell me?
    Ms. Mainella. Four hundred plus million. And actually, 
Mike, you want to jump in, feel free to do so.
    Mr. Radanovich. Yes. How much is available now from the 
money that was obtained shortly after the flood as appropriated 
from the Congress?
    Ms. Mainella. Right. As I say, I am going to turn to Mike. 
But we have about 105 million yet to be spending.
    Am I doing that right?
    Mr. Tollefson. That is correct. We have added some of the 
fee money and funds from other sources in to get some of these 
projects done as well.
    Mr. Radanovich. And that money can cover the 15 or so 
projects that have been started right now?
    Mr. Tollefson. Fifteen projects are funded to get them done 
in the next year and a half.
    Mr. Radanovich. OK. And if you can, list me those 15. You 
want to do it now, Mike, if it is in your head, or when you can 
get the information, if you can?
    Mr. Tollefson. I can do it now. The projects, the first one 
that I will list is phase 1 of the lodge restoration, which is 
putting 90 units back in the lodge area that many were lost 
during the floods. So this is moving to that.
    The second one which is under way and we are really excited 
about is the Yosemite Falls project, which is a partnership 
with Yosemite Fund. They are--actually private donations are 
paying for 90 percent of the project, and the construction on 
that is under way as we speak. And we are real excited about 
the future of Yosemite Falls and the improved access to all 
visitors.
    Another one is design of the--redesign of Camp 4, the 
camping there. We are looking to double the amount of campsites 
available in Camp 4. And that is design only, which will be 
done in the next few months.
    Again, a design-only project is the Indian Cultural Center, 
which is adjacent to Camp 4, west of Camp 4, and we are doing 
that in partnership with the local tribe.
    We are redesigning the reroute of North Shore Road, and how 
we can eliminate that bottleneck and where the lodge is going 
to the falls, which is one of our major tracking problems in 
the park, as you know.
    Mr. Radanovich. Right.
    Mr. Tollefson. We are going to begin construction of 10 new 
duplex cabins in Curry Village. That is scheduled to start 
later this year.
    We are also doing the expansion and remodeling some of the 
existing campgrounds, improving those sites and building out in 
valley campgrounds where we camp, as we have talked about 
earlier.
    Hopefully next month we will be letting a contract to 
purchase new shuttle buses, hopefully 19 new hybrid electric-
diesel buses similar to the one that is in the valley today, 
which will greatly improve--reduce emissions and reduce noise 
in the valley.
    Mr. Radanovich. And that is only for in-park 
transportation.
    Mr. Tollefson. That is only for in-valley transportation.
    Mr. Radanovich. In-valley. Thank you.
    Mr. Tollefson. We are also--much needed, we are going to 
begin the construction of Curry Village employee dorms for 219 
people. Again, that will be done by at the end of next year.
    We have already removed the Happy Isles bridge which was 
damaged during the flood.
    We will begin removal of Cascade Dam on the Merced River at 
the end of this summer.
    We are working on, as was mentioned, restoration plans and 
then the visitor use plans for the river's campground area and 
how we would use that in the future, and that public process 
has started as well.
    And the campground study was one of the 15 which has been 
turned in to you now.
    And then the last of the 15 is to replace the flood--some 
flood-damaged offices with an office down in El Portel. Along 
with that, what was done with the 15, we are replacing a lot of 
the utilities as we move forward in that with FEMA, with the 
flood money.
    Mr. Radanovich. Great. Thank you.
    Can you tell me, Mike, is any of that money being used for 
satellite parking systems or--
    Mr. Tollefson. No.
    Mr. Radanovich. --North Side Drive or for any of that?
    Mr. Tollefson. No. North Side Drive, while we don't have 
that final plan yet, we may reroute it around the lodge, and 
that will be a public review process that will start later this 
year. But the satellite parking is off in the distant future, I 
want to say 10 years, before we really look at that. And we 
need to see how opportunities like YARTS works out over time. 
That may eliminate the need for satellite parking.
    Mr. Radanovich. And so that any funding for any project 
that was not mentioned by you just now that is in the plan will 
have to be appropriated by the Congress?
    Mr. Tollefson. Yes, sir.
    Mr. Radanovich. OK.
    OK. I am going to turn it over to you, Donna. I have got a 
lot of questions still, but I figure I have to chair a little 
bit here.
    Mrs. Christensen. Thanks, George.
    Well, I will start out by saying I see a lot of progress 
having been made since our hearing in March of 2001, And it 
also makes a lot more sense now that I have seen Yosemite.
    Two quick questions. How many campsites were there before 
the flood? Probably everybody else knows that.
    Mr. Tollefson. In the valley, there were 828 campsites.
    Mrs. Christensen. And on the parking spaces, in reference 
to the 500 parking spaces, but that does not include parking 
spaces at the campsites or the lodge; am I correct? That is 
just--
    Mr. Tollefson. That is for the day use. It is not for the 
lodge or overnight use.
    Ms. Christensen. So it is actually more than 500 parking 
spaces that would be available?
    Mr. Tollefson. Yes.
    Ms. Christensen. The plan has had at least 18 public 
meetings, 14 of them in California, and I am assuming that some 
of those 14 were with the gateway communities. How would you 
rate this plan in terms of the opportunities for public 
comment? It seems to me that there was like a great deal of 
opportunity for public comment.
    Mr. Tollefson. We received about 22,000 comments on the 
plan.
    Ms. Christensen. Is that about average? Is that high?
    Mr. Tollefson. I would say with the advent of Internet, we 
get more comments. But I think my review of the plan--I have 
only been here 3 months, but my review of the plan is that many 
of those comments were very substantive and high-quality 
comments as opposed to a mass mailing on e-mail. So my 
impression is that the outreach to get input was good.
    Ms. Christensen. And as a follow-up to that, is that the 
end of the comment process? I believe you said that you intend 
to continue this process. I want to, just for the record, 
clarify that that is not the end of the discussions and 
collaboration with the community.
    Mr. Tollefson. It is definitely not the end of the 
discussions. They are ongoing and beginning. But it is also not 
the end of the formal opportunity to comment. There is many of 
the--even some of the 15 plans that I just outlined, while they 
were identified in the valley plan, the specifics of them were 
not. So as we go through the specifics, we are doing 
environmental assessments that are open for public comment. 
And, in fact, tomorrow we have a public meeting in this room to 
talk about some of those plans, and that will be an ongoing 
process. The best end result is when we have the opportunity 
for a wide variety of people to get involved in conversation.
    Ms. Christensen. And just if I may follow up, one of the 
things that I expect of Mike and Jon and, you know, as they 
work throughout the parks in this whole region is that this 
communication is not--we may have some issues specifically we 
are focusing on, but we want to get into, where we have regular 
ongoing what I call non-crisis-oriented or nonspecific 
projects, regularly communicating and getting together. And I 
think already you brought on a staff person to help us in that 
effort right now.
    Ms. Mainella. Right.
    Ms. Christensen. I had had a question which I think you had 
pretty much answered in your opening statement, Director 
Mainella, about the importance of the gateway community 
relationship, because those are concerns that were raised in 
our meeting or our hearing back in 2001 that perhaps this 
relationship was not as it should have been. Do you want to 
make any further comment? That sounds like it is pretty well--
    Ms. Mainella. Again, we have brought forth through this 
administration a greater emphasis on working beyond your 
boundaries, as we call it. And, in fact, we do not hire a 
superintendent anymore unless they know how to work in 
partnership with our environmental leaders, with our recreation 
users, with our communities. They must go beyond. And very 
shortly a finalization of the Director's order, Mr. Chairman, 
that we talked about before on specific engagement and public 
involvement will be forthcoming that hopefully we all can do 
together, because it spurred from a Committee meeting that we 
had back some time ago to make sure that is very clear 
throughout the whole National Park System.
    Ms. Christensen. A question that might go directly on the 
campsites, the ones that would be near the river, the ones that 
are not being planned to be replaced. You know, we have been 
going through discussions in Washington and the Congress about 
the flood insurance program, and there are many Members of 
Congress who have--well, there are some who have said, you 
know, maybe we ought to repeal it, because what happens is 
people keep rebuilding back in the flood-prone areas. So to me 
it sounds not only a matter of maintaining the ecology and 
allowing that to flourish, but isn't safety a big concern and 
consideration in not replacing those campsites there?
    Ms. Mainella. Well, the safety of our visitors is paramount 
and as well as safety of our employees, and we really need to 
continue to look at, you know, how we can make sure anything--
even as we look at the recreation increase that we like to see 
in that area, to make sure that those are done in a safe 
manner, and also facilities that are placed in there are either 
able to be quickly removed and moved to higher ground in a 
quicker action, or be able to address again how we can best 
take care of those flood plain areas.
    Ms. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Donna.
    Devin.
    Mr. Nunes. Thank you, Mr. Chairman.
    Director Mainella, in your statement you said about 20 
years ago there was 2-1/2 million visitors, and 80 percent of 
them were overnight users. Today there is 1,500 campsites in 
the entire park, and there is--I want to get the number here--
5---or less than 500 postflood; there used to be 820 campsites 
preflood. I am interested to know how many campsites were 
available 20 years ago when you had more overnight visitors.
    Mr. Tollefson. I will have to get that for you. I don't 
know off the top of my head.
    Mr. Nunes. Does anyone here know? I am asking this question 
because, if you do the simple 20, 80 percentage that you talked 
about, that means there was 500,000 day visitors approximately 
20 years ago, and 2 million visitors who stayed overnight. 
Today, there is only 680,000 visitors that stay overnight and 
2.7 million that come during the day. And so something doesn't 
add up to me because it seems like there shouldn't be a 
shortage of campsites if we are only getting a third of the 
visitors that we had 20 years ago.
    Ms. Mainella. I think part of the issue, too, is the fact 
that, remember, we had the lodging as well, of the lodges like 
here in the park which contribute to the overnight 
accommodations, and for the most part--in fact, part of our 
project is actually enhancing that and trying to increase or at 
least make sure that everything is in good shape there. But we 
can go back and do some further analysis on that. But, you 
know, again, going back to the trend across the Nation, what I 
see, though, is people still would like to stay in parks, but 
at the same time the gateway communities have been a great 
boost for us. And that may be what you are also seeing in that 
change, because many communities here had already started 
moving forward with accommodations maybe in a quicker basis. 
But again, we will give you a full analysis because we don't 
have exactly that whole breakdown, but I know that is the 
switch.
    Mr. Nunes. Sir, do you have that number? You are raising 
your hand.
    Mr. Minault. I have the total weekend sites in the park in 
the 1980 general management plan. That number is 2,200--
    Mr. Radanovich. Sir, I am sorry. Can you state your name 
for the record?
    Mr. Minault. I am sorry. Paul Minault with The Access Fund.
    Mr. Radanovich. OK. Yeah. If you can quickly then give the 
information.
    Mr. Minault. Twenty-two hundred.
    Mr. Nunes. And the reason I ask this is we are here 
discussing parking spots, and at some point we have visitors 
that are coming and going daily, but it used to be that 
visitors would come and park, and they had to park somewhere. I 
am just trying to do the math to figure out where these people 
are parking, trying to get an historical perspective as to what 
they are doing. Now, if you would get that information to me, I 
would appreciate it.
    But I have one more question, and that is that what 
percentage or how many people per year are using the current 
bus transportation that we have in and out of the park on a 
daily basis?
    Mr. Tollefson. It is about 60,000 people.
    Mr. Nunes. Sixty thousand people.
    Mr. Tollefson. Yes. And it is in the last 2 years the 
visitor ridership on that each year has grown 20 percent.
    Mr. Nunes. OK.
    Mr. Chairman, I think that is it.
    Mr. Radanovich. Thank you, Devin.
    I want to get into specifics of the campground study here 
briefly, but I do want to get a couple questions answered on 
the plan for you, Fran, if you would.
    Can you tell me if the Park Service and the Bush 
administration believe that cars must be removed from the 
valley, and that only mass transit or only public 
transportation should be used to bring people into and out of 
the valley?
    Ms. Mainella. Mr. Chairman, we never see a time when all 
cars are removed from the valley or anything like that. We do 
want to, though, through a bit more businesslike marketing 
approach, bring--have the desired method of entry into the park 
to be one that, again, works with our gateway communities to be 
as much mass transportation as we can do.
    One of the things that we recently did, like in Glacier 
National Park, the red bus has returned, and that has become a 
very popular way--in other words, interpretation opportunities, 
access in certain ways has really been enhanced because those 
buses come in; Zion National Park and others, a very similar 
scenario. So we have had a lot of success stories. But again, 
we need to try to be more businesslike, and you know we are 
working on that as well as partnership aspects, to make sure 
that we have the experience as people come in on the buses and 
others have a part of the total experience rather than just a 
method of transportation.
    Mr. Radanovich. Very good. Thank you.
    Director Mainella or Mr. Tollefson, those who strongly 
support the implementing of the Yosemite Valley plan have 
stated over and over their opposition to revisiting the Upper 
and Lower River campgrounds, campsite, or parking issues 
because it would force the Service to reopen the plan. Does the 
Park Service have to reopen the entire plan to address this 
issue? And has the Service made any changes to the plan in 
which it has not had to reopen the plan?
    Ms. Mainella. Mr. Chairman, it is my understanding that it 
would reopen the plan. And I will be glad to continue to work 
with you and discuss if there are any other alternatives. But 
all we know, and the counsel we received, it would require 
reopening of the plan.
    Mr. Radanovich. Is there leeway for changes to the plan 
that can be made without reopening it? Can you give me some 
input on that?
    Ms. Mainella. Again, we can use adaptive management. For 
example, when we are going to start some construction coming 
up, and this is a parking-related one versus camping, is we are 
going to actually increase at Camp 6--at least our vision is to 
increase parking there while--because we are removing it during 
construction from other areas.
    So there is a lot of adaptive management opportunities, and 
I think, again, you know, we need to, in my mind, continue to 
move forward as best as we can with this plan, get things done, 
and succeed. And then if there are other issues as evolve 
through the trends and changes that we can use, then be ready 
to say if there is something else that needs to be further 
addressed, then we can do so.
    But at this point, my understanding, it would reopen the 
plan; in fact, not just this plan, but the Merced also, I 
think, and that would probably slow--almost slows down if not 
bring us to a halt on our projects we are working on now.
    Mr. Radanovich. On other projects as well?
    Recently, the Park Service commissioned a study that I had 
asked for that studies the former Lower Pines and Upper and 
Lower River Campgrounds. The conclusion of that study stated 
that 144 campsites could be accommodated based on a 150-foot 
river protection overlay or setback. Obviously, the 144 number 
is way short of the 361 sites that existed before the 1997 
flood. Does the Service support at minimum building 144 
campsites on the former campgrounds?
    Ms. Mainella. At this point we would not--we need to follow 
the plan at this point, and so we would not be recommending 
that 144. But again, we do feel it necessary to continue to 
increase the recreational opportunities in that in going after, 
again, the increase in day visitors as the way to better 
welcome people into the park, and then look at the out-of-
valley opportunities, including even with our partners on this.
    Mr. Radanovich. Thank you.
    Now, I would like to get some detail on a campground study 
that has just been released. If you could give me some of that 
detail, Fran. Also, as it relates to costs of--to me, the 
issues--that there were a multiple, I think, number of issues 
that relate to campground replacement, one being the 
possibility of more campgrounds in the valley as it contributes 
to--whether or not it does--to traffic congestion in the 
valley. The other was the cost of infrastructure replacement 
and the study of whether or not, if infrastructure was 
replaced, in particular water and sewer lines, it can be done 
in such a way that would not be affected by a 50- or 100-year 
flood in a minimum-use area like that, and I am hoping that the 
study addressed that.
    And then also the cost of infrastructure costs for locating 
these campground spaces, the 204 that you identified outside 
the valley. As you know, that there are, you know, water and 
sewage treatment and things, issues that need to be addressed 
on that, and give me an idea of the cost that would be 
associated that compared to the cost of replacing 
infrastructure at these campgrounds here in the valley.
    Ms. Mainella. I am actually going to turn this to Mike, and 
if Jon or anyone else has any comments. But one of the things I 
do want to mention is that we are not comfortable with any of 
the--some of the numbers or things of that nature, numbers 
being dollars and cents on some of the things that were in the 
reports. So we are definitely going to be wanting to revisit 
that.
    And, Mike, I am going to turn to you if you can talk about 
in more detail the plan of the report.
    Mr. Tollefson. I assume we are referring to the out-of-
valley campground studies.
    Mr. Radanovich. Yes.
    Mr. Tollefson. I think it is important to recognize, and 
for the folks here who haven't had an opportunity to see it 
yet, that that is a study and is not a finalized plan; that we 
would have to go through the planning process, probably doing 
an environmental assessment, to move forward on that project. 
And that plan itself identified 788 campsites spread around 
throughout the valley off of the existing road system. And 
looking at the general management plan through the park, 204 of 
those 788 sites match the general management plan and could be, 
I will use the word, in-filled. They are sites that were 
identified in the general management plan that had never been 
built. And for the most part those are in existing campsites 
such as Wawona or Tuolumne Meadows or Grand Flat areas, areas 
like that where we could expand existing campgrounds and 
provide more additional sites. And that is where the 204 comes.
    The other sites, the remaining 500 plus, would probably 
require an environmental impact statement, because those are 
sites that are outside of the existing general management plan 
that would require a change to that and require quite a bit of 
detail, looking at if it is physically possible to put them 
there because the sites are flat. But whether or not it is the 
right thing to do is not a question that the study went into in 
any way.
    Mr. Radanovich. And does the study include the cost of what 
the infrastructure replacement cost would be for Upper and 
Lower River?
    Mr. Tollefson. Yes, it does.
    Mr. Radanovich. So that we have something to compare it to, 
correct?
    Mr. Tollefson. Yes. As the Director said, the costs, we 
feel, might be a little bit high, so we would like to take some 
time to relook at those, but they are equal in their estimate 
right at the moment.
    Mr. Radanovich. Thank you very much.
    Donna.
    Mrs. Christensen. Somewhere in the answers you may have 
answered this already, Superintendent. If so, direct this to 
you. Based on what Mr. Minault said, and my calculations of 
where we could get to was with 229 plus what we have now, we 
would be short about 485 compared to back in 1980. Do you 
anticipate that, given the shift in the 80-20, that you need to 
shoot for the 2,200 that were there before the flood, or is 
that your objective?
    Mr. Tollefson. The general management plan, which is our 
overarching guide, identifies 2,262 campsites. That would be 
our ultimate goal. But if part of the equation as we move 
forward, and especially looking at out-of-valley campsites, is 
what might be offered by the private sector in either case, we 
are not charging ahead today on those.
    Mr. Tollefson. We need to look at them as we move forward. 
If we were looking, for example, Foresta would be a place that 
would be considered for a campground, but there are a lot of 
issues and concerns around that, and we would want to partner 
with a lot of folks in conversation about that before we move 
forward. So while that number is our optimum number, whether or 
not we reach it really depends on future conversations and 
future planning.
    Mrs. Christensen. Director Mainella, you mentioned, is it 
Zion Park?
    Ms. Mainella. Right.
    Mrs. Christensen. I am not that familiar with it, but were 
the same kind of objections and concerns raised when they were 
planning the implementation of their shuttle system? And also 
the second part to that question, how is it working?
    Ms. Mainella. To my understanding, there were similar 
objections, but I am going to ask Randy Jones, our Deputy, who 
was at Rocky Mountain National Park at the time and could maybe 
speak to what was going on.
    Mr. Jones. Thank you.
    Actually our experience has been universal, but any time we 
initiate a new transportation system, there is a great deal of 
controversy and uncertainty as to its effects and how it will 
work. We are finding in places like Rocky Mountain and in Zion 
that as we are learning and developing, that actually there is 
a lot of public acceptance, and we are finding that we can get 
smarter and better as to how we manage and get people to the 
places they want to visit and, therefore, allow visitation to 
continue to grow and avoid situations of gridlock.
    And so we are learning, and we are growing. We are working 
with the Department of Transportation, the Federal Highway 
Administration, who are consultants in developing 
transportation systems, and the experience, especially at Zion, 
has been very successful.
    Mrs. Christensen. Thank you.
    The transportation plan based on expanding the system is 
going to be phased in, the phasing out of parking is going to 
be coordinated, or do we anticipate that we will be losing 
parking spaces before the shuttle system is implemented?
    Ms. Mainella. This kind of goes back to our adaptive 
management.
    Mrs. Christensen. Can you explain what that is?
    Ms. Mainella. I apologize. I got into park lingo, and I 
shouldn't have. Adaptive management is a term that all of us 
are using not only national parks, but into our fellow State 
parks and local parks. This is where we look at situations and 
evaluate the pace for which removal of the parking spaces will 
take place. We commit that timing based on making sure that we 
do not decrease the visitors' experience here. If it takes a 
little longer to get the enthusiasm and the marketability of 
the transportation system, then we will not be moving as 
quickly on removing parking until we make sure we have 
ourselves working forth, and that is the adaptive part. In 
other words, we may say, OK, here is the guideline we would 
like to work off of, but it adapts based on what is going on.
    I mentioned just the fact that weather can come in and 
change when we can actually develop something that is even on 
the list of 15, and we will not do things to hurt the 
visitation or to try to be negative to anyone's experience 
here. We can adapt our management and decisionmaking based off 
of what is transpiring. It is the same way as if somehow a bad 
storm comes through and does something negative here or 
somewhere else, we adapt our management strategies and timing. 
It doesn't mean, though, that we leave the plan in any way. It 
just means we do so in a time fashion that is friendly to our 
visitors. Thank you for asking that, though.
    Mr. Radanovich. Thanks, Donna.
    Devin?
    Mr. Nunes. I know that we are pressed for time, Mr. 
Chairman, so I will postpone any questions. Thank you.
    Mr. Radanovich. I am going to get something just briefly 
done, then we will move on to the next panel. I have got a lot 
of questions. Can you tell me, though, in any campground 
development or restoration, does the Park Service support the 
possibility of privatizing that function to a concessionaire?
    Ms. Mainella. The way we look at all our--again, I call 
it--it is we look at the business part of how is it best to be 
done in our park. Most campgrounds are run by the National Park 
Service because they are already existing and things of this 
nature. When you are building new campgrounds, then you need to 
be asking yourself the question, is it best that we do it? Do 
we work with one of our business partners or some others? And 
that is always an option. Or does one of our gateway 
communities somehow want to partner with us?
    We just--I don't have the answer of how we best move 
forward, but the biggest thing that I want you to hear from us 
today is we have good communication lines open, and there is 
never an idea that we certainly can't explore and discuss. This 
is what I would ask that we would do as we look at these 
different options.
    Mr. Radanovich. Thank you. Thank you, Director Mainella.
    This concludes the questions for this first panel. 
Director, if you could make somebody from your staff available, 
though, during the time these other panels are testifying, I am 
sure some other questions are going to come up. Your expertise 
would be appreciated.
    Ms. Mainella. Thank you all. I appreciate your time.
    Mr. Radanovich. Thanks very much.
    Mr. Radanovich. With that, we will call on our second 
panel. The second panel represents people who provide 
accommodations both in and outside the parks, and while you are 
here, plan on going to either the Pines Resort in Bass Lake, 
California, the Groveland Hotel in Groveland, or stay here with 
the hosting of Yosemite Concession Services. I can say that 
because they are all wonderful constituents and fine people.
    Our second panel is Mr. Steve Welch, who is the executive 
vice president of the Pines Resort in Bass Lake, California. 
Welcome, Steve. Ms. Peggy Mosley, who is the owner of the 
Groveland Hotel in Groveland, California. You reach that by 
taking Highway 120 out of the park. Bass Lake is Highway 41. 
Welcome, Peggy. Next, Mr. Kevin Kelly, who is the vice 
president of operations at Yosemite Concession Services 
Corporation here in Yosemite National Park. Welcome, Kevin.
    We are going to begin by everybody speaking for 5 minutes 
on your testimony. I didn't set a fine example here by limiting 
ourselves to the 5 minutes, but we are going to try to get this 
thing over with at 12:30. So if you could limit your statements 
to 5 minutes, and then after that when the panel is done, we 
will open up the panel to questions from members here.
    Steve, again, welcome. It is good to see you. Please begin.

STATEMENT OF STEPHEN WELCH, EXECUTIVE VICE PRESIDENT, THE PINES 
                 RESORT, BASS LAKE, CALIFORNIA

    Mr. Welch. Thank you, Mr. Chairman. First of all, I would 
like to thank you, Mr. Chairman, for your support of H.R. 620, 
the school bill, and also your support of 1014, the Gateway 
Communities Cooperation Act. I know we are not here to talk 
about that, but we do appreciate your support.
    Mr. Chairman and distinguished members of the Committee, I 
thank you for this opportunity to provide oral testimony about 
the Yosemite Valley plan. I am here to present the views of 
Madera County. We believe the plan is detrimental to the 
gateway communities and the American public and will ultimately 
result in environmental degradation of Yosemite itself if 
implemented. Therefore, we urge you to set aside the Yosemite 
Valley plan, including YARTS, and to put a hold on future 
funding requests.
    I will focus my oral comments in two areas, one, parking 
spaces and, two, the camping issue. First of all, parking 
spaces. The valley plan we see as an urban and mass transit 
busing plan with all projects focused on the stated goal of 
ultimately eliminating private vehicle access to Yosemite 
valley. Parking spaces previously available to our residents 
and our customers, those known as day users, will be 
eliminated, and they will be forced to travel on buses to 
access their national park. Incidentally, in 1980 there were 
2,500 parking spaces for day users. The plan is calling for a 
reduction to 550.
    What is the logic behind inconveniencing so many persons? 
The concept began in the 1970's when there was legitimate 
concern with respect to vehicle emissions. However, since that 
time new environmental regulations and advances in technology 
have resulted in near zero auto emissions. The same cannot be 
said of buses. Yet the predetermined bus agenda is as 
entrenched today as it was in 1980. The vision of the Park 
Service is to replace all clean cars with big, dirty buses. Bus 
traffic will replace car traffic with more noise, more glare, 
more sell, more visual intrusion and significantly more 
environmental degradation.
    Imagine a business today relying on a business plan with 
flawed functions that go back 25 years. What chance would it 
give of providing good direction today? So with this plan. An 
urban style system with massive park-and-ride lots, more than 
500 daily round trips, and a 22-bay transit center as the point 
of arrival in Yosemite Valley hardly seems environmentally 
superior.
    How about the social considerations? Most of our visitors 
live in urban areas and come to the mountains to get away from 
the citylike environment in search of freedom and flexibility. 
This system unnecessarily complicates and delays the families' 
visit. Herding visitors like cattle from place to place is the 
antithesis of a back-to-nature experience. The 1994 
transportation study even stated the greatest drawback would 
be, and I quote, loss of visitors' personal freedom to 
experience portions of Yosemite at their own pace and in their 
own way, end quote.
    We believe visitors should have the right to access their 
national park in any manner they choose. All should have a 
choice, not just those who can afford a $300 plus hotel room at 
the Ahwahnee. As presented, this urban mass transit plan 
promises to socially reengineer the national park experience.
    How about the economics of a mass transit system feeding 
the park? The initial estimated cost of buses alone is $28.2 
million, followed by annual operating costs of $13 million. Who 
will fund this? If the true costs were placed on the riders, it 
would be a financial hardship on many of our lower-income 
citizens. If the U.S. Treasury assumes the burden, then it 
becomes a taxpayer-subsidized program. Congress needs to 
exercise proper fiscal restraint and oversight. Can this 
expenditure be justified at any time, let alone now with our 
current projected budget deficits? Any busing, we believe, 
should be voluntary and private, self-supporting and not 
subsidized. So we see from an environmental, social and 
economic standpoint if a mass transit system doesn't make 
sense, why is it in the plan?
    We believe the plan process was fatally flawed and was a 
top-down plan driven by the prior administration with 
predetermined opinions. We ask now that you step back and sort 
through the rhetoric and apply common-sense judgments to the 
process. When you do, the answer becomes crystal clear: 
Maintain at least the current number of parking places; 
implement some simple, low-cost, low-impact traffic management 
measures; and scrap the unnecessary, costly and environmentally 
damaging mass transit system.
    No. 2, valley camping spaces. We support restoring valley 
campgrounds to the pre-1997 level. Camping is an activity 
enabling the visitor to enjoy nature up close and personal and 
is the consummate park experience, and it is at a very 
affordable cost. The reduction of driving sites in the valley 
from 828 to 330, that is a 60 percent reduction, is 
unacceptable. These sites are very important for families, 
seniors and the physically challenged. Relocation out of the 
valley, which is the ideal elevation for camping activity, will 
only increase traffic as those campers will want to access the 
services that are already located in the valley. Closing the 
river campgrounds and popular picnic areas for the purpose of 
claiming restoration appears to negatively target young 
families and those of limited means.
    In conclusion, I will wrap this up. These are the views of 
Madera County and are shared also by the Yosemite Sierra 
Visitor Bureau and a majority of the Highway 41 gateway 
community. The valley plan will adversely affect the visitor 
experience in terms of access and affordability. If access is 
not affordable and convenient, visitation will decline further 
and cause more economic hardship in our gateway communities. We 
urge you to set aside the Yosemite Valley plan so we won't 
cause irreparable damage to the environment, waste hundreds of 
millions of dollars, of taxpayer dollars, gamble with the 
economic vitality of our gateway communities and ultimately 
restrict the freedom of Americans to access and enjoy their 
park. Thank you very much.
    Mr. Radanovich. Thanks, Steve, very much.
    [The prepared statement of Mr. Welch follows:]

       Statement of Stephen R. Welch, Executive Vice President, 
                            The Pines Resort

    Mr. Chairman and distinguished members of the Committee, thank you 
for this opportunity to represent the concerns of the people of Madera 
County with respect to the Yosemite Valley Plan.
    Your written communication indicates that the purpose of this 
Public Hearing is to ``examine the implementation of the Yosemite 
Valley Plan.'' Once again, we respectfully request that the Committee 
thoroughly investigate the flawed process by which this Plan was 
developed, calling into question the validity of the Plan itself. 
Charged with oversight of the National Park Service, the National 
Environmental Policy Act (NEPA) and thus the Council on Environmental 
Quality (CEQ) which NEPA created, the Committee is in a unique position 
to recommend that this Yosemite Valley Plan be rescinded before the 
magnificent splendor that is Yosemite National Park is destroyed 
forever.
    Madera County continues to stand by our testimony presented at the 
2001 Subcommittee Hearing in Washington, DC. We believe our comments 
are every bit as valid now as they were then--especially as we observe 
the negative impacts of the 15 Valley Plan projects that have garnered 
the Committee's support. Restating our position, we request:
    1) LNo funding be appropriated for this Yosemite Valley Plan (and 
YARTS)
    2) LSet aside/rescind this Yosemite Valley Plan (and YARTS)
    3) LAll excess flood funding ($110 million) be returned to the U.S. 
Treasury
    4) LRedo the Merced River Plan in full compliance with the 
protective mandate of the Wild and Scenic Rivers Act, thus creating a 
solid foundation for all future plans
    As Congressman Radanovich has publicly stated in the press, ``the 
preparation of the plan, in fact the entire planning process, has been 
fatally flawed.'' To allow these Plans (Yosemite Valley Plan authorized 
by the Merced River Plan) to be implemented, as legally enabled by a 
Record of Decision, reflects the same lack of integrity as the corrupt 
process by which they were developed. We urge Congress and the Bush 
Administration to exercise jurisdictional oversight and demand agency 
accountability.
    And though we recognize that camping and parking issues are of 
particular interest today, they are only two isolated ``symptoms.'' The 
Committee needs to address the root ``disease''--the expired 1980 
General Management Plan, the Merced River Plan, and the Yosemite Valley 
Plan--clear and compelling evidence of a planning process corrupted by 
a predetermined agenda.
YOSEMITE NEVER HELD ACCOUNTABLE FOR DECEPTIVE FLOOD REQUEST
    When Congress passed Public Law 105-18 in June of 1997 awarding a 
$187,321,000 flood recovery package to Yosemite National Park, it was 
with the understanding that it would be used ``...for `construction' 
for emergency expenses resulting from flooding and other natural 
disasters...'' Yet then-Superintendent B.J. Griffin testified at the 
Subcommittee El Portal Oversight Hearing (3/22/97) that more than $123 
million was for pre-flood projects.
    And as stated in the ``Trip Report for Field Hearing on Yosemite 
Floods and to Conduct a review of the $200 million Emergency 
Supplemental Request for Appropriations for Yosemite'' prepared for 
this Committee (3/26/97) by a member of your professional staff:
         ``According to the transmittal by the White House to Congress, 
        ``Each request has been kept to the absolute essential level 
        and is limited to the amount necessary to restore damaged 
        property--that is, damage caused directly by the disaster--to 
        its pre-damaged condition.'' This is not true with respect to 
        the request for Yosemite Park. In addition, the National Park 
        Service has stated that its recovery proposal is guided by 
        three principles: (1) the 1980 General Management Plan, (2) 
        protection of park facilities from a similar level of flooding 
        in the future, and (3) reduction of the development footprint 
        in Yosemite Valley. These statements are also not accurate.''
         ``It is also clear that the National Park Service is using the 
        occasion of the flood to advance an entirely separate agenda 
        from flood restoration.''
    Apparently, such controversial warning signs were pushed aside in 
favor of the political capital that could be gained in solidifying 
funding to repair one of the world's treasures; you trusted that the 
funds would be used with integrity--even though in most cases there was 
no valid plan in place. But the ``red flags'' that were courageously 
raised in that congressional report have come back to haunt all of us; 
they are the centerpiece of why we're here today and they have fueled 
the controversy that has surrounded the Yosemite planning process for 
the past six years. Yosemite planning is driven by funding already 
received--money that is burning a hole in the agency's pocket.
AN URBAN BUS PLAN--PERIOD!!!
    Yosemite planning efforts since 1980 have obsessed about the 
``evil'' of cars and plotted their ultimate removal from Yosemite 
Valley.
    The Carter Administration's 1980 General Management Plan (GMP) 
advocated freeing the Valley ``from the noise, the smell, the glare, 
and the environmental degradation caused by thousands of vehicles.'' 
Insistent on removing all private automobiles from Yosemite Valley, it 
further stated ``the ultimate solution...in parks generally and in 
Yosemite specifically rests upon integration with regional 
transportation systems.''
    The 1994 Alternative Transportation Feasibility Study, in response 
to Public Law 102-240, recommended changes in Valley traffic 
circulation to facilitate implementation of a mass transit system: a 
shuttle transfer point and tour bus parking at Camp 6; elimination of 
visitor traffic on Northside Drive, except for emergency use; 
relocation/removal of Upper and Lower River campgrounds, restoring 
campgrounds to natural conditions; closing Stoneman Bridge road between 
Curry Village and Yosemite Village; widening Southside Drive for two-
way traffic as major access to the Valley; removal of stables; and 
more. The goal was to restrict access to the East end of the Valley, 
routing traffic instead across Sentinel Bridge to the transit center.
    The 1997 Flood Recovery Action Plan states ``the Draft Yosemite 
Valley Implementation Plan, must be approved before the transportation 
or campground replacement components of recovery can go forward.'' What 
replacement components of recovery? There was nothing to recover! As 
stated in the Trip Report for the El Portal Field Hearing (3/26/97): 
``The cost to re-open the campgrounds would be far less than relocating 
them elsewhere within the floodplain. The concessioner expressed an 
interest in taking over the campgrounds and could `rehabilitate' them 
at little cost to the Federal Government.'' A review of the campground 
and transportation packages makes it immediately apparent that the 
flood was used as occasion to garner funding for the predetermined 
agenda.
    Actively involved in gaining endorsement of the Flood Recovery 
Package, Secretary Babbitt was soon a co-signer with Secretary Rodney 
Slater as part of a Department of Interior/Department of Transportation 
Memorandum of Understanding orchestrated by President Clinton (November 
1997); the MOU specifically targeted three parks for vehicle reduction 
and mass transit implementation--the Grand Canyon, Zion, and Yosemite. 
This action was nothing more than an executive order, a Federal 
mandate--the public never had any say.
    Then in May of 1998, Congress passed the Transportation Equity Act 
for the 21st Century (TEA 21)--a comprehensive bill which funded 
various surface transportation programs at a total of $217 billion over 
6 years. This bill opened up a tremendous number of additional funding 
opportunities to the National Parks ($165 million annually) and 
specifically referenced development of ``a regional transportation 
system as well as in-park transit and intermodal transportation 
circulation plans'' at Yosemite National Park. Shortly thereafter, DOT 
shared full-time staff on site at Yosemite specifically charged with 
implementing a transit program.
    The 2000 Merced River Management Plan laid out the zoning blueprint 
that will ultimately forbid placement of camping or parking where it 
has existed for years. Additionally, the Plan eliminated air quality 
and natural quiet as Outstandingly Remarkable Values. The Plan has been 
steeped in litigation claiming a lack of scientific credibility and 
failure to quantify carrying capacity; that zoning decisions were made 
arbitrarily to accommodate plans that had been on the table for more 
than 20 years. (Appeal hearing was held March 11, 2003 with judgment to 
be rendered within 2-3 months.) Designed to amend the GMP, the River 
Plan laid the foundation for the ultimate busing plan--the Yosemite 
Valley Plan.
    The 2000 Yosemite Valley Plan alternatives were named by virtue of 
their bus staging areas and forecast more than 500+ roundtrip shuttles, 
76+ tour buses, and an unspecified number of YARTS buses entering the 
park daily during peak season. Buses arrive at a 22-bay transit center 
near Camp 6, one every 1.4 minutes. Mirroring the 1994 Transportation 
study, the Upper and Lower River Campgrounds are gone, the stables are 
gone, Southside is to be widened for two-way traffic, and Northside 
closed to visitor traffic. And though the 1994 study refused to even 
consider remote staging areas for reasons of cost, visitor confusion, 
visitor delay, information challenges, management difficulties, and 
loss of personal freedom--remote staging areas are exactly what the 
Yosemite Valley Plan proposes. As stated in the Los Angeles Times (11/
14/00), ``Babbitt personally intervened in the drafting of the final 
report. He has said he regards the Yosemite Valley Plan as central to 
the Clinton administration's environmental legacy.''
    What we have is a planning process fiercely clinging to the goals 
of Carter's 1980 GMP--a plan which in its own preface states an 
expiration date of 10 years (or 1990), and which violates the mandate 
of NPS Director's Order 2 (Park Planning). Since 1980 there have been a 
host of environmental regulations as well as advances in technology 
that have mandated cleaner air and resulted in near-zero emissions in 
autos; the same cannot be said of buses. Yet no reevaluation has 
occurred. More than 20 years later, the ``visionary'' plans of the 
National Park Service are to replace clean cars with dirty buses; bus 
traffic will now replace auto traffic; buses make more noise, buses 
fill the air with diesel fumes; buses have expanded surface glare; and 
buses require massive amounts of man-made infrastructure which will 
result in significant and permanent environmental degradation. This is 
resource stewardship at its worst.
A BUS PLAN WITH NO JUSTIFICATION
    One would think that after obsessing over buses and implementation 
of a mass transit scheme for the past 20 years, the National Park 
Service would have a well-developed plan, strongly supported by 
scientific documentation and validated by carrying capacity research to 
justify their case.
    In a recently released (11/15/02) report, ``National Park Service: 
Opportunities to Improve the Administration of the Alternative 
Transportation Program,'' a U.S. General Accounting Office (GAO) 
investigation reveals the lax and unsubstantiated manner by which the 
Park Service implements its busing mandates. Of the 20 projects studied 
(which included two from Yosemite), only one (Mesa Verde) provided 
thorough analysis.
    Each busing proposal is supposed to address non-construction 
alternatives (i.e., simple remedies such as traffic management that 
would not involve road widening/realignment, bus depots, etc.). Each 
proposal mandates park capacity data (i.e., carrying capacity) to 
guarantee that a bus won't bring in more people than what the carrying 
capacity will allow. Each proposal is supposed to address total cost 
including operations and maintenance costs. Each proposal is supposed 
to address analysis of cost effectiveness.
    The first Yosemite project ($3,100,000) was to ``expand shuttle 
service in the park to meet increasing demand.'' When evaluating that 
project, the GAO determined that NO information was provided in any of 
the four categories mentioned above. The second project ($990,080) was 
to ``develop a new traffic information system to help park address 
increased congestion and resource degradation.'' The park provided 
information for only 1 categor--non-construction alternatives; the 
other 3 categories were left blank.
    A particularly revealing statement: ``A major objective of the 
program [alternative transportation] is to improve the quality of 
visitor enjoyment by relieving traffic and parking congestion in parks. 
However, because the agency has not established performance goals for 
reducing such congestion or identified how congestion is measured, 
there is no effective means of evaluating performance to determine 
what, if any, progress is being made. In the absence of specific 
programmatic performance goals and measures, evaluating the results of 
the program, and individual projects, is based on the subjective 
judgments of program managers.''
    It appears we have a ``force people out of their cars'' program, a 
draconian measure that will forever transform the way the American 
public will visit their national parks. Personal freedom, privilege and 
responsibility will be removed; visitors will be herded like cattle 
onto an assembly line of buses; resource degradation will occur from 
diesel fumes, increased paving and infrastructure to accommodate 
massive bus fleets, as well as mass trampling at on/off stops. Congress 
continues to throw millions of dollars behind the program--and all the 
while there is no environmental, social, or economic justification. A 
savvy park manager who knows how to lobby can push a project through 
because those with approval authority apparently overlook requisite 
documented justification and analysis that identifies whether the 
project is even needed, park carrying capacity data, detailed operation 
and maintenance details and costs, or even a cost-benefit analysis. 
This is unacceptable.
PARKING--now you see it, now you don't...
    A 1998 letter from a 37-year park ranger, now an official park 
document, states ``it is estimated there are roughly 3050 parking 
places left in Yosemite Valley. In my most conservative opinion, that 
is probably a third of what the Park had in the early 1960s.''
    The 1980 GMP states there are 2,513 existing day-visitor parking 
spaces; the Plan proposes to reduce that number to 1,271.
    The 1994 Alternative Transportation Study states that the 
consultants were told by the National Park Service that there were 
5,055 parking spaces in the entire Valley, including formal and 
informal lots and roadside areas. The consultants could only find 2,247 
spaces available for visitor use, about + of those available to day 
visitors.
    The Yosemite Valley Plan states there are approximately 3,500 total 
Valley parking spaces. Approximately 1,600 are used by day visitors: 
904 spaces in the East Valley and 700 in the West Valley. It is the 
Plan's intention to reduce the total number of day visitor spaces to 
550 in one consolidated location at Camp 6. However, a review of park 
documents clearly suggests those 550 are only temporary and that the 
ultimate goal is to remove ALL day visitor parking from Yosemite 
Valley.
    <bullet> LNPS Squad Meeting minutes, 5/27/99: ``consensus that Camp 
6 works well as a parking facility; better than Taft Toe...immediate 
dispersion, less stress on shuttle system. Reality is that buses for 
next 10-15 years will be limited to diesel fuels (technology not there 
yet to improve them)...Camp 6 enables us to pull back in phases and 
ultimately remove parking from the East Valley (meeting GMP goals) 
while bringing the public along.''
    <bullet> LNPS Merced River Plan meeting and process notes--DEIS 
Workshop 4, 10/6/99: ``Camp 6 and/or Taft Toe would be destination hubs 
and would be the start of the regional transportation system, introduce 
transit. While still looking toward the long-range goal of GMP to 
reduce vehicles in valley, in the meantime still need to accommodate 
visitor vehicle--when elimination of private vehicle is accomplished, 
and it is not needed for transit, then would revert back to background 
zone.''
    <bullet> LDraft Yosemite Valley Plan, 3/27/00: A total ban on 
private vehicles was ``recommended because it is considered an ultimate 
goal of the 1980 General Management Plan. However the General 
Management Plan also recognized that the goal was infeasible at the 
time of its initial approval, and that a phased, collaborative approach 
would be needed to ultimately achieve this goal. Collaboration is 
ongoing to develop a regional transportation system [aka YARTS] that 
would provide initial and developmental steps toward achieving the 
ultimate goal. It is not possible to project when it would be feasible 
to remove all private vehicles from Yosemite Valley.'' (ES, page 2-28)
    <bullet> LFinal Yosemite Valley Plan, 11/13/00: ``Potential 
wetlands at the proposed Yosemite Village parking site [aka Camp 6] 
would be addressed by future compliance.'' (Volume 1B, page 4.2-17)
    The National Park Service has failed to disclose to the public that 
Camp 6 is a temporary parking area. Furthermore, they have structured 
the zoning in the Merced River Plan so as to forbid parking in any 
other locations.
    As stated previously:
    <bullet> LTHE YOSEMITE VALLEY PLAN IS A BUSING PLAN THAT CLEARLY 
INTENDS TO PHASE OUT DAY VISITOR PARKING COMPLETELY; ALL PROJECTS ARE 
DESIGNED AROUND ACCOMPLISHING THAT GOAL
    <bullet> LREGIONAL TRANSPORTATION (aka YARTS) IS REGARDED BY THE 
NPS AS THE SOLUTION FOR REMOVING ALL PRIVATE VEHICLES FROM THE YOSEMITE 
VALLEY
    <bullet> LTHE ZONING IN THE MERCED RIVER PLAN LEGALLY ENABLES 
IMPLEMENTATION OF AN URBAN BUSING SCHEME RESULTING IN REMOVAL OF DAY 
VISITOR PARKING.
FAMILY CAMPING AND PICNICKING--on the way out. . .
    As mentioned earlier, the Upper and Lower River Campgrounds were 
slated for removal in 1994 as a means of streamlining traffic 
circulation. If such an idea had been suggested then, the public outcry 
would have been deafening. However, the 1997 flood provided the perfect 
opportunity to ``take care of business.''
    It didn't matter that camping is a resource-focused activity as 
opposed to the resource exploitation that occurs with lodging, 
restaurants, stores, and other commercial ventures. It didn't matter 
that camping requires minimal permanent infrastructure; a flood can 
wash over a campground and merely cleans it--there is no permanent 
damage. In fact, in the case of the Rivers Campgrounds, the utilities 
were still intact following the flood; the damage resulted from the 
Park Service-constructed cement fireplaces that broke loose and 
battered everything in their path. It didn't matter that camping 
requires no special guest services, as does lodging; therefore, there 
is no need for additional employees and no need for more employee 
housing. Camping is a low-impact activity.
    Interestingly enough, the National Park Service claimed in the 1997 
Flood Recovery Action Plan, A Report to Congress that they needed 
$17,673,476 for three packages (920, 921, 922) dedicated to campground 
flood recovery. As you recall, the White House and Congress stipulated 
that flood funds were to ``restore damaged property--that is, damage 
caused directly by the disaster--to its pre-damaged condition.'' But 
since there was no real damage, the flood became the ultimate 
opportunity to fund the demise of the campgrounds. The Trip Report for 
the Field Hearing warned there were no plans in place for what was 
being proposed; it further made mention that what was being proposed 
would ``result in the reduction of about 300 campsites or about 40% 
below the level recommended in the General Management Plan'' (the only 
valid(?) plan at the time). Yet Congress still appropriated the 
funding--plan or no plan--trusting that at such time as a plan was 
actually approved, the funding would be released. In effect, money 
already in hand poisoned the planning process; the agency had what they 
needed and public input was cast aside.
    The 2000 Draft Yosemite Valley Plan, the only plan in which the 
Park Service actually itemized costs, shows campground-related projects 
that total $11,407,000. What happened to the other $6 million from the 
original flood request? And why did Congressman Radanovich feel the 
need to appropriate another $2.1 million for a campground study? Why 
isn't the National Park Service being held accountable?
    Adding insult to injury, the Yosemite Valley Plan reflects another 
sleight of hand. Making much ado about how they listened to public 
input, the final Plan increased the number of campsites from 475 to 
500. But what escaped the public was that of the 500, only 330 would be 
drive-in sites. Compare that number with the 684 drive-in sites 
specified in the 1980 GMP and the more than 800 drive-in sites that 
existed prior to the 1980 GMP. That's a 60% reduction or a loss of more 
than 470 drive-in sites that will directly impact families with 
children, seniors, low-income, and those with limited physical 
capabilities. That is unacceptable.
    Leveraging the media, the National Park Service with help from the 
Clinton Administration promoted the Merced River Plan and Yosemite 
Valley Plan as restoration plans--returning the Valley to nature. 
However, when the public protested the loss of campsites--an outcry to 
which this Committee is listening--it became clear that the Park 
Service needed to lay claim to the campgrounds and picnic areas to 
offer up any restoration at all. In a recent LA Times article (2/8/03), 
Jay Watson of the Wilderness Society revealed ``This [removal of the 
River Campgrounds] is the heart and soul of the restoration effort in 
the Valley, and to renege on it would totally undermine the integrity 
of the plan.'' In effect, the National Park Service has lied to the 
American people that the Yosemite Valley Plan is a restoration plan; 
follow the money--94% of the $441 million price tag is allocated for 
facilities, transportation/circulation, administration/infrastructure, 
and employee housing; only 6% is dedicated to resource stewardship.
    Meanwhile, popular picnic areas such as Swinging Bridge and Church 
Bowl are being closed while the remaining picnic areas will only be 
accessible by bus. As stated in the Plan: ``The style of picnicking is 
thus likely to change for many visitors from car-based (grills, 
coolers, etc.) to daypack or box lunch picnics, with major adverse 
impacts. Some visitors might find it more convenient (and costly) to 
purchase food at food service facilities, losing the picnic 
experience.''
    It appears that any Valley Plan claims of restoration and 
preservation are on the backs of campers and picnickers. Is it because 
these populations don't spend enough money in the park in relationship 
to their length of stay? This is unacceptable.
    To restate--the Yosemite Valley Plan is a busing plan. Removal of 
the Rivers Campgrounds and Swinging Bridge/Church Bowl picnic areas 
will consolidate traffic circulation for busing; less drive-in 
campsites and bus-only picnic grounds will mean less cars in the 
Valley. The 1980 GMP clearly states ``a total ban on private vehicles'' 
using a ``phased and collaborative approach'' is the ultimate goal 
(i.e., one step at a time).
DO PARK PLANS FURTHER ECONOMIC DISCRIMINATION?
    Delaware North Parks Services, commenting on its successful entry 
into the parks concessions business, was quoted (Buffalo News, 10/3/99) 
as looking for ``full service kinds of parks...don't think we would be 
so interested in day-tripper kind of parks.'' Yet Yosemite is 80% day 
visitors.
    The Merced River Plan states, ``As required by the NPS Concessions 
Management Improvement Act of 1998, the NPS cannot deny the park 
concessioner a reasonable opportunity for net profit. Should the 
application of the management zoning prescriptions result in the 
potential removal of sufficient concession facilities to deny the 
primary park concessioner a reasonable opportunity for net profit (as 
required by law), this would constitute a major adverse impact to the 
concessioner under the socioeconomic impact analysis.''
    To avoid such a scenario, the Yosemite Valley Plan explores a 
combination of three mitigation options: increased prices for visitor 
services; entrance fee revenue to support facility use; and modify 
concessioner operations to improve profitability. Some interesting 
observations:
Overnight opportunities
    Prior to the 1980 GMP, Yosemite Valley had 1528 lodging units and 
800 drive-in campsites for a total of 2,328 overnight accommodations. 
The 2000 Yosemite Valley Plan reduced the numbers to 961 lodging units 
and 330 drive-in campsites for a total of 1,291 overnight 
accommodations. Simple subtraction shows a reduction of 1,037 overnight 
accommodations.
    What does the 1,037 reduction include?
    <bullet> Lremoval of 470 drive-in campsites (originally 800 sites)
    <bullet> Lremoval of 200 tent cabins from Housekeeping (originally 
300 units)
    <bullet> Lremoval of 253 tent cabins from Curry Village (originally 
427 units)
    <bullet> Lremoval of 91 rustic cabins without bath at Yosemite 
Lodge
    It would appear that low-end, inexpensive accommodations are the 
bulk of this reduction. Tent cabins rent for approximately $50 per 
night; if room rates are raised $50, the financial difference can be 
mitigated with less work and greater profit.
    The Valley Plan states that ``camping provides the lowest-priced 
accommodations in the park'' and reductions will significantly impact a 
large user group (27%). Campers also tend to be a low-spending 
population.
Conversion to bus travel
    The Valley Plan states ``While in the park, about 35% of visitors 
arriving by private vehicle eat at a sit-down restaurant, 30% eat at a 
fast-food establishment, 30% buy groceries, 15% purchase books, 30% 
shop for souvenirs, and 15% shop for clothes. Except for grocery 
shopping, these percentages all increase for bus passengers.''
    Separating visitors from their private vehicles (i.e., rolling 
storage lockers) increases dependency on the concessioner resulting in 
a visitor experience that is more controlled, more costly, and more 
commercialized. Additionally, a 1988 report to Congress on the 
Feasibility of Increasing Bus Traffic to Yosemite recommended against 
any increase because ``increasing the number of...buses allowed in the 
park would increase the number of bus passengers who represent an 
older, slightly wealthier, and a non-family unit, and would cause a 
resulting decrease in the number of traditional families, especially 
those with children, who rely upon an automobile to travel.''
Minority and Low-Income Visitors/Environmental Justice
    The Valley Plan states ``It is generally believed that low-income 
and minority visitors to the park are under-represented in the total 
visitor population. However, the overnight accommodation and recreation 
patterns of low income and minority park visitors have not been studied 
in detail. As a result, the impacts on low-income and minority 
overnight and day visitors cannot be analyzed quantitatively. It may be 
assumed that visitation patterns of low-income visitors tend toward the 
more inexpensive methods: day visits, camping, housekeeping, tent cabin 
rentals...'' And yet with minimal socioeconomic data, the Valley Plan's 
most significant changes are with respect to day visits, camping, and 
rustic/tent cabin rentals. That is unacceptable.
    In comparison, the Plan states ``the largest percentage of visitors 
to Yosemite National Park (26%) have an annual household income greater 
than $100,000. The smallest proportion of visitors (5%) have an annual 
household income of less than $20,000. By contrast, in the State of 
California the largest percent of the population (37%) has an annual 
income below $20,000. The data illustrate that people from low-income 
households are largely underrepresented in the population of visitors 
to Yosemite'' This is true on both a statewide and regional basis.''
    Perhaps that is why Yosemite recently sent representatives to the 
16th annual International Travel Expo in Hong Kong to promote 
visitation to National Parks, including Yosemite within the Asian 
market. The National Park Service International Tourism Department 
chose this international trade show with 450 exhibitors from over 50 
countries to reach the Asian tourists and various National Tourism 
Organizations.
    It apparently is all right for the American taxpayer to pay for our 
national parks; but as our parks transition toward becoming elitist 
enclaves, unaffordable to the average American, the National Park 
Service focuses efforts on recruiting visitors from overseas. Something 
is wrong with this picture.
COMMUNITY IMPACTS OF ILL-CONCEIVED PLANNING PROCESS
    In response to the 1980 General Management Plan directive, 
restaurants, lodging and other services began investing along gateway 
corridors outside the park, thereby enabling park administrators to 
avoid further commercial development in Yosemite Valley. Yet nowhere in 
the General Management Plan or in the core principles that govern the 
actions of the Park Service is there any acknowledgment of, or concern 
for, the mutually dependent relationship that has subsequently evolved 
between the park and the gateway communities as a result of that 
directive. It is that apparent lack of concern that is particularly 
troubling to Madera County.
    Dependent on the tourist dollar, the fledgling communities along 
the Highway 41 corridor are all too familiar with the extreme 
fluctuations that occur based on the park press release, policy or 
disaster of the day. Any rise or fall in visitation directly impacts 
business income and job generation, and consequently the economic 
vitality of the area. Visitation over the past five years has steadily 
dropped from a high of 4.1 million visitors in 1996 to 3.4 million 
visitors in 2002 to an NPS projection of 3.1 million for 2004.
    The proposed urban-designed mass transit system that threatens to 
eliminate automobile touring in Yosemite Valley is the biggest gamble 
yet. Client surveys and park studies already predict busing will 
degrade the visitor experience--bad news for any economy based on 
tourism. In fact, from the moment the draft Yosemite Valley Plan was 
released, local businesses began receiving telephone calls from 
potential visitors asking if they had to ride a bus to get into the 
park--and the plan hasn't even been implemented yet. As proposed in 
this Valley Plan, guests of any lodging facility outside the park are 
considered ``day visitors''--such visitors will directly incur 
increased economic hardship and inconvenience resulting from mandatory 
bus travel.
    To date, the park has avoided conducting an independent 
socioeconomic analysis of day visitors to determine what eliminating 
cars and mandating buses will really cost the gateway communities. In 
fact, the Yosemite Valley Plan doesn't even recognize gateway 
communities, instead focusing on the ``local communities'' of El 
Portal, Foresta, Wawona, Yosemite Village, and Yosemite West--
communities that, for the most part, can only be accessed inside park 
gates. The tourist dependent towns of Oakhurst, Mariposa, and Groveland 
are now included as part of a regional economy that the park claims 
will benefit from an increase in construction jobs as part of the 
numerous development projects planned inside the park. Such an 
``analysis'' is of little use to the local lodge owner or restauranteur 
who invested his/her savings in a gateway business trusting that such 
an effort would help park administrators avoid further commercial 
development inside the Park.
    The small town character of healthy, vibrant gateway communities 
are the first stop on the way to a pleasurable visit to Yosemite; the 
warmth and energy of our people, the attractiveness of our businesses, 
low crime rate, and an environment that mirrors the Park set the stage 
for a quality visitor experience. It is important that the Park take 
pride in the gateway communities just as our communities take 
tremendous pride in the Park. What has made this Yosemite Valley Plan 
such a flashpoint is that residents recognize the tremendous 
environmental damage that will occur inside as well as outside the park 
as it is converted from a nature center to a profit center; dealing 
with a nonresponsive but highly political and arrogant bureaucracy, 
that is funded by a never-ending supply of tax dollars, with large 
corporations poised to displace small local businesses, in a system 
that offers no recourse other than litigation--this is not the American 
way.
SUMMARY
    As a Committee you have an invaluable opportunity to revisit a 
decision that was made in haste 6 years ago, in the midst of an 
emergency; we ask you to exercise courage and integrity as you provide 
oversight with respect to funds not yet expended in the name of flood 
recovery. We further request your intervention in a planning process 
that has gone awry. The ``legacy'' plans that are before you today will 
cause irreparable damage to the environment, waste hundreds of millions 
of taxpayer dollars, gamble with the economic vitality of our gateway 
communities, and ultimately restrict the freedom of Americans to access 
and enjoy their park.
    To restate, we urge you to address the disease rather than dabbling 
with the symptoms:
    <bullet> LNo funding be appropriated for this Yosemite Valley Plan 
(and YARTS)
    <bullet> LSet aside/rescind this Yosemite Valley Plan (and YARTS)
    <bullet> LAll excess flood funding ($110 million) be returned to 
the U.S. Treasury
    <bullet> LRedo the Merced River Plan in full compliance with the 
protective mandate of the Wild and Scenic Rivers Act, thus creating a 
solid foundation for all future plans
    In closing, we have attached a copy of a letter submitted by the 
Madera County Board of Supervisors to former Superintendent David 
Mihalic (6/27/00) for your review. This letter proposes a five-year 
interim plan during which time the park would focus on completing all 
necessary research up front rather than during the five years following 
the record of decision; such information (e.g., inventory/monitoring 
program, quantified carrying capacity, sociological studies on 
recreation patterns of low-income and minority populations, 
socioeconomic analysis of impacts on gateway communities, accessibility 
plan, etc.) is absolutely critical to an informed planning process. 
Additionally, this option outlines opportunities to embrace the value-
added benefits of involving a diverse public in plan development rather 
than postponing their participation to the final comment period.
                                 ______
                                 

    [The attached letter follows:]
    [GRAPHIC] [TIFF OMITTED] T6612.002
    
    [GRAPHIC] [TIFF OMITTED] T6612.003
    
    [GRAPHIC] [TIFF OMITTED] T6612.004
    
    [GRAPHIC] [TIFF OMITTED] T6612.005
    

    Mr. Radanovich. I really appreciate the enthusiasm of the 
crowd, but we can't have the clapping. I apologize, but that is 
just not the way we have to run these hearings.
    Peggy, welcome to the Committee, and if you would begin 
your testimony, that would be terrific.

             STATEMENT OF PEGGY A. MOSLEY, OWNER, 
             GROVELAND HOTEL, GROVELAND, CALIFORNIA

    Ms. Mosley. Thank you very much. It is my pleasure to be 
here. Thank you for giving us this opportunity. Today I am 
representing Tuolumne County in total. I represent also the 
Visitors Bureau and the Chamber of Commerce.
    As you have previously stated, preparation of the plan, in 
fact the entire planning process, has been fatally flawed. This 
is particularly true in planning for the visitor experience. 
The national park belongs to every American, not just the rich 
who can afford to stay at the Ahwahnee or even the less 
expensive lodge or the Wawona. The draft Yosemite Valley plan 
states that the largest percentage of visitors to Yosemite, 26 
percent, have an annual household income of greater than 
$100,000. The smallest proportion of users, 5 percent, has an 
annual household income of less than $20,000. This fact should 
be a major concern to the Congress who maintains vigil over the 
equity of resources in our great country. Perceived access to 
the park is a major contributor to the loss of visitation for 
the past 6 years. Visitation is now about 3 million people per 
year, down 25 percent from the peak 4 million.
    I have written a little scenario on the all-American family 
who decides to visit Yosemite on the YARTS system. I believe 
this provides the insight to the issues of limiting access to 
Yosemite, eliminating the nonaffluent Americans from the park, 
and the frustration of dealing with a bureaucracy. Please come 
with me and put yourself in the hearts and minds of this 
family, then please make your decision based on the Golden 
Rule. Imagine this scenario, and then decide if you really want 
to take a bus.
    It is 8:30 a.m. You, your spouse and two small children are 
totally excited about the prospects of visiting Yosemite for 
the very first time. You have debated about taking your own 
private vehicle, which could soon be forbidden, or leave the 
driving to them and take the bus. You elect to try the bus. You 
gather your family, your Yosemite freight, which consists of a 
stroller, diaper bag, picnic basket for lunch, camera bag, 
bicycle, clothing change for the kids, et cetera, open your 
wallet for the $28 fare for the four of you, remembering, of 
course, that the gate fee is $20 for a 7-day pass for as many 
people as you can safely put in your vehicle--for a seven-
passenger van, that is 41 cents per person day--and board the 
bus by 9 a.m.
    The bus arrives, and you load your freight on the bus. 
Since Buck Meadows, Highway 120, is the last pickup stop prior 
to entering the park, you rumble along the scenic highway into 
Yosemite. Perhaps your first stop will be Bridal Veil Falls, 
where you have heard about the spraying mist, the hike up the 
backside of the falls, et cetera.
    You arrive at Bridal Veil and get off the bus. Yes, you, 
your family and all your freight. Now what? The kids are antsy 
after the hour plus ride and need to stretch their legs, not to 
mention the adults. Where will you leave all your belongings 
while you experience the falls? Or what about that desire to 
hike up the backside? Someone must stay back to watch the 
freight.
    Now that you have done Bridal Veil, the next bus arrives to 
spirit you off to the next stop, maybe the big meadow for your 
picnic. You load your freight and family and head for the next 
stop, where you get to unload again, haul your freight to the 
picnic site and proceed to have lunch. One of the kids is 
fascinated by the cute little striped yellow thing flying 
around the clover. Bingo. Now that is some sting on the tender 
little finger that begins to swell amidst all the piercing 
screams of a child in great pain. What to do? Your vehicle with 
its trusty first aid kit is back at your hotel in Buck Meadows, 
and there is no YARTS bus in sight to take you for first aid.
    Finally, you get to the Visitor Center in the valley, and 
everyone needs a treat after the harrowing ordeal with the bee. 
Stop at Degnans for something and prepare to unload your wallet 
a second time. If you decide to take the 2-1/2-hour tour of the 
valley floor, expect to spend about $18 per person. If you get 
out for under $100 for the day, consider yourself most frugal.
    It is finally nearing 5 p.m. and almost time to find the 
YARTS bus where you can finally load your freight for the final 
time and head back to your hotel, where you will arrive about 
6:30 p.m.
    Wow. What a day. What a Yosemite experience. Do you suppose 
Teddy Roosevelt ever imagined he was creating such a monster? I 
don't think so.
    Beyond that, I pulled up some information from the YARTS 
site. It seems as though the ridership of YARTS, and I heard it 
mentioned 60,000 for the last year, I think if you delved into 
the ridership component, you would find that probably 90 to 95 
percent of these people are employees of either Yosemite 
National Park, the Yosemite concession or students who are 
using the service. I don't believe this ridership represents 
visitors to the park. In fact, Route 1 and 6 is not even open 
on weekends and holidays. Thank you.
    Mr. Radanovich. Thank you very much, Peggy. I appreciate 
that.
    [The prepared statement of Ms. Mosley follows:]

  Statement of Peggy A. Mosley, President/CEO, The Groveland Hotel at 
   Yosemite National Park, Representing District 4, Tuolumne County, 
                               California

    Thank you, Congressman Radanovich, for the opportunity to address 
this Subcommittee on the implementation of the Yosemite Valley Plan 
(YVP), regarding parking, personal vehicles and campsites in the 
valley.
    As you have previously stated, ``the preparation of the plan, in 
fact, the entire planning process, has been fatally flawed''.'' This is 
particularly true in planning for the visitor experience. The national 
parks belong to every American--not just the rich who can afford to 
stay at the Ahwanee, or even the less expensive Lodge or the Wawona. 
The Draft YVP states that the ``largest percentage of visitors to 
Yosemite (26%), have an annual household income greater than $100,000. 
The smallest proportion of visitors (5%) has an annual household income 
less than $20,000''.
    This fact should be of major concern to the Congress who maintains 
vigil over the equity of resources in our great country.
    Access to the park is a major contributor to the loss of visitation 
of the past six years--visitation is now about 3 million people per 
year--down 25% from the peak 4 million.
    What is contributing to this reduction?
    a. LFrequent press releases by the National Park Service (NPS), 
that Yosemite is overcrowded, cars are being turned around at the gate 
and lack of parking in the Valley. These releases have continued, even 
though visitation has been reduced significantly.

       LThe American Automobile Association (AAA) Tour Books (Northern 
and Southern California editions), even carried false information 
provided by NPS in their 2002 and previous issues, stating that 
``public transportation must be taken into Yosemite Valley''.

       LI believe the major news media draw straws each Spring, to see 
who will carry the ``Yosemite is Crowded'' item!
    Response: The self-fulling prophecy of removing parking places in 
the Valley, contributes to the shortage of parking places. It appears 
the Valley parking inventory has been as high as 5000 in 1994 and has 
been reduced to something less than 1500 now.
    Gate closures occurred only in 1995 and were not really needed 
then, had generally accepted traffic management systems been invoked.
    This flawed information was pointed out to the San Francisco AAA 
Office, who verified the status of private vehicles and made the 
correction in the 2003 issues. Unfortunately, these Tour Books are 
maintained by AAA members for many years, and it will take several 
years to get the correct message disseminated.
    b. LThe touting of YARTS (Yosemite Area Regional Transportation) by 
NPS and Yosemite Concession Services (YCS), as the preferred way to 
visit Yosemite has created major confusion among would-be Yosemite 
visitors. Dozens of calls are received by Visitor's Bureaus, lodging 
properties, Chambers of Commerce, inquiring about reservations to visit 
the park, how to get into the park, etc.
    Response: The YARTS demonstration was scheduled to run for two 
years. Since it was so successful, it only ran for one year. It clearly 
demonstrated that most visitors to Yosemite WILL NOT ride a bus! The 
only park visitors who ride the bus are those few, who do not have 
their own transportation, with minimal luggage, who fly into regional 
airports, and take the train/bus to Merced. This is a very small 
minority of visitors. Please see the item, entitled, ``Yosemite Freight 
and YARTS'' at the end of this testimony.
    If ridership were viable, YARTS would not have to offer reductions 
in fares to entice riders.
    The YARTS system is operating primarily for the use of NPS and YCS 
employees, and students from Merced College and other schools, to 
points along the YARTS Route, up Highway 140. This is the only route 
operating and is heavily subsidized for these riders.
    A review of the YARTS financial statement, identifying revenue from 
the ridership by employee, student and paying park visitor would be 
most interesting and I strongly recommend this committee pursue this. 
Dollars from this demonstrated failure would be far better spent 
restoring the campgrounds, the crumbling sewer system, etc.
    If YARTS were intended to be used by visitors to Yosemite, it would 
operate all week. YARTS is not available on weekends or holidays--the 
times NPS says they need to get private vehicles out of the park! (This 
information was taken from the YARTS website, www.yarts.com)
    c. LThe Yosemite Experience has been evolving for many 
generations--from the days of arrival on horseback, to the hordes of 
``Tin Lizzies'' seen in Yosemite parking lots in the 1920s, to today's 
visitors in cars, campers, bikes and yes, even busses. This, too, has 
become a part of American life, with generations coming together to 
celebrate the most beautiful, spiritual place on earth.
    Response: The campsites along the Merced are a major part of the 
Yosemite Experience, and should be replaced. Camping along the river at 
Wawona is still intact. It would seem the cost of restoring the 
campsites along the lower Merced would be a great investment in the 
Visitor Experience.
    So, they have to be replaced every 50-100 years--doesn't everything 
have to be replaced/maintained? The 361 campsites lost in the flood 
need to all be restored.
    For NPS to believe that building 788 campsites OUTSIDE Yosemite 
Valley is an option to the river experience is preposterous! This is 
another example of NPS trying to eliminate part of the Visitor 
Experience for all Americans.
    d. LThe Yosemite Valley is deemed to be overcrowded during the 
Summer months. There are thousands of acres of Yosemite not in the 
valley. No effort is being made to make visitors aware of these 
incredible areas to visit, thereby dispersing the visitors away from 
the Valley for Day Trips into other areas of the park, for an enhanced 
Visitor Experience.
    Response: I asked former Superintendent Mihalic why this issue was 
not being addressed, and more effort being made to educate visitors. 
His response was, ``we don't have any marketing money to do this''. I 
suggested their contract with YCS should include the requirement for 
this information to be made available on a priority basis to visitors.
    It's clear the reason YCS does not want to do this. They have no 
revenue generating sources in places like Hetch Hetchy and other ``out 
of the way'' places.
Other Issues
    In addition to the access and Visitor Experience issues discussed 
above, another significant consideration is economics. The economic 
value of Yosemite National Park is felt throughout the United States. 
It begins with the local gateway communities, whose only source of 
revenue is the tourism industry.
    Thousands of jobs are created in this region. Many of them are 
entry level for high school students, just learning about the free 
enterprise system and the job opportunities being provided by 
individual entrepreneurs. Many tipped employees earn in excess of 
$20.00 per hour. Many management level positions are also created in 
this industry. The value of employment is major and should not be 
ignored.
    These jobs, in turn generate the much needed tax dollars needed for 
a strong economy. They provided income to the local community, state 
and Federal coffers. As an example, Mariposa County, recipient of all 
the Sales Tax and Room Tax from Yosemite, is the beneficiary of over $5 
million annually.
    The tourist dollars also provide much needed revenue to the local 
businesses, but also contribute heavily to the local and state tax 
programs.
    Every tourist dollar received in a community turns over seven (7) 
times before it leaves the county. Example: Yosemite was closed for 
three (3) months in 1997 from the flood. My vet was in for dinner and 
discussing how his business had slowed. My kitchen staff had been cut 
severely and one of them had scheduled a cat spaying and then cancelled 
due to no work. The vet's comments--I never realized that I benefitted 
from Tourism until now!
    The gateway communities have an extremely high number of welfare 
recipients. Every dollar earned by the local employees are dollars not 
required to be spent by welfare.
Conclusion
    There are many issues with the YVP. All are important, but I 
believe, perhaps, the most significant is the devastating impact to the 
American People--the owners of Yosemite National Park, who will 
literally be locked out from their own sacred spot.
    Yosemite is not just a pretty place to visit--it has a spiritual 
value, that is special only to Yosemite! One cannot be in the park and 
not feel the hand of our maker--a place of peace and solitude, that in 
today's environment is absolutely priceless.
    Again, thank you, Congressman Radanovich, for the opportunity to 
address this Subcommittee. I hope you will consider the issues 
described here and put yourself on the bus with the All-American Family 
to experience the YARTS Experience vs. the Yosemite Experience!

                      Yosemite Freight and YARTS 
             (Yosemite Area Regional Transportation System)

    Imagine this scenario and then decide if you really want to take a 
bus.
    It's 8:30 AM. You, your spouse and two small children are totally 
excited about the prospects of visiting Yosemite for the very first 
time. You have debated about taking your own private vehicle (which 
could soon be forbidden) or leave the driving to them, and take the 
bus.
    You elect to try the bus. You gather your family, your Yosemite 
Freight, (which consists of a stroller, diaper bag, picnic basket for 
lunch, camera bag, bicycle, clothing change for the kids, etc.), open 
your wallet for the $28.00 fare for the four of you, (remembering, of 
course, that the gate fee is $20.00 for a 7 day pass, for as many 
people as you can safely put in your vehicle--for a 7 passenger van, 
that's 41 cents per person day) and board the bus by 9 AM.
    The bus arrives and you load your ``freight'' on the bus. Since 
Buck Meadows (Highway 120) is the last pickup stop prior to entering 
the park, you rumble along the scenic highway into Yosemite. Perhaps, 
your first stop will be Bridal Veil Falls, where you've heard about the 
spraying mist, the hike up the backside of the falls, etc.
    You arrive at Bridal Veil, and get off the bus--yes, you, your 
family and all your ``freight''. Now what? The kids are antsy after the 
hour plus ride and need to stretch their legs--not to mention the 
adults. Where will you leave all your belongings while you experience 
the Falls? Or what about that desire to hike up the backside? Someone 
must stay back to watch the ``freight''!
    Now that you've ``done'' Bridal Veil, the next bus arrives to 
spirit you off to the next stop--maybe the big meadow for your picnic. 
You load your ``freight'' and family and head for the next stop, where 
you get to unload again, haul your ``freight'' to the picnic site and 
proceed to have lunch.
    One of the kids is fascinated by the cute little striped yellow 
thing flying around the clover. Bingo!!! Now that is some sting on a 
tender little finger, that begins to swell amidst all the piercing 
screams of a child is great pain. What to do? Your vehicle with its 
trusty first aid kit is back at your hotel in Buck Meadows, and there's 
no YARTS bus in sight to take you for first aid.
    Finally you get to the Visitor Center in the Valley and everyone 
needs a treat after the harrowing ordeal with the bee. Stop at Degnans 
for something and prepare to unload your wallet a second time.
    If you decide to take the 2.5 hour tour of the Valley Floor, expect 
to spend about $18/person. If you get out for under $100.00 for the 
day, consider yourself most frugal.
    It's finally nearing 5 PM and almost time to find the YARTS bus 
where you can load your ``freight'' for the final time and head back to 
your hotel, where you'll arrive about 6:30 P.M.
    Wow!!! What a day--What a Yosemite Experience!!! Do you suppose 
Teddy Roosevelt ever imagined he was creating such a monster? I don't 
think so!
                                 ______
                                 
    Mr. Radanovich. Next up is Kevin Kelly from Yosemite 
Concession Services.
    Kevin, welcome to the Committee and if you would begin your 
statement, that would be terrific.

    STATEMENT OF KEVIN KELLY, VICE PRESIDENT OF OPERATIONS, 
  YOSEMITE CONCESSION SERVICES CORPORATION, YOSEMITE NATIONAL 
                        PARK, CALIFORNIA

    Mr. Kelly. Thank you. Good morning, Mr. Chairman and 
members of the Subcommittee. My name is Kevin Kelly, and I am 
the chief operating officer of Yosemite Concession Services, a 
division of Delaware North Companies Parks and Resorts. We 
operate lodging, food and beverage, retail, interpretive 
programs, recreational activities and transportation services 
for the National Park Service in Yosemite National Park. I want 
to thank you for this opportunity to testify today on the issue 
of campgrounds in Yosemite, particularly as it relates to our 
role as park concessionaire and our ability to provide quality 
services to guests of the park. Our role in Yosemite is to 
provide goods and services to park guests with the goal of 
enhancing their overall experience, while living up to our 
important role as a steward of the park.
    Our contract with the National Park Service in Yosemite 
began in 1993. In the 10 years we have been here, we have 
witnessed some of the most traumatic events in the park's 
history, and have faced many challenges as a result. Over the 
course of our contract, the park has suffered rock slides, 
government shutdowns, wildfires that closed the park, a 
catastrophic flood, five different superintendents, and murders 
outside the park that generated unprecedented publicity around 
the world. At the same time, attendance figures have ranged 
from over 4 million visitors annually in 1996 to slightly over 
3 million per year this past year.
    The flood of 1997 brought forth a renewed endeavor in 
planning for the future of Yosemite within the new footprint 
that this historic flood left behind. After 5 years and several 
avenues of litigation, the Yosemite Valley plan was finally 
adopted as a blueprint to redevelopment and restoration of the 
park. We are in support of this plan and are proud to 
contribute to its ongoing implementation.
    We recognize from our very unique perspective and history 
in Yosemite the daunting task and complex processes that this 
document represents. We understand and we are in agreement with 
the need to preserve this resource for future generations and 
limit our impact on the ecosystem.
    Throughout our tenure, visitor access has remained at the 
forefront of our guest service initiatives, and we have worked 
as a partner with the Park Service to ensure that all 
Americans, as well as the many travelers from around the world 
who want to experience this national treasure, can come to know 
Yosemite. We believe that providing additional campsites to 
bring the park closer to its preflood level would go further 
toward making Yosemite accessible to people of all income 
levels.
    It is our opinion that providing a quality visitor camping 
experience in a manner that is consistent with the Yosemite 
Valley plan is a positive step for the park, and we look 
forward to reviewing the campground study. Having said that, we 
are not in favor of a scenario in which the valley plan itself 
becomes embroiled in a new round of revisions as to render it 
incapable of moving forward. We believe it would benefit no one 
for a plan that provides direction for the future of Yosemite 
to lie dormant rather than restoring and safeguarding the park 
as it was intended to do. For too long, improvements to 
infrastructure and facilities have been held up in this 
planning process, and having a plan in place after several 
years of uncertainty is a very positive step to move Yosemite 
beyond the flood.
    We are confident that given your commitment and the 
commitment of the leadership in Yosemite, the Yosemite Valley 
plan can move forward while certain elements may be modified to 
ensure the best possible balance between providing for visitor 
enjoyment of the park and protecting this irreplaceable 
national treasure. Consistent and reliable funding is paramount 
to delivering this goal.
    In the spirit of partnership that has always been a strong 
point of our relationship with the National Park Service, we 
again state our willingness and desire to contribute to the 
ongoing implementation of this plan. We thank the National Park 
Service for its continued efforts in establishing the best 
possible balance between the visitor experience and protection 
and preservation of this incredible landscape.
    Thank you. I would be happy to answer any questions.
    Mr. Radanovich. Thank you very much.
    [The prepared statement of Mr. Kelly follows:]

          Statement of Kevin Kelly, Chief Operating Officer, 
                Yosemite Concession Services Corporation

    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Kevin Kelly. I am the chief operating officer of Yosemite Concession 
Services Corporation, a division of Delaware North Companies Parks & 
Resorts, which operates lodging, food and beverage, retail, 
interpretive programs, recreational activities, and transportation 
services for the National Park Service in Yosemite National Park.
    I want to thank you for this opportunity to testify today on the 
issue of campgrounds in Yosemite, particularly as it relates to our 
role as park concessioner and our ability to provide quality service to 
guests of the park. Our role in Yosemite is to provide goods and 
services to park guests with the goal of enhancing their overall 
experience, while living up to our important role as a steward of the 
park.
    Our contract with the National Park Service in Yosemite began in 
1993. In the 10 years we have been here, we have witnessed some of the 
most traumatic events in the park's history, and have faced many 
challenges as a result. Over the course of our contract, the park has 
suffered rockslides, government shutdowns and wild fires that closed 
the park, a catastrophic flood, five different superintendents, and 
murders outside the park that generated unprecedented publicity around 
the world. At the same time, attendance figures have ranged from over 
four million visitors annually in 1996 to slightly more than three 
million per year this past year.
    The flood of 1997 brought forth a renewed endeavor in planning for 
the future of Yosemite within the new footprint that this historic 
flood left behind. After five years and several avenues of litigation, 
the Yosemite Valley Plan was finally adopted as a blueprint to 
redevelopment and restoration of the park.
    We are in support of this plan, and are proud to contribute to its 
ongoing implementation. We recognize from our very unique perspective 
and history in Yosemite the daunting task and complex processes that 
this document represents. We understand and are in agreement with the 
need to preserve this resource for future generations and limit our 
impact on the ecosystem.
    Throughout our tenure, visitor access has remained at the forefront 
of our guest service initiatives, and we have worked as a partner with 
the Park Service to ensure that all Americans, as well as the many 
travelers from around the world who want to experience this national 
treasure, can come to know Yosemite. We believe that providing 
additional campsites to bring the park closer to its pre-flood level 
would go further toward making Yosemite accessible to people of all 
income levels.
    It is our opinion that providing a quality visitor camping 
experience in a manner that is consistent with the Yosemite Valley Plan 
is a positive step for the park and we look forward to reviewing the 
campground study.
    Having said that, we are not in favor of a scenario in which the 
Valley Plan itself becomes embroiled in a new round of revisions as to 
render it incapable of moving forward. We believe it would benefit no 
one for a Plan that provides direction for the future of Yosemite to 
lie dormant rather than restoring and safeguarding the park as it was 
intended to do. For too long, improvements to infrastructure and 
facilities have been held up in this planning process, and having a 
plan in place after several years of uncertainty is a very positive 
step to move Yosemite beyond the flood.
    We are confident that given your commitment and the commitment of 
the leadership in Yosemite, the Yosemite Valley Plan can move forward 
while certain elements may be modified to ensure the best possible 
balance between providing for visitor enjoyment of the park and 
protecting this irreplaceable national treasure. Consistent and 
reliable funding is paramount to delivering this goal.
    In the spirit of partnership that has always been a strong point of 
our relationship with the National Park Service, we again state our 
willingness and desire to contribute to the ongoing implementation of 
this plan.
    We thank the National Park Service for its continued efforts in 
establishing the best possible balance between the visitor experience 
and protection and preservation of this incredible landscape and look 
forward to being a part of the successful implementation of the 
Yosemite Valley plan.
    Thank you for the opportunity to come before you. I would be happy 
to respond to questions.
                                 ______
                                 
    Mr. Radanovich. I am going to open up with questions. Mike, 
can you tell me, is there anything in the valley plan that you 
like? I am sorry, Steve. Forgive me. Anything worth doing?
    Mr. Welch. Frankly, I agree with the concept of moving on 
after the flood. What we are concerned about is what is stated 
in there is the ultimate goal of the removal of the automobile, 
and we think a lot of the things go toward that. I have 
submitted a detailed written testimony that hopefully will 
become part of the record and details a lot more, but many of 
the items of the 15 projects that were reviewed by the 
Superintendent this morning I would support personally, and I 
think many of the people in the entrances do. What we are most 
concerned about is the access and affordability issues for our 
customers and the day users, as I stated.
    Mr. Radanovich. Which I agree with. The problem with the 
issue of stopping the plan is it puts in jeopardy some of the 
things that, frankly, I think once they are done, like 
rerouting the road around Yosemite Lodge, is going to solve the 
traffic problem. I have always believed that solving the 
traffic problem at Yosemite was going to be whatever made the 
most common sense and cost the least, which is rerouting some 
intersections, and doing some improvements in key places in 
Yosemite in my view is going to preclude the need for any 
satellite parking.
    The problem with getting a lot of this stuff done is that 
if we stop or reopen, lawsuits happen, and everything freezes. 
That is the counterbalancing concern I think that we are trying 
to work through.
    Mr. Welch. Certainly I appreciate that.
    Could I respond?
    Mr. Radanovich. Certainly.
    Mr. Welch. As a layman and a businessperson and a citizen, 
it is very difficult to understand these studies. They are 
pages and pages and reams and reams, and to understand the 
mechanics of whether it is better to amend the plan or modify 
it or reconstruct it or throw it out and start over is a 
judgment call that I would have to defer to you and your 
Committee and those who are part of this.
    I am personally less concerned with the mechanics of how it 
is accomplished, but the end result. Sometimes these things are 
insidious. There were 2,500 parking places in 1980. I am told 
there are somewhere between 12- and 1,600 today. That is what 
has caused a lot of the perceived overcrowding and congestion 
that occurs now, and to reduce that further would be a real 
problem, we believe.
    Mr. Radanovich. Peggy, can you envision a YARTS being--I 
want to try to separate, if it is separable, the issues with 
YARTS. If there was assurance or there was knowledge as an 
absolute fact that YARTS was not going to be the first step in 
what will eventually be forcing everybody out of their cars and 
into buses, would you see the need for some supplemental 
alternative transportation to the park that a bus service would 
provide?
    Ms. Mosley. We have looked at this. I spent 5 years on the 
Citizens Advisory Council for YARTS. When I realized the vast 
cost of this system that would serve so few citizens and not 
employees or students, which was the original purpose of it, I 
find that there is absolutely no way that a system like this 
could be economically justified under any economic environment, 
particularly today.
    There are private bus companies that come into the park 
every day. I had a woman call me yesterday from Sacramento 
saying, well, I would like to be able to take a bus. There are 
bus systems like VIA, has operated for decades up and down the 
140 corridor. Every now and then I can see one on 120. So I 
think that a private entity should be able to maintain this 
service for the number of people that will ride.
    Beyond ones that will ride it are the ones that were 
perhaps on it the day we did a demonstration ride for the YARTS 
group. We took a bus, a VIA bus, from Amtrak in Merced and went 
into the park. Besides the YARTS group that was on it, there 
was a couple from Napa Valley, and there were a couple who 
wanted to just take a train-bus experience for the day. They 
had a very small overnight bag. There was a couple from Japan 
who had a hotel in San Francisco. Again, they just wanted a day 
trip to Yosemite. There were two guys from Australia. They also 
were boarded in San Francisco. These are the kind of people 
that use YARTS.
    If you are going as someone who wants to visit the park, 
experience picnics, take cameras, we have some people in our 
local community who are photographers and artists. They love to 
come here for their painting and photography. They can't begin 
to load all their art freight, if you will, on a bus. It 
totally eliminates the positive visitor experience if they are 
forced into that.
    Mr. Radanovich. If that is their only alternative or choice 
to get there--
    Ms. Mosley. If that is their only alternative, VIA does a 
wonderful service for bringing people into YARTS that want to 
use it.
    Mr. Radanovich. So the issues really are the possibility of 
it becoming the only alternative to get in the park, the only 
choice to get in the park, and the cost of the system itself.
    Ms. Mosley. That is right. And as a taxpayer, I totally 
resent having to pay for the subsidized transportation of 
employees.
    Mr. Radanovich. Thank you.
    Donna?
    Mrs. Christensen. Just to see if we have some common ground 
here, I think, Mr. Kelly, you have been clear about your 
position with the plan. I would like to ask Mr. Welch and Ms. 
Mosley, are we in agreement on the five goals of the plan, 
reclaiming the natural beauty, reducing traffic congestion, 
allow natural processes so they will reduce crowding, promote 
visitor understanding and enjoyment? You are not opposed to the 
goals of the plan; am I correct? You support the goals of the 
plan?
    Ms. Mosley. I think the goals are pristine. I think it is 
how we achieve them that is significant. For instance, on 
Memorial Day weekend of 1999, it is a Saturday, when you would 
expect this place to be totally packed, our fourth district 
supervisor and one of our public county transportation people 
took a video, started at the top of Priest Grade going into 
Yosemite on 120. They came all the way into the valley, and 
they found very, very little problem. In fact, the parking 
issue was so minimal that the Park Service had pulled two 
trams--or a tram across two separate parking lots that were 
totally unavailable to the public.
    This is a self-fulfilling prophecy of transportation and 
parking problems. When you pull away all the parking places 
that we have seen go in the last 10 years or so, yes, you are 
going to have a parking problem.
    The other issue would be to invoke professional traffic 
management in the valley. We have also seen that work. After 
there was so much problem with the parking problems, the gate 
closures, et cetera, the Park Service did invoke professional 
management, and we saw a massive difference.
    Mrs. Christensen. So you are saying that there is--let me 
ask the question that I wanted to ask. You probably partially 
answered it, and I would ask it again to Mr. Welch and Ms. 
Mosley. With day users apparently increasing, you said, Mr. 
Welch, that there were 1,500 parking spaces in 1980?
    Mr. Welch. In the general management plan, it indicates 
there were 2,500 in 1980. I am not sure, I have seen 1,200 and 
I have seen 1,600 in different places in print for what exists 
today.
    Mrs. Christensen. Given the fact that the day user--the day 
user population is apparently increasing, to me that could mean 
that managing traffic, which has already been cited as being a 
problem, could be just impossible. Wouldn't you agree that 
given the increase in day users, that we would need to have 
some other means of getting people around rather than being a 
greater number of people driving into the park?
    Mr. Welch. I think a couple of things. Five hundred fifty 
parking places is the number that you would find in a small 
shopping center in any city in this country. It seems to me 
that in 7 square miles you could find a place for a handful of 
parking. I think the key is to properly manage. I think it is 
dispersed, and I think it is a management issue more than it is 
a space issue. As Peggy alluded to, the reduction in the last 
few years has caused a lot of these problems, and they are 
perceived problems.
    If I may address your first question about do we support 
the goals, absolutely. I support all the goals of the valley 
plan. The one phrase in there is a little misleading about 
overcrowding. Overcrowding is a very relative term. One 
person's perception of crowding is not somebody else's. The 
valley is about 5 percent of the Yosemite Park. There is 95 
percent out there. There are thousands of acres of wilderness. 
If somebody wants a wilderness experience--I don't think the 
people visiting this national park want a wilderness 
experience, nor do they need to have one. They need the 
facilities and service, accessibility and affordability. Again, 
it seems that you could find in this beautiful place absent--I 
understand the flood plain and the rock falls and so forth, but 
there certainly has got to be someplace to have a handful of 
parking places properly managed and a few river campgrounds to 
accommodate the demand and still preserve this wonderful 
environment.
    I want to preserve it for my kids, too. I was here in a 
tent cabin when I was 10 years old. That was my first 
experience. Recently I have had the pleasure of staying in an 
Ahwahnee hotel room. That is wonderful, too. But we need all of 
it, and we shouldn't be discriminating one over the other.
    I hope that helped to answer your question.
    Mrs. Christensen. On the campsites, wouldn't the possible 
addition of new campsites along the road corridor address the 
demand for increased campsites and still protect the public 
from the flood areas that are likely to flood?
    Ms. Mosley. I think the fact that this is a 50/100-year 
flood is something that we really need to consider. This is not 
the kind of devastation that occurs on a regular basis, even 
every two or three decades. It is like a once-in-a-lifetime-
type event. And I think that we all recognize that even in our 
own private residences, we put things in, we maintain them, and 
I think that the Park Service needs to look at these 
campgrounds in a similar sense. I believe that some of the 
things I have seen about the building of campsites in the 
outlying areas, outside the valley, the cost of these that I 
have seen, it seems to me they could build houses out there 
instead of campsites. And I think that we really need to look 
at the viability of what this means. And when I hear the Park 
Service ask for more money, I am devastated. I just can't 
imagine.
    What we need to do is spend that money to repair the 
crumbling sewer system and some of the really important issues. 
And also on the congressional site that I had pulled up, there 
is mention of how the Park Service needs to spend their money 
on better prioritized lists. I really think we need to go back 
and look at that, too. I think the campsites are a viable part 
of this experience, and I think along the river is why people 
come into the park.
    And if I might address your earlier question to Steve about 
the 80 percent-20 percent. This park has lost 25 percent or 1 
million visitors a year over the last 6 years. They are 
certainly not coming into the gateways, because my business is 
down 25 percent as well. So I don't think it is an 80-20 
perspective just clear-cut across the line. I think the reason 
people are not coming is because I almost believe that every 
spring the media draws straws on who is going to write the 
Yosemite is closed part. It is something that deters people 
from coming. They are convinced they can't get into the park. 
As a matter of fact, the Triple A tour guide last year in 
previous issues stated that you must take public transportation 
into the park, which is totally false. They did correct it this 
year because we helped them. I think that when this information 
is provided by the Park Service to an agency like Triple A that 
this entire country uses, it is wrong. It is wrong. Thank you.
    Mr. Radanovich. Thank you. Thank you for your job.
    Devin?
    Mr. Nunes. Thank you, Mr. Chairman.
    Mr. Welch, in your testimony you get to the question that I 
was asking the first panel, and that is essentially since 1980, 
according to your numbers, you have seen a 50 percent reduction 
in campsites, overnight lodging, and parking spots. Would you 
say that is correct? Using approximate numbers.
    Mr. Welch. I believe for parking spaces that is true. I am 
not sure that the campsite reduction is quite that much.
    Mr. Nunes. I see the concern here, and that was my question 
to the first panel is that incrementally, over the last 20 
years, you have seen a reduction in campsites, parking spots. I 
think the concern that you folks have, and you can correct me 
if I am wrong, is what is going to happen in the next 20 years? 
Are you going to continue to see another 50 percent reduction 
in parking spots and campsites? Is that accurate to your 
concern?
    Mr. Welch. Yes, it is.
    Mr. Nunes. When you look at daily traffic, I remember when 
I came up into this area for the first time, my family had a 
1978 Ford Bronco that got about 7 miles to the gallon. We came 
up last night in a four-wheel drive pickup because of the snow 
that Mr. Radanovich didn't tell me about. Anyway, it was a 
pickup that gets closer to 20 miles a gallon.
    I share the same concerns as you. I am confused by these 
strange numbers that seem to vary from testimony to testimony. 
I am wondering, are you satisfied with the process that this 
plan has been developed through, in the numbers? Are you 
satisfied with the numbers that have been used and the 
scientific system that accounts for these numbers? Would you 
say it has been adequate, inadequate? Would you like to see it 
looked at again?
    Mr. Welch. We think the process was flawed and sort of 
finalized in the waning hours of 2000, which was the last 
administration, and I think the prior Park Service 
administration was not as receptive to gateway community input 
and disregarded a lot of our concerns.
    Visitation has declined 17 percent since 1996. My business 
is down. Peggy's and many others are affected by this decline. 
The concessionaires' business must be suffering as well. The 
population certainly in California, and I understand 75 percent 
of the visitation here comes from California, I can't quote you 
the statistics, but I am sure there are more people in 
California now than there were 20 years ago, and it is going to 
continue to grow, and we need to provide access in an 
affordable fashion for these folks to use this. We can't do 
that by declining convenience and accessibility.
    Mr. Nunes. In your testimony, you are not asking to go back 
to 1980 levels. You are just asking to go back to pre-1997 
flood levels of parking and campsites.
    Mr. Welch. In terms of camping, pre-1997 levels in the 
valley would seem reasonable and certainly a goal that could be 
achieved. Parking, I would like to see it increased more to 
what it was. I have had old-timers tell me there used to be 
5,000 places in the valley, many undeveloped in dispersed areas 
and just used seasonally. I am not sure how environmentally 
wise some of those things were, but, again, we have a lot of 
people in this country, and we need to accommodate them in a 
practical, reasonable way. I would think somewhere in the 
neighborhood of 1,500 to 2,000 parking places for day users to 
bring in their camping gear and picnic gear and all the things 
that they want to come is not an unreasonable or unachievable 
goal.
    Mr. Nunes. Thank you, Mr. Welch.
    Real quickly, Ms. Mosley, could you quickly go over the 
busiest times of the year for your business? Either describe 
your weekends or periods of time.
    Ms. Mosley. Yes. Our busiest months are July and August. 
Obviously we have heavy visitation on Memorial Day, the Fourth 
of July and the Labor Day weekend. But July and August, 
absolutely.
    Mr. Nunes. And so if it is not July or August or Memorial 
or Labor Day, how is the traffic, how is your business? Are 
there plenty of parking spots available here? Isn't the need 
for the surrounding areas and for the valley here to 
accommodate these high-traffic periods of time?
    Ms. Mosley. It is extremely limited, and it is limited to 
the holiday periods, and like I said, the July and August. Even 
in July and August I have been over here just to check it out, 
and, yeah, I had to drive around a little bit, but it wasn't 
anything that was terribly frustrating. It was something that 
was accessible.
    I feel that we are sort of killing flies with sledgehammers 
with YARTS. It just doesn't fit.
    Mr. Nunes. Thank you, Ms. Mosley.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Devin.
    Kevin, can you tell me, in this report, the campground 
study, you did mention the cost--and granted they have got to 
go back and refigure these numbers--the cost of relocating 144 
campgrounds was quoted something like $18.7 million. You could 
build the Ahwahnee for that, I think.
    Mr. Kelly. You could build a Marriott hotel for that.
    Mr. Radanovich. Exactly.
    Taking out the equation of the price tag--we are going to 
look at those numbers, we are going to talk a little more about 
that later with you as being the concessionaire to Yosemite--
would you be interested as a concessionaire of possibly going 
in and doing the work on the campgrounds and running them?
    Mr. Kelly. Well, certainly we have expertise in running 
inventory like a campsite or a reservations system. Building 
campsites, we would have to look into it. And certainly if the 
Park Service, our client, came and asked us to take a look at 
it, we would be open to looking at it. Again, as it applies to 
the valley plan, though, it would be a concern that, again, it 
would stop these 15 projects that we have in the works right 
now, and that would be our greatest concern.
    As we talked about parking as well, I think the 1,600 
places we have in place is what we had in 1997 as well. Our 
visitation has steadily gone down since then. I think that is 
in part because we are shooting ourselves in the foot here. We 
are telling everyone there are only 500 parking spaces. Don't 
come to Yosemite.
    I think we need to stop having the negative press out there 
and saying, please come. You come here midweek in the summer, 
it is gorgeous. The water is wonderful in the river. There is 
plenty of parking. Come and visit. I think we need to stop 
being negative and say that there is plenty of parking, that we 
are not down to 500, you don't have to take YARTS. Drive your 
car and park and enjoy the park. It is a beautiful place.
    Mr. Radanovich. Thank you. And I think the number is around 
1,600 spaces that are considered day use parking spaces that 
are in existence now. The issue is reducing it to 550. And so 
that you know, those numbers are tied to this satellite parking 
system, bus them in the park issue, and that is if you are 
going to use that satellite bus parking system for 9 months out 
of the year, you only need 550 spaces. If you are going to use 
it 3 months out of the year, you need 1,200 spaces. If you are 
not going to use it at all, you probably need 1,600 spaces. So 
they are connected. I appreciate those comments.
    I want to ask Steve and Peggy to respond to the same 
question, if you would, please, and, that is, Kevin in his 
opening statement went through a long litany of all these 
problems that have happened in Yosemite over the last 5 to 8 
years, including the murders and the flood. Can you tell me 
why, give a reason for the decrease in business in both the 
Pines and the Groveland Hotel and also your idea of what the 
Park Service can do to contribute to an increased visitorship 
at your facilities?
    He said we need to get positive press rather than negative 
press, and every time I pick up the paper and see something 
about some devastating thing--or it does not even have to be 
real, but perceived--it creates problems.
    And, granted, the things that had happened, many of them 
have been natural, but the ones that really upset us are the 
ones like when Congress closes the park because there is no 
money. It is the things that are manageable that don't have to 
be; and again I think media is where we are at. And I know that 
the people I talk to feel that the negative media is coming 
from the National Park Service, and we feel that they have 
major control over what goes out to the press; and we feel, at 
least in our neighborhood, that this has been a major 
contributor. Again, every time they see something that says the 
park is closed, the park is crowded, they don't come because 
they don't want to get embroiled in that kind of thing and my 
business started dropping off right after the 1999 flood. 1999 
was my best year, and it has continually decreased since then, 
but I feel that we could get major assistance from the Park 
Service.
    One other thing that I would like to--
    Mr. Radanovich. In communications it sounds like--
    Ms. Mosley. Yes.
    One other thing that I would like to mention that I think 
would help the, quote, ``crowding in the valley'' would be 
making the general public aware of all the magnificent areas 
outside this 7 square miles. When Superintendent Mihalic first 
came to town, he came to visit, we talked about that. He said 
we have no money to market that kind of thing, and he indicated 
that WCS was the marketing of the park, and it seems to me if 
that is the case, then perhaps something needs to be done to 
assist WCS in directing more of their marketing to the outside 
areas of the valley, even though they don't have--
    Mr. Radanivich. You mean Tuolumne Meadows or that kind of--
    Ms. Mosley. Anywhere. But they don't have revenue-
generating sources there, so as an entrepreneur, I can 
appreciate their desire not to market a place that they can't 
get into my wallet. So I think this is a major issue of how the 
message gets out.
    Mr. Radonivich. Thank you.
    Steve?
    Mr. Welch. I would share Peggy's comment about the press 
and the public perception. We--our visitor bureau goes to 
numerous trade shows up and down the State, and many people, 
their first question is, I understand I have to get on a bus. 
Other people say, gee, do I need a reservation? That idea was 
kicked around a few years ago and somehow it is still floating 
around, and these things are negative perceptions. At least, 
you know, they think it is overcrowded, they might need a 
reservation, they might have to get on a bus, et cetera, et 
cetera, and that all plays into this. So I think the Park 
Service and the media in general could assist getting out the 
proper image.
    There is one other factor that hasn't been discussed today 
and that is the gate fee. In 1997 it was raised from $5 per car 
to $20. That is a quadrupling. I can't imagine any business 
person raising his prices overnight four times and not 
expecting a decline.
    It was a demonstration program. I think there is something 
like $60 million out there from this. That really discourages 
our residents and the people from our county.
    We have 15 percent unemployment in our county. The San 
Joaquin Valley has double-digit unemployment, twice the Federal 
average. Those folks would like to come up and have a picnic. 
They would like to drive through, and maybe it should be $20 on 
the peak weekends in May when the people want to see the 
waterfalls, but how about Wednesday in March? Maybe that should 
be $5. Maybe it should fluctuate with our rates. All the 
businesses, whether you are in airlines or hotels or what have 
you, you base your rates on demand and maybe that is a concept 
that could be used in a positive way.
    But I think that has had a negative impact as well as the 
other--the press that has been mentioned.
    Mr. Radonivich. Thank you, Steve.
    Donna?
    Mrs. Christensen. Mr. Chairman, as I asked you, I think it 
would be good for us to get--and time won't permit us to get it 
today, but to get some answers from the Park Service in 
response to Ms. Mosley's concern about how the Park Service 
would attempt to pay for the maintenance and operation of the 
shuttle, whether it be taxpayer dollars, or how would they 
propose to pay for it; and also an answer or have them address 
the adverse impact on low-income potential visitors to the park 
and maybe the issue around the media and the type of 
information that is sent out.
    I have one question, because Mr. Welch said that most of 
the visitors probably come from California; and in a letter 
from members of the California House delegation, they cited 
polls that show that 80 percent of people polled in California 
supported reducing cars in the valley to a shuttle system, that 
71 percent oppose building new permanent parking lots, and 71 
percent supported limited future development along the Merced 
River.
    And I would just like the panelists to comment on that poll 
and the results. That is my question.
    Mr. Kelly. Well, certainly when you look at coming to the 
Yosemite National Park and coming to the valley, we do have a 
shuttle system that exists here. We transport 2.8 million on 
that valley shuttle right now. You can drive here, park your 
car, and ride a shuttle. You don't have to drive your car 
around this park. So I think that what the population is 
supporting is the fact that you come and park your car and 
still enjoy the parking, still get from point A and B on a 
transit system within the valley.
    Certainly, 80 percent of our visitation does come from 
California, and they are certainly an important constituent 
that we need to pay attention to. So on development, again I 
think there it is pristine valley, and I think people are 
always concerned about what you build where in this park. So I 
think that is the general statement as well.
    Mr. Radanovich. Anybody else?
    Ms. Mosley. I would just like to have a little better 
definition. Eighty percent of, what was that again?
    Mrs. Christensen. It said that 80 percent of people polled 
in California alone.
    Ms. Mosley. Where did they poll these people and how many 
did they poll?
    Mr. Welch. I don't know that I can comment on the study 
exactly, but I do know there is a big perception of crowding. 
When I go to the Bay Area or Los Angeles, that is where the 
crowding occurs, and a lot of the visitors, if they are polled 
there and they are given this mental picture of what they deal 
with on a daily basis is occurring in their national park, they 
probably would support those kinds of things.
    But I--we do support valley shuttle. We support the shuttle 
around the big trees. There are some really logical, great 
applications of that kind of thing. But we are back to the 
access issue of being able to get in here and then making your 
choice or making your choice freely if you want to come on a 
bus from Fresno or Bass Lake or San Francisco or wherever and 
do a private tour, that is wonderful. Some people prefer that, 
and it works well for them.
    Mr. Radanovich. Thank you very much.
    I think if you asked the polling question, if you were to 
drive up from Los Angeles and come into the park and on any 
given day be told once you got to the valley that you had to 
turn around and drive back 10 to 20 miles and park your car and 
get on a bus and come into the valley, the polling numbers 
probably would not be that high.
    Thank you very much for your valuable testimony. And with 
that, we will excuse our second panel and introduce our third. 
Thank you very much.
    Our third panel is Mr. Allan Abshez, camping enthusiast 
from Los Angeles, California; Mr. Paul Minault, Northern 
California Regional Coordinator of The Access Fund, San 
Francisco; Mr. Jay Thomas Watson, California/Nevada Regional 
Director of The Wilderness Society; Mr. George Whitmore, 
Chairman of the Sierra Club, Yosemite Committee, Fresno, 
California.
    Mr. Radanovich. Thank you very much, gentlemen, for taking 
the panel. I will ask, though I know it has been a couple of 
hours already, we are going to try to wind this hearing up as 
fast as we can, but, with you, still need to get all the 
information on the record. So if we can have it quiet, I would 
sure appreciate it.
    We will begin with you, Mr. Minault. Thank you very much 
and welcome to the Committee. You do have 5 minutes of not 
stopping you. So summarize up and take it for 5, please. Please 
begin.

    STATEMENT OF PAUL MINAULT, NORTHERN CALIFORNIA REGIONAL 
   COORDINATOR OF THE ACCESS FUND, SAN FRANCISCO, CALIFORNIA

    Mr. Minault. Thank you very much, Mr. Chairman. My name is 
Paul Minault, Northern California Coordinator for The Access 
Fund. The Access Fund is America's largest national climbers 
organization. And I am pleased to submit this testimony for 
inclusion in the public record.
    Our testimony concerns the failure of the Park Service to 
provide campgrounds within Yosemite National Park as set forth 
in the Yosemite General Management Plan. The Access Fund 
respectfully recommends that the National Park Service replace 
campsites lost to flooding and bring the total number of 
campsites in the valley up to the level prescribed in the 1980 
Yosemite General Management Plan.
    We submitted extensive comments on the Valley 
Implementation Plan, the Yosemite Valley Plan, the Merced River 
Plan and the Lodge Plan with a particular reference to the need 
for more camping opportunities in Yosemite. These comments were 
too long to attach, but I have brought copies of them with me 
for reference and for any member of the audience who would like 
to see them.
    We also submitted suggestions to the consultant team 
preparing the Parkwide Out of Valley Campground study. And much 
of our comment focused not only on the numbers, which we have 
talked about today, but on the values which support camping and 
which we feel were not adequately discussed in the valley plan 
or represented in the Park Service planning documents.
    In our letter to Chip Jenkins of the Park Service dated 
July 11, 1999, which is a part of our package, we pointed out 
that the park is almost 1,000 campsites short of the number 
called for in the 1980 General Management Plan with a shortfall 
in Yosemite--it will not be a shortfall after the plan is 
completed, but a shortfall in Yosemite Valley of almost 300 
sites. We feel strongly that these campsites should be built as 
soon as possible to comply with the 1980 GMP.
    Let me say something about the values which we feel support 
these numbers that we recommend. The National Park Service 
bible, the Management Policies 2001 version, states that it is 
the policy of the Park Service to encourage visitor activities 
that foster an understanding of and appreciation for park 
resources and values, or that promote enjoyment through a 
direct association with, interaction with, or relation to, park 
resources.
    In our comments of the Valley Plan, we listed the ways in 
which camping enhances the visitor experience and furthers 
these values. First, we pointed out that camping is a form of 
recreation unlike staying in developed accommodations which is 
a form of leisure. I think that is an important distinction.
    Second, camping promotes a closer relationship to park 
resources than any other form of overnight accommodation, 
furthering the park value which we discussed a moment ago.
    Third, camping distances the visitor from the commercial 
values of comfort and convenience, from the expression of 
social status through consumption that pervade American 
society. Camping brings the visitor closer to nature, the 
simple necessities of daily life, and the way people lived in 
the past.
    Fourth, camping is democratic. In campgrounds, social 
distinctions account for little, and camping has the potential 
to bring people together in shared appreciation of the natural 
surroundings in a manner that reduces social barriers.
    The Nation's great parks present an opportunity to be a 
force for social equality. Unfortunately, the lodging picture 
in Yosemite preserves the social distinctions of the greater 
society rather than leveling them, which we believe should be a 
goal of the parks.
    Fifth, camping is inherently communal. Campers have an 
enhanced opportunity to associate with other people, develop 
new relationships, and broaden their social horizons. 
Unfortunately, the Valley Plan largely ignored these values 
with the result that camping suffered the loss of 300 campsites 
through the Valley Plan. Instead, the park now emphasizes 
exclusive and expensive lodging over traditional camping 
accommodations that are more in line with NPS management 
policies.
    We also pointed out the need for the Park Service to 
coordinate the development of new camping facilities with the 
national forests outside the park. In recent years the national 
forest has eliminated approximately 50 campsites along the 
Merced River west of the park, and just last fall Inyo National 
Forest closed all the informal camping areas along Highway 120 
east of the park and along the road to Saddlebag Lake, 
eliminating about 100 informal overnight parking and camping 
areas.
    These actions have increased demand for camping outside the 
park and need to be taken into account in the park's planning 
for new campgrounds.
    The Yosemite Valley Plan noted that over 1,200 new lodging 
units are proposed for construction outside the park. No new 
campgrounds were proposed, however. This suggests to us that 
the park should focus on developing new campgrounds and shift 
the provision of developed accommodations to the private sector 
outside the park.
    Mr. Radanovich. Mr. Minault, I am enjoying your testimony. 
If you could submit, however, I promised I would stick to this 
rule.
    Mr. Minault. I am done. Thank you very much for the 
opportunity.
    Mr. Radanovich. Thank you.
    [The prepared statement of Mr. Minault follows:]

 Statement of Paul Minault, Northern California Regional Coordinator, 
                            The Access Fund

    Dear Chairman Radanovich and Members of Subcommittee on National 
Parks, Recreation and Public Lands:
    The Access Fund, America's largest national climbers organization, 
is pleased to submit this testimony for inclusion into the public 
record regarding the implementation of the Yosemite Valley Plan. 
Specifically, this testimony concerns the failure of the National Park 
Service to provide campgrounds within Yosemite National Park as set 
forth in the Yosemite General Management Plan (``GMP''). The Access 
Fund respectfully recommends that the National Park Service replace 
campsites lost to flooding and bring the total number of campsites in 
the Valley up to the level prescribed in the Yosemite GMP.
THE ACCESS FUND
    The Access Fund is a 501 (c) 3 non-profit advocacy group 
representing the interests of approximately one million rock climbers 
and mountaineers in the United States. We are America's largest 
national climbing organization with over 15,000 members and affiliates. 
The Access Fund's mission is to keep climbing areas open, and to 
conserve the climbing environment. For more information about the 
Access Fund, log on to www.accessfund.org.
THE ACCESS FUND HAS BEEN ACTIVELY INVOLVED IN YOSEMITE PLANNING
    The Access Fund submitted extensive comments on the Valley 
Implementation Plan, Yosemite Valley Plan, Merced River Plan, and Lodge 
(Camp 4) Plan with a particular reference to the need for more camping 
opportunities in Yosemite Valley. These comments were too long to 
attach, but I have brought copies of them with me for your reference. 
We also submitted suggestions to the consultant team preparing the 
Parkwide Out of Valley Campground Study which are in your attachments
YOSEMITE HAS A SHORTFALL OF 1,000 CAMPSITES, 300 OF THEM IN YOSEMITE 
        VALLEY
    In our letter to the Chip Jenkins of the Park Service dated July 
11, 1999, which is also attached, we pointed out that the park is 
almost 1,000 campsites short of the number projected for the park in 
the 1980 Yosemite General Management Plan, with a shortfall in Yosemite 
Valley of almost 300 sites. We feel strongly that these campsites 
should be built as soon as possible to comply with Yosemite National 
Park planning documents and National Park Service Management Policies
CAMPING FURTHERS PARK MANAGEMENT POLICIES
    National Park Service management policy is to ``encourage visitor 
activities that . . . foster an understanding of, and appreciation for, 
park resources and values, or will promote enjoyment through a direct 
association with, interaction with, or relation to park resources.'' 
Management Policy 2001- 8.2 Visitor Use (emphasis added). In our 
comments to the Valley Plan, we listed the ways in which camping 
enhances the visitor experience, furthers park values, and promotes the 
enjoyment of Yosemite National Park through a direct association with 
park resources.
    <bullet> LFirst, we pointed out that camping is a form of 
recreation, unlike lodging in developed accommodations, which is a form 
of leisure.
    <bullet> LSecond, camping promotes a closer relationship to park 
resources than any other form of overnight accommodation.
    <bullet> LThird, camping distances the visitor from the commercial 
values of comfort and convenience and the expression of social status 
through consumption that pervade American society. Camping brings the 
visitor closer to nature, the simple necessities of daily life, and the 
way people lived in the past.
    <bullet> LFourth, camping is democratic. In campgrounds, social 
distinctions account for little, and camping has the potential to bring 
people together in shared appreciation of their natural surroundings in 
a manner that reduces social barriers. The nations' great parks present 
an opportunity to be a force for social equality. Unfortunately, the 
lodging picture in Yosemite preserves the social distinctions of the 
greater society, rather than leveling them, which we believe should be 
a goal of the parks.
    <bullet> LFifth, camping is inherently communal. Campers have an 
enhanced opportunity to associate with other people, develop new 
relationships, and broaden their social horizons. Unfortunately, the 
Valley Plan largely ignored these values, with the result that camping 
suffered the loss of 300 campsites in the Valley. Instead, the park now 
emphasizes exclusive and expensive lodging over traditional camping 
accommodations that are more in line with NPS management policies.
THE PARK SERVICE SHOULD COORDINATE CAMPGROUND PLANNING WITH NATIONAL 
        FORESTS OUTSIDE THE PARK
    We also pointed out the need for the Park Service to coordinate the 
development of new camping facilities with the National Forests outside 
the park. In recent years, the Sierra National Forest Service has 
eliminated approximately 50 campsites along the Merced River west of 
the park. Just last fall, the Inyo National Forest closed all the 
informal camping areas along Highway 120 east of the park and along the 
road to Saddlebag Lake, eliminating about 100 informal overnight 
parking and camping areas. These actions have increased demand for 
camping opportunities inside the park and need to be taken into account 
in the park's planning for new campgrounds.
PARK PLANNING FOR OVERNIGHT ACCOMMODATIONS SHOULD FOCUS ON NEW 
        CAMPGROUNDS AND SHIFT DEVELOPED LODGING TO THE COMMERCIAL 
        SECTOR OUTSIDE THE PARK
    The Yosemite Valley Plan noted that over 1200 new lodging units are 
proposed for construction outside the park. Valley Plan at II-55 - II-
57. No new campgrounds were proposed, however. This suggests to us that 
the park should focus on developing new campgrounds and shift the 
provision of developed accommodations to the private sector outside the 
park. Such a shift is supported by the values we discussed earlier.
    Chairman Radanovich and members of the Subcommittee on National 
Parks, Recreation and Public Lands, the Access Fund appreciates the 
opportunity to provide testimony on the Yosemite National Park Parkwide 
Out of Valley Campground Study. We hope you will acknowledge the 
problems caused by the 1000 campsite shortfall in Yosemite National 
Park and direct the National Park Service to construct new campsites.
    Thank you,
    Attachments: January 11, 1999 letter to Chip Jenkins
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6612.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T6612.007
                                 
    Mr. Radanovich. Mr. Abshez, welcome to the Committee and 
please begin your testimony?

        STATEMENT OF ALLAN ABSHEZ, CAMPING ENTHUSIAST, 
                    LOS ANGELES, CALIFORNIA

    Mr. Abshez. Good morning. Before I start, I hope you have 
had a chance to take a look at the photographs I submitted, if 
you ask me about them in the Q and A. Also up there on the 
easel is a photograph of myself and my wife. My wife is not 
able to be here today, but that was shot on a 2-week backpacker 
in Tuolumne Meadows on the occasion we decided to become 
parents.
    Mr. Radanovich. Terrific. We won't go into detail.
    Mr. Abshez. We won't go there.
    Mr. Chairman and honorable Subcommittee members, thank you 
for inviting me to testify today. I am very honored to be part 
of this distinguished panel and sit side by side with The 
Wilderness Society, the Sierra Club and the Americans for 
Access. But I represent no organization and I am here only on 
behalf of myself, my family, my friends and people like me 
whose lives have been enriched by the spirit and tradition of 
Yosemite.
    We owe this place a great personal debt. I am making a 
small installment payment on that debt by urging you to ensure 
that no one constrains access to the valley through planning 
efforts that offer little real benefit, but would diminish the 
education, enjoyment, and enrichment of millions.
    I am appearing today as a typical Yosemite visitor, but I 
am no stranger to the complex issues you are facing. By 
profession, I am a lawyer and that is one of the reasons you 
have got to indulge me on the time limit here.
    Mr. Radanovich. I will hold you to it, though.
    Mr. Abshez. OK.
    I am specializing in land use planning and environmental 
law. I also serve on a planning commission in Los Angeles, 
where I reside. One of my proudest professional accomplishments 
though was my representation of the Ansel Adams Publishing 
Rights Trust for several years. Ansel Adams was always a 
personal hero to me, a person whose image could equally express 
the awesome power of granite mountaintops and the aisle of 
willows along a sun-speckled street.
    I remember reading in his autobiography that Ansel first 
visited Yosemite when he was 14. My first visit occurred in 
1968; I was 12 years old, and it was my first visit to any 
national park. My family and I stayed at the Lodge. My 
grandmother was along. My family had no camping experience or 
inclination and my grandmother was elderly and not able to get 
around well. Had the accommodations at the Lodge not been 
available we might have passed over Yosemite entirely.
    I remember the feeling of walking to the Lodge cafeteria in 
the pine-scented air and looking up at the blue sky and amazing 
cliffs each morning. I felt as if I were standing in the most 
magnificent cathedral in the world.
    Why do I remember this feeling so vividly? Because it is 
the same feeling I experienced this morning and experience 
every morning that I wake up in Yosemite. It is an importance 
that deeply touches the soul. Members of the Subcommittee, I 
hope that you will ensure that we restore the facilities 
necessary to let people have that extraordinary experience. You 
can do that and protect the park. That is the point of 
everything in my testimony.
    While I was in high school, I attended the Yosemite 
Institute in the valley. When I was 16, my friends and I 
slipped our parental leashes and we rode the Greyhound bus here 
to camp at the upper river campground. As campers we were 
largely buffoons, but we were enthusiastic and were willing to 
tolerate a moderate level of discomfort. Camping in Yosemite 
Valley offered us the attraction, but more importantly, the 
opportunity to learn and mature. Like it was for Ansel Adams, 
like it is for so many others, Yosemite Valley was our 
schoolroom.
    During college, I visited the valley every year and 
sometimes several times a year. Sometimes I camped in the 
valley for fun. At other times it was all I could afford. 
Yosemite Valley became my jumping-off point to explore other 
parts of the park. I began with no experience or equipment to 
speak up of and made every foolish mistake in the book.
    In his autobiography, Ansel Adams tells the same story. 
During his first visit to the valley, Ansel Adams and his 
family lodged at Camp Curry. He later camped and made short 
hikes out of the valley. He was a beginner and had the same 
awkward misadventures as all beginners do. It was only in 1920 
after several visits to the valley that he made his first high 
Sierra trip under the supervision of an early mentor, Francis 
Holman.
    I grew and took on greater challenges, too. When I was a 
sophomore at Cal, I thought I would try winter backpacking. 
That trip ended in my being carried out of the back country 
with hypothermia. I recovered, but I certainly learned a lesson 
in humility. By the time I graduated college, I took many 
wondrous destinations throughout the back country.
    Together with my family and friends, I have enjoyed most of 
the experiences the park has to offer and have stayed at every 
type of accommodation here. I learned how to ski at Badger Pass 
from Nick Fiori, another living legend. I cross-country-skied, 
snowshoed, rock-climbed, rafted, fished most everywhere that 
offered a decent prospect, skated on Glacier Point and swam 
every lake whose temperature I could tolerate.
    I have ridden into the back country on mules. Let us not 
forget mules and horses in all of this. I have had my food 
stolen by a bear in the upper reaches of Tuolumne Meadows even 
though I hung my sacks according to the Park Service 
guidelines, or so I thought. The rest of the trip was a hungry 
one and to this day I still resent the bear who stole my food.
    In 1985, I brought my future wife to the valley and 
proposed marriage. The park has since been the scene of many 
memorable experiences of our family life.
    The reason I relate these experiences is not just that they 
are important to me. They are the stuff that lifelong 
conservationists are built from and they are offered in a 
wholly unique combination and setting in Yosemite Valley. If we 
curtail the availability of these experiences or eliminate 
them, we not only deny people life enrichment, but we also 
destroy the future audience for our national parks and 
wilderness areas. We will tend to create bus tours who are 
content to be bussed in and bussed out instead of independent 
and self-reliant outdoorsmen and women.
    It is ironic that we in the conservation organizations, 
whose membership foundation is built upon people who simply 
enjoy the outdoors, would support reducing access to formative 
outdoor experiences. After all, Ansel Adams started as a basic 
family camper and became a conservation icon. Our goal should 
be to foster the creation of more people like Ansel Adams. Our 
goal should not be to shut people out of the valley and that is 
why this plan needs to be readjusted.
    It is true that the 1997 floods washed away some eyesores, 
but it is shocking that the preparers of the plan choose the 
word ``opportunity'' to describe the devastation they wreaked. 
The plan presents itself as increasing visitor accommodations, 
but that is a distortion of the picture and therefore the final 
EIS really contains little information that is useful to public 
discussion.
    Mr. Radanovich. Mr. Abshez, I am sorry you have got to wind 
up. Please know in the audience we are cutting these people 
short, but their full written testimony is for the record. So 
your testimony is in there.
    Mr. Abshez. Rigorous discussion and analysis reveals that 
the claimed benefits of the plan are questionable. It is true 
that the plan would revert certain areas to passive use, but if 
one seeks it, quietude in the valley has always been available 
in many wonderful places. And if it is true, as the preparers 
of the plan contend, visitation won't be diminished, then there 
is no reason to assume that popular destinations such as trails 
and waterfalls will be any less congested during peak periods.
    Similarly, the ecological benefits of the plan are 
overstated. The areas formerly used for camping represent about 
30 acres, less than 1 percent of the valley's 4,480 acres, but 
they provide opportunities for about 19,680 families to camp in 
the valley every summer.
    People like me are relying on you to correct the plan by 
insisting the Park Service restore preflood camping and lodging 
opportunities while furthering resource protection. We can 
educate park visitors and plan to distribute valley campgrounds 
and sensitive riparian areas are respected. When asked to do 
so, people have acknowledged--
    Mr. Radanovich. Mr. Abshez--
    Mr. Abshez. I am going to close it.
    Mr. Radanovich. Are you closing?
    Mr. Abshez. I am closing.
    Mr. Radanovich. Good.
    Mr. Abshez. OK.
    Mr. Radanovich. There will be plenty of time during Q and 
A.
    Mr. Abshez. OK. Two more paragraphs. When I do visit the 
valley crowded with families and children and fumbling campers 
and hikers, I smile. I see my own experience reflected in 
theirs. I think we all do. And I would like to think that Ansel 
Adams would smile, too.
    This morning all of you enjoyed the soul-stirring 
experience of waking to stand in the most magnificent cathedral 
in the world. Let us restore that opportunity for others.
    Mr. Radanovich. Thank you very much.
    [The prepared statement of Mr. Abshez follows:]

           Statement of Allan J. Abshez, Camping Enthusiast, 
                        Los Angeles, California

    Mr. Chairman and Honorable Subcommittee Members:
    Thank you for inviting me to testify before the Subcommittee with 
respect to the implementation of the Yosemite Valley Plan. I represent 
no organization, and will appear only on behalf of myself, my family, 
friends, and people everywhere like me. I will be testifying to repay a 
great personal debt to the place, tradition, people and spirit that are 
Yosemite Valley. I represent the many millions of people whose life-
experience and life-outlook has been formed by their visits to Yosemite 
Valley and Yosemite National Park. We have a love affair with this 
place, and want as much as anyone to protect and preserve it. I hope my 
testimony on behalf of those people will provide a foundation for your 
oversight to ensure that no one constrains access to Yosemite Valley 
through planning efforts that offer little real benefit to the 
environment, and diminish the education, enjoyment, and enrichment of 
visitors to the crown jewel of our National Park system.
Background
    I will be testifying as a typical Yosemite camper and enthusiast; 
one who today is a father, a husband, and a lawyer, and as one who has 
visited Yosemite many times as a student and a child. My law practice 
today focuses on land use planning, environmental law, and related 
litigation. I have been responsible for coordinating major planning 
efforts for university campuses, hospitals, art museums, movie studios, 
shopping centers, hotels, and residential and commercial developments. 
I have significant expertise in air, water quality, biotic, traffic and 
parking and historical issues. I serve on a community planning 
commission in Los Angeles, where I reside.
    One of my proudest professional accomplishments though, was my 
representation of the Ansel Adams Publishing Rights Trust for several 
years. In fact, the primary reason I chose the first law firm for which 
I worked was that one of their clients was the Ansel Adams Publishing 
Rights Trust. I figured that even though they were a ``corporate'' law 
firm (you must understand that I was a graduate of Boalt Hall at U.C. 
Berkeley), they couldn't be all bad if they represented Ansel Adams. I 
was right.
    Ansel Adams was a personal hero. My father had passed on to me a 
love of photography and art, which I combined with a passion for the 
mountains and wilderness. Ansel saw many things as I did. As the 
Trust's lawyer, I created its copyright protection program, and oversaw 
many of its licensing activities.
    Ansel Adams first visited Yosemite Valley when he was fourteen. My 
first visit occurred in 1968, when I was 12 years old. It was also my 
first visit to any National Park. My family and I stayed at the Lodge. 
My grandmother was along. My family had no camping experience and my 
grandmother was elderly and not able to get around well. If the 
accommodations at the Lodge had not been available, our visit would not 
have been possible, and we might have passed-over Yosemite entirely.
    I remember the feeling of walking to the Lodge cafeteria, breathing 
the fresh air scented with pine, and looking up at the blue sky and 
amazing cliffs surrounding me each morning. I felt as if I was standing 
in the most magnificent cathedral in the world. Why do I remember that 
feeling so vividly? Because it is the same feeling I experience every 
morning I have woken up in Yosemite. It's an experience that deeply 
touches the soul. Members of the Subcommittee, I hope that you and the 
National Park Service will ensure that as many people as possible are 
able to have that extraordinary experience. We can preserve the 
opportunity for that experience and protect the Park. That's the point 
of everything in my testimony.
    While I was in high school, I attended the Yosemite Institute in 
the Valley. That kindled my interest in mountaineering. When I was 16, 
my friends and I slipped our respective parental leashes, and rode the 
Greyhound bus to camp in Yosemite Valley. We camped at the Upper River 
campground. As campers and hikers, we were largely buffoons, but we 
were enthusiastic and willing to tolerate a moderate level of 
discomfort. Camping in Yosemite Valley offered us the attraction, but 
more importantly the opportunity to learn and mature. Like it was for 
Ansel Adams, and like it is for so many others, Yosemite Valley was our 
school room.
    I moved to Berkeley, California to attend college. Yosemite Valley 
became my jumping off point to explore other parts of the Park and the 
High Sierra. I visited the Valley every year, and sometimes several 
times a year. Sometimes, I camped in the Valley for fun. At other 
times, it was all I could afford. Because of its peaceful setting, 
Upper River was always my campground of choice, although I have 
probably camped in every campground in the Valley, including the 
Climbers' Camp.
    I began exploring Yosemite National Park from the Valley base; 
hiking up and out of the Valley on every one of the trails beginning 
there. As a young backpacker, I made every mistake in the book. I began 
with no money and no equipment of which to speak. In his An 
Autobiography, Ansel Adams tells the very same story. During his first 
visits to the Valley, Ansel Adams and his family lodged at Camp Curry. 
He later camped and made short hikes out of the Valley. He had no real 
equipment or knowledge, and had the same awkward misadventures that I 
did. It was only in 1920, after several visits to the Valley that he 
made his first High Sierra trip under the supervision of his early 
mentor, Francis Holman. In the Valley, Holman could always be found at 
the river campground.
    As I became more experienced, I took on the High Sierra with 
extended backpacking trips throughout Yosemite, Kings Canyon and 
surrounding National Forest lands. I studied the mountains as a 
librarian's assistant at the U.C. Berkeley Map Library. I camped in the 
summer and winter. When I was a sophomore at Cal, I was carried out of 
the backcountry with hypothermia one winter (boy, did I learn a 
lesson!). By the time I graduated college, I'd hiked to many wondrous 
destinations in the backcountry, which are infinite in number, and all 
of which I will never be able to see. I've hiked the marked trails and 
have navigated and clambered cross-country as well.
    All of my friends had to suffer my passion for Yosemite and the 
mountains. Together with them, I've enjoyed most of the visitor 
experiences the Park has to offer and stayed at every type of 
accommodation here, including the campgrounds, Curry Village, 
Housekeeping, the Lodge, the Ahwanee, Wawona, and the High Sierra 
camps. I learned how to ski at Badger Pass from Nick Fiori, another 
living legend. I've cross-country skied and snow-shoed. I've rock 
climbed with the Yosemite Mountaineering school. I've rafted raftable 
portions of the Merced, and fished most everywhere that offered a 
decent prospect. I've skated in the Valley in the winter, and swam 
every lake whose temperature I could tolerate in the summer. I've 
ridden into the backcountry on mules, and plan to do a stock trip to 
the high county this summer with my family out of Red's Meadow in the 
eastern Sierra. Horses and mules can be a wonderful experience, and are 
part of the mountain tradition. I've had my food stolen by a bear in 
the upper reaches of Tuloumne Meadows even though I counter-weighted 
the stuff-sacks and hung them ten feet from the trunk and twelve feet 
off the ground (or was it the other way around). I starved the rest of 
the trip (it was a solo hike), but refused to leave out of resentment 
against the bear.
    The reason I relate these experiences is not just that they are 
important to me. They are the stuff that life-long conservationists are 
built-from. And they are offered in a wholly unique combination and 
setting in Yosemite Valley. If we curtail the availability of these 
experiences or eliminate them, we not only deny people life-enrichment, 
but we also destroy the future audience for our National Parks and 
wilderness areas. And as a nation, we will tend to create tourists who 
are content to be managed and ``bussed-in'' and ``bussed-out,'' instead 
of independent and self-reliant outdoorsmen and women. It is ironic 
that organizations like the Sierra Club and Wilderness Society, whose 
membership foundation is built upon people who simply enjoy the 
outdoors, would now support reducing access to formative outdoor 
experiences.
    After all, the classic outings of the Sierra Club are described by 
Ansel Adams in his An Autobiography with great enthusiasm as anything 
but ``zero impact.'' Adams relates backcountry trips to magnificent 
settings featuring fifty or more mules, roaring bonfires, feasts, 
orchestras and plays staged in full costume. One would think that 
organizations with this rich heritage would be supportive of enhanced--
not reduced--basic family and introductory camping. Ansel Adams started 
as a basic family camper and became a conservation icon. Our goal 
should be to foster the creation of more people like Ansel Adams.
    To briefly conclude, and then on to the Yosemite Valley Plan. In 
1985, I became engaged to my wife at an outlook on the Snow Creek trail 
in Yosemite Valley. At the time, I couldn't afford a diamond ring. In 
1986, while on a two-week backcountry trip out of Tuloumne Meadows, my 
wife and I decided to become parents. I threatened to name my first 
daughter ``Townsley'' after the lake where we made the decision. 
Several years later we came back on a winter trip to the Valley, and I 
presented with my wife with a diamond ring in front of our kids during 
a day hike through the snow. When we lived closer to the Park, we 
celebrated my wife's birthday (December 16th) at the Ahwanee dining 
room (the most beautiful dining room in California) every year. My kids 
(now 15 and 12) have grown up with the Park being a part of their life. 
My younger daughter, Natalie, caught her first keeper--an 18'' 
rainbow--at Vogelsang Lake (at 10,500 feet). What a place to catch your 
first keeper. It was cooked-up for us at breakfast at Vogelsang High 
Sierra Camp. The whole dining room stood up and cheered Natalie when 
the fish was served.
The Yosemite Valley Plan
    As a planner, a land use attorney, and a lover of Yosemite National 
Park, I've reviewed the plan before you today. The Yosemite Valley Plan 
contains many ideas that are commendable, but it is deficient in that 
it fails to restore sufficient visitor accommodations in the Valley. It 
is true that the 1997 floods washed-away some eyesores (floods always 
do), but it is shocking that the preparers of the Plan would choose the 
word ``opportunity'' to describe the devastation wreaked by the floods. 
See Executive Summary at Page 7.
    The Final Environmental Impact Statement for the Plan presents its 
Preferred Alternative as increasing the amount of visitor 
accommodations in the Valley. As many commentors to the EIS recognized, 
this is only technically true and not useful to meaningful public 
discussion.
    The 1997 floods destroyed about 40% of the campsites in the Valley, 
and a significant number of hotel and cabin units as well. The Final 
EIS presents post-flood conditions as a baseline, and does not focus on 
what has been lost or what is necessary to replace it. Not even as an 
alternative. The Final EIS states that the Plan will increase the 
number of existing campsites in the Valley from about 475 to 500. But 
this is no increase at all. If you and the National Park Service 
implement the Preferred Alternative before you, you will permanently 
eliminate 40% of Yosemite Valley's historic camping sites.
    The Plan's treatment of the Lodge is similarly deficient. The Plan 
does not discuss pre-flood conditions. Before the floods, there were 
approximately 495 rooms at the Lodge. According to National Park 
Service information, today there are only 245. The Plan proposes 251 
units. Thus, if the Plan is implemented, approximately half of the 
accommodations at the Lodge will be lost forever.
    The picture at Curry Village is not clear. Today according to 
internet information, there are approximately 628 guest accommodations 
(motel rooms, cabins and tent-cabins) at Curry Village. The Preferred 
Alternative suggests 487 future units; an apparent reduction of 141 
units. Similarly, Housekeeping Camp is described as providing 266 tent-
cabin units. The Preferred Alternative proposes 100; a 62% reduction.
    If these assumed numbers are correct, the Plan will eliminate 
approximately half of the Valley's historic visitor accommodation 
capacity; approximately 325 campsites, 385 units at the Lodge and Curry 
Village, and 166 units at Housekeeping Camp.
    I am fully aware that there are those who would affirmatively 
support reducing visitor access to the Valley because of their 
commitment to what they term ``ecological values.'' However, most of 
those who espouse this viewpoint know that their reasoning and 
objectives would never be accepted by the public or by Congress. We 
entrust the great men and women of the Park Service the stewardship of 
the Parks so that current and future generations can enjoy them; a 
noble mission.
    It is a shame then, that the Final EIS terms the 1997 floods an 
``opportunity.'' The only apparent opportunity in what was in fact a 
tragedy, was the ``opportunity'' to avoid confronting a serious public 
policy decision--an affirmative decision to decrease public access to 
Yosemite Valley--a decision that would never stand up to meaningful 
public discussion or analysis. For this reason, the Final EIS 
conveniently assumes there will be no impact on visitation levels if 
the Plan is implemented.
    People like me are relying on you, as our elected representatives, 
to consider whether the Plan will in fact, reduce the access and 
enjoyment of visitors to the Valley. The only reasonable conclusion is 
that it will. Half of those historically able to experience an 
overnight stay in the Valley will be shut out and reduced to the status 
of ``bus tourists.''
    You should be insisting that the Park Service investigate ways to 
restore and preserve the experience of a stay in Yosemite Valley while 
furthering resource protection. The Final EIS does not ask that 
question. For example, automobile management has been improved in the 
Valley over the past decades. We should be looking at and investing in 
more ways to reduce unnecessary automobile trips to Yosemite. We should 
be looking at ways to improve the Valley's air quality (particulate 
emissions) by, for example, controlling visitor campfires. We can do 
these things without being anti-people. We can educate Park visitors, 
and plan and distribute Valley campgrounds, so that they respect 
sensitive riparian areas. When asked to do so, people have acknowledged 
and respected Yosemite's resources. That's part of Yosemite's 
tradition.
    The Final EIS makes no real effort to analyze the planning, 
logistical and environmental issues that would be required for its 
Preferred Alternative to succeed (indulging the counter-intuitive 
assumption that the Plan would not cause visitation to be reduced). For 
example, there has been no real analysis of the ability of communities 
and areas outside of the Valley to successfully absorb the displaced 
level of overnight accommodations, or the environmental impacts of such 
displacement. Similarly, there has been no real analysis of the 
feasibility or timing of the transportation system (YARTS) that would 
be needed to successfully bring visitors to and from the Valley. The 
Final EIS simply states that these issues are beyond its scope. This is 
technical, but not true, planning. Hiding behind the procedural and 
scope limitations of the EIS process is just an excuse for failing to 
confront the obvious implication that if the Plan is implemented, many 
persons who would have otherwise visited the Valley will not come at 
all.
    Moreover, the real benefits of the Plan are questionable. It is 
true that the Plan would revert historic accommodation sites to a more 
natural condition, and create more areas for passive use in the Valley. 
But, if one seeks quietude in the Valley, it has always been available 
at wonderful places away from the Valley's most notable features and 
destinations. Those who seek those places out know that. Further, if we 
indulge the Final EIS' assumption that the Plan will not diminish 
visitation, then there is no reason to assume that popular visitor 
destinations (trails, waterfalls, etc.) will be any less congested 
during peak visitation periods.
    The real ecological benefits of the Plan, particularly as part of 
the bigger picture of the Park and regional ecosystem, are equally 
questionable. That is, of course, unless one assumes that the objective 
of the Plan is to decrease visitation to the Valley. Many areas to be 
restored are immediately adjacent, or proximate, to urbanized areas of 
the Valley. These areas will still both experience and be surrounded by 
visitation activity. The Valley is not and will never be a true 
wilderness area. Thus, it must be managed as most appropriate. While 
the appearance of certain areas of the Valley would admittedly be 
improved by the Plan, decreasing access cannot be truly justified on an 
environmental basis.
Conclusion
    These days I do not often camp in Yosemite Valley. I am, in fact, 
somewhat crowd-averse and have learned to avoid the Valley during peak 
visitation periods. I also have acquired the interest and skill-set 
necessary to seek solitude and wilderness in other locations. Those who 
prefer to avoid Yosemite Valley's crowds can make the very same choice. 
They need not pressure the National Park Service to shut people out of 
Yosemite Valley. When I do visit Yosemite Valley crowded with families 
and children and fumbling campers and hikers, I smile. I see my own 
learning, love, and experience reflected in theirs. They are ``in 
school.'' I hope they will go further into the outdoor experience and 
become life-long conservationists. I would like to think that Ansel 
Adams would smile too.
    On the morning of April 22nd, each of you will enjoy the soul-
stirring experience of rising from your slumber to stand in the most 
magnificent cathedral in the world. Let's restore the opportunity for 
that experience to as many people as possible. Please don't relegate 
Park visitors to ``bus tourist'' status. Let's recognize the value of 
Yosemite Valley as one of our nation's most important school rooms. 
There are many more Ansel Adams coming along. Let's put our resources 
and attention to work on solving Yosemite Park's real environmental 
issues and challenges. A second Yosemite Valley sits not far away 
beneath a reservoir. Someday, I would like to stroll through its 
woodlands and meadows, maybe camp there, and ponder the problem of 
dealing with the throngs who will want to come to experience it.
    Thank you very much for your time and attention.
                                 ______
                                 
    Mr. Radanovich. Please keep it to 5 minutes. I hate doing 
this, you guys, but we are going to be here until 4 o'clock.

  STATEMENT OF JAY THOMAS WATSON, CALIFORNIA/NEVADA REGIONAL 
                DIRECTOR, THE WILDERNESS SOCIETY

    Mr. Watson. Chairman Radanovich, members of the 
Subcommittee, on behalf of The Wilderness Society, thank you 
for the opportunity to present testimony on the implementation 
of the landmark Yosemite Valley Plan.
    While the 1997 floodwaters of the Merced River disrupted 
local businesses as well as the expectations of park visitors, 
there was a silver lining to the storm clouds that produced 
those floods: the once-in-a-lifetime opportunity to transform 
into reality what had long been a grand but elusive vision for 
Yosemite.
    To its credit, the Park Service seized that opportunity by 
writing the Yosemite Valley Plan. Intellectual honesty, 
rigorous analysis, and extensive public participation 
characterized that planning process, including 18 public 
hearings, 11,000 comments and countless walk-throughs with Park 
Service staff regularly scheduled during the week. Virtually 
every newspaper in the State supports the Valley Plan including 
even today's Fresno and Modesto Bees.
    The final plan was adopted on December 29, 2000. On that 
day the Park Service presented the American people a plan that 
struck an elegant balance between protecting Yosemite's natural 
and cultural resources and providing the visitor use and 
enjoyment. The Wilderness Society is pleased to see the Park 
Service moving forward on implementing the plan, but more must 
be done still. Staffing assignments, preplanning, and 
sequencing of decisionmaking must be initiated if longer-term 
transportation and parking changes are to be realized.
    With respect to upper and lower river campgrounds, the 
habitat restoration opportunities presented there are the 
single largest restoration component of the plan, and it would 
restore some of the most biologically productive habitat types 
found in Yosemite Valley, as well as providing new and 
different day-use opportunities.
    Similarly, the reduction and centralization of day-use 
parking at Camp 6 is a vital component of the plan. Indeed, 
habitat restoration and transportation changes are the heart 
and soul of the Valley Plan and neither should be compromised.
    In adopting the final plan, the Park Service showed its 
responsiveness to public comment. Both campgrounds and lodging 
best demonstrate that responsiveness. Under the final plan, 
assuming a 2-night stay during maybe the most crowded 4-month 
period in the summer, 94,000 families can camp inside Yosemite 
National Park, but the Park Service isn't stopping there. They 
have found a way to locate another 204 sites outside the 
valley, boosting total camping opportunities to over 106,000 in 
just 4 months. We support the addition of those additional 
sites outside of the valley.
    Similarly, in direct response to public comment, the Park 
Service restructured the mix of total overnight opportunities 
in the plan to emphasize accommodations at the lower end of the 
cost scale. Under the plan, out of 1,461 total possible 
overnight stays in Yosemite Valley on any given day, a total of 
1,179 are campsites, rustic tent cabins; and economy-scale 
cabins are 81 percent of all overnight accommodations.
    Because of the Park Service's success in developing the 
Valley Plan, the future of Yosemite is bright. Some of the park 
employees that produced that plan are still here at the park. 
Others have moved on to other parks like Fort Clatsop, Channel 
Islands, and Mt. Lassen. Wherever they are, the folks who 
produced this plan should be deeply proud of what they 
accomplished.
    It has been 23 years since the Park Service set forth the 
vision for Yosemite and saw it embraced by the American people. 
Yosemite's time has come. Let us get the job done and done 
right as set forth in the final Yosemite Valley Plan. Reopening 
it and changing individual components of it will simply turn it 
into a house of cards or a set of dominos; the whole thing will 
come tumbling down because all the different components that we 
have talked about today are linked together. If you change one, 
it's going to affect another.
    Just like John Muir said years ago, everything is hitched 
together, everything is hitched together in the Valley Plan, 
and like I said earlier, it did strike a delicate balance that 
has long been needed in Yosemite; and we look forward to its 
continued implementation. Thank you.
    Mr. Radanovich. Thank you, Mr. Watson.
    [The prepared statement of Mr. Watson follows:]

 Statement of Jay Thomas Watson, California/Nevada Regional Director, 
                         The Wilderness Society

    Chairman Radanovich, members of the Subcommittee, I am pleased to 
have the opportunity to join you here today in this Incomparable 
Valley. You have picked quite a location for this hearing--Half Dome as 
a backdrop, the sound of water rushing over Yosemite Falls--it is 
indeed a pleasure to present testimony on behalf of The Wilderness 
Society on the implementation of the landmark Yosemite Valley Plan.
    It is hard to believe that it has been more than six years since 
the floodwaters of the Merced River passed through Yosemite Valley. 
While the 1997 flood caused a lot of damage, disrupting the lives and 
economic well-being of local residents and businesses, as well as the 
expectations of park visitors, there was a silver lining to the storm 
clouds that produced those floods--a once-in-a-lifetime opportunity to 
transform into reality what had long been a grand, but elusive vision 
for Yosemite.
    Realizing that vision has indeed been elusive since it has been 23 
years since it was first articulated to the American people in the 1980 
General Management Plan for Yosemite National Park. The vision is 
captured in five key goals:
    <bullet> LReclaim priceless natural beauty
    <bullet> LAllow natural processes to prevail
    <bullet> LPromote visitor understanding and enjoyment
    <bullet> LMarkedly reduce traffic congestion
    <bullet> LReduce crowding
    In other words, a more natural Yosemite, where hydrological and 
other natural process operate freely, a Yosemite with less asphalt, 
fewer automobiles, less development, less congestion, a Yosemite with 
an improved and enhanced visitor experience.
    Fortunately, the National Park Service seized upon the opportunity 
presented by the floods by launching a three-year planning process that 
culminated in the adoption of the Yosemite Valley Plan and the Merced 
River Plan. Intellectual honesty, rigorous analysis, and extensive and 
open public participation characterized these planning processes. At 
the end of the trail, on a bright but chilly November day, the Final 
Yosemite Valley Plan was formally announced by then Secretary of the 
Interior, Bruce Babbitt.
    It is important to note that more than 10,000 comments were 
received on the Yosemite Valley Plan. In addition to public comments, 
the planning process was characterized by 18 public hearings and 
meetings in 18 locations and cities, regularly scheduled on-the-ground 
tours led by Park Service staff, written planning updates and 
newsletters, and extensive media coverage.
    In other words, the Final Yosemite Valley Plan was the product of a 
comprehensive, open, and honest process that offered unprecedented 
opportunities and avenues for public review and input. To this day, the 
Park Service and the planning team deserves credit and applause, not 
only for the process they undertook, but also for the product they 
developed as well.
    The Final Yosemite Valley Plan was duly adopted through a signed 
Record of Decision dated December 29, 2000. On that day, the National 
Park Service bestowed a gift upon Yosemite Valley. Moreover, on that 
day, the Park Service showed that it had struck an elegant balance 
between protecting Yosemite's natural and cultural resources and 
providing for visitor use and enjoyment of a popular national park.
    Accordingly, The Wilderness Society is pleased to see the Park 
Service moving forward with vigorously implementing the Yosemite Valley 
Plan. We support the projects currently moving forward--particularly 
the Yosemite Falls Project, the Cascades Dam Project, the acquisition 
of clean fuel shuttle vehicles, and the restoration to natural habitat 
of the area currently known as Upper and Lower River Campgrounds.
    I would also like to state clearly that The Wilderness Society is 
unalterably opposed to reopening the plan to changes, particularly in 
the area of campgrounds, parking, and transportation.
    With respect to Upper and Lower River Campgrounds, the habitat 
restoration opportunities presented there not only are the single 
largest restoration component of the entire plan, they also would 
restore some of the most biologically productive habitat types found in 
Yosemite Valley--riparian, wet meadow, and Black oak.
    With respect to the proposed reduction and centralization of day-
use parking to a 500-space lot at Camp Six, please understand that this 
also a vital component of the Final Yosemite Valley Plan and is of 
elemental importance if congestion is to be reduced in Yosemite Valley. 
It is not only an answer to those handful of days when gridlock is 
achieved, it is also an answer to the countless number of days during 
the visitor season when automobile congestion, while short of absolute 
gridlock, renders a visit to Yosemite Valley an exercise in 
frustration.
    Indeed, habitat restoration and transportation changes are indeed 
the heart and soul of the Valley Plan. Neither must be compromised or 
undermined.
    In adopting the final plan, the Park Service also showed its 
responsiveness to public comment by making significant changes in 
moving from draft to final. Two issues that continue to be hot topics 
perhaps best demonstrate this responsiveness--campgrounds and lodging.
    Under the final plan, there would be 500 campsites in the valley. 
Assuming a two-night stay, that is enough for 30,000 families or groups 
of friends to camp out over a four-month summer camping season. Add in 
the 1,065 other campsites within the boundaries of Yosemite National 
Park, and there is enough for a total of 94,000 camping opportunities 
during a four-month period.
    But the Park Service isn't proposing to stop there, the agency has 
found a way to locate another 204 sites in the park, yet outside the 
valley--boosting total family camping opportunities to 106,140 two-
night stays over a four month period.
    Similarly, in direct response to public comment, the Park Service 
restructured the mix of total overnight opportunities in Yosemite to 
emphasize accommodations at the lower end of the cost scale.
    Under the final plan, there will be a total of 1,461 total 
overnight accommodations in Yosemite Valley. Out of this total, 1,179 
are campsites, rustic tent cabins, and economy-scale cabins, or 81 
percent of all overnight accommodations. Only 282 beds so to speak, or 
19 percent would be at the upper cost levels.
    In other words, the Park Service has more than adequately found a 
way to accommodate camping and low cost overnight accommodations in 
Yosemite. While we support this effort, we will vigorously oppose any 
modifications to the Yosemite Valley Plan to increase camping any 
further in Yosemite Valley.
    It is time to realize that Yosemite Valley is a finite place. Over 
the years, far too much development and infrastructure was crammed into 
the valley. The Yosemite Valley Plan sought to reverse that trend. It 
is exciting to see it being implemented.
    But more work needs to be done. In addition to the implementation 
activities currently underway, I would like to touch on several other 
efforts that must be started sooner, rather than later.
    As I mentioned earlier, changes in transportation and parking are 
vital to the success of the Valley Plan and to the future of Yosemite. 
Staffing assignments, pre-planning activities, and up-front analysis, 
and sequencing of decision-making must be initiated now to facilitate a 
smooth transition to centralized parking and reduced day-use parking.
    Similarly, with the help of this committee, the National Park 
Service must see its authorities expanded by legislation to enable 
fuller engagement in the Yosemite Area Regional Transportation System 
or YARTS. While the Valley Plan is not dependent on YARTS, the success 
of YARTS could significantly reduce overall implementation costs. 
Several factors are converging during the next few years that will 
increase ridership on YARTS--the ramping up of UC-Merced, employees 
moving out of Yosemite Valley into surrounding communities, reduced 
day-use parking in the Valley, and the increased activities of the UC 
Merced/Sierra Nevada Research Station.
    YARTS was a homegrown idea that continues to deserve support. To 
this day, I applaud Mariposa, Merced, and Mono Counties for having the 
courage of their convictions to stick with YARTS. Their belief that 
local, state, and Federal Governments can work together to solve a 
common problem or serve a shared purpose is an inspiration. And yet, 
additional funding is needed through TEA III legislation, as are 
additional Park Service authorities similar to what the agency has at 
Zion National Park.
    Because of the Park Service's success in developing the Yosemite 
Valley Plan and the Merced River Plan, the future of Yosemite is 
bright. Think about it, in just a short time, an unsightly and 
dangerous dam will be removed from the Wild and Scenic Merced River, a 
parking lot removed and the Lower Yosemite Falls area restored and made 
accessible to people with disabilities so they can feel the spray of 
Yosemite Falls in their faces, the clean fuel shuttle fleet expanded, 
congestion relieved, and one day soon, vital habitat restored along the 
Merced River.
    There is much to cheer about. There is much to be thankful for. And 
there are people in the National Park Service who are true heroes of 
public service. Some of them continue to work at Yosemite, some have 
moved on to other parks like Fort Clatsop, Channel Islands, and Mt. 
Lassen Volcanic.
    Wherever they are, the folks who produced this plan should be 
fiercely proud of their accomplishment. I am pleased to see the Park 
Service embrace and implement the plan. On behalf of The Wilderness 
Society, I ask that the Park Service, with the full support of this 
committee, do even more by acting now on the tasks necessary to realize 
the full promise of the Valley Plan--promises that will only be 
realized when the full Yosemite Valley Plan is implemented, not just 
those components represented by the fifteen or so projects currently 
under way.
    It has been 23 years since the National Park Service set forth a 
majestic vision for Yosemite and saw it embraced by the American 
people. Yosemite's time has come. Let's get the job done and done right 
as set forth in the Final Yosemite Valley Plan. Thank you.
                                 ______
                                 
    Mr. Radanovich. Mr. Whitmore, welcome to the Committee and 
please begin your testimony.

            STATEMENT OF GEORGE WHITMORE, CHAIRMAN, 
      YOSEMITE COMMITTEE, SIERRA CLUB, FRESNO, CALIFORNIA

    Mr. Whitmore. Thank you, Mr. Chairman and members of the 
Subcommittee, for having invited us to testify here in the 
Yosemite Valley, the heart of the crown jewel of the entire 
national park system. You will be glad to know that I have 
truncated my summary. I will hit just the major points in hopes 
of encouraging more questions.
    From the very beginning, we have found some things in the 
Valley Plan which we like and some things which we believe are 
not desirable. Being human, we tend to focus on the negative, 
which you will find in our written testimony. But something we 
need to make clear is that we believe the plan can be improved 
without throwing it out and starting over.
    Using the plan as a starting point, we need to move on, 
evaluating individual actions on their merits. We need to 
implement the less controversial provisions first, leaving the 
more questionable ones for later consideration. The point has 
already been made; we would like to emphasize that we agree 
with it.
    There are a lot of simple, inexpensive, low-impact measures 
that would significantly reduce the perceived need for massive, 
costly, and harmful actions called for in the Valley Plan. And 
some examples have been given, like redesigning both 
intersections and better directional signing.
    There has been relatively little mention of a day-use 
reservation system. For us, that is a major issue. We think 
that it would go a long way toward dealing with the problems, 
both real and perceived. By directing people away from the peak 
periods, we feel will it would vastly reduce the perceived need 
for massive parking lots and bussing systems that probably 
would result in a net increase in annual visitation because 
people would be assured of getting in and would find their 
visit more enjoyable. But that does assume that a reasonable 
number of slots would be set aside on a first-come-first-serve 
basis, ensuring that people would usually get in even if they 
did not have a reservation.
    We feel that North Side Drive should not be closed because 
this would lead inevitably to the widening of South Side Drive, 
and we find the widening of South Side Drive totally 
unacceptable. As I think anyone who looks carefully as they 
drive along there would realize, it cannot be widened without 
massive damage.
    One point that might seem minor, but I will mention it 
because I think it is symptomatic of a lot of the problems that 
are occurring and will occur in implementing the Valley Plan, 
we feel that the realignment of North Side Drive in the 
Yosemite Lodge vicinity is not necessary. It would have been 
possible to design or redesign the problem for a wide 
intersection without the damage which is being done by the 
Lower Fall project and without moving overnight accommodations 
closer to the rock falls as is being planned.
    Just to go on the record, we do support efforts, including 
those by organizations such as YARTS, to address regional 
transportation issues which affect Yosemite, provided those 
efforts advance the goals of the 1980 General Management Plan.
    One of the biggest deficiencies of the Valley Plan is its 
failure to address the ever-increasing demand for access to the 
valley by highly polluting and noisy tour buses. It is 
inconsistent to focus on getting rid of cars while doing 
nothing to prevent the polluting intrusion by buses of all 
kinds, including tour buses.
    Expansion of the valley shuttle routes to the west end of 
the valley, as called for in the Valley Plan, should be 
implemented sooner rather than later and most certainly before 
making it even more difficult for people to use their cars. We 
strongly feel that no more day-use parking should be removed 
without providing suitable alternatives to use of the private 
automobile.
    And as far as campgrounds, my last point, we support the 
decision to restore the Upper and Lower River campground sites 
to natural conditions. We also support the expansion of 
additional camping outside Yosemite Valley as suggested by 
recent studies. Providing free shuttle service for outlying 
campgrounds into the valley would greatly enhance the appeal of 
these campgrounds and would fit well with expansion of the 
valley shuttle to the west end of the valley.
    So again we thank you for the opportunity to testify and I 
would be happy to take any questions.
    Mr. Radanovich. I thank the panelists. Thank you, Mr. 
Whitmore for your testimony.
    [The prepared statement of Mr. Whitmore follows:]

 Statement of George W. Whitmore, Chairman, Yosemite Committee, Sierra 
                                  Club

INTRODUCTION.
    We appreciate having been invited to testify before the 
Subcommittee.
OVERVIEW of the Valley Plan and associated problems.
A. Too much is being done too quickly.
    A chaotic situation has been created wherein so much is being 
attempted so quickly that it seems inevitable that one project will end 
up conflicting with another, or simply create more problems because 
other things should have been done first.
    As an example, we cite the Lower Yosemite Fall project. Replacement 
parking for the tour busses ultimately is supposed to be created behind 
the Village area, but that project is not even being mentioned. In the 
meantime the tour busses will be shunted from one temporary site to 
another in the Lower Fall area because their previous parking is being 
removed. And, continuing a long tradition, more automobile parking is 
being removed without any improvement in the Valley shuttle bus service 
to facilitate a transition to less reliance on private autos.
B. Problems with public notification and input.
    Adding to the chaos, the Park Service keeps asking for public 
input, but it is difficult for the public to be aware of what is 
happening. So it's hardly surprising that they don't have enough 
information to comment in a rational manner.
    The Park Service has been conducting a series of Open Houses on 
their planning and projects. These offer an immense amount of 
information and are very useful. But they have almost all been during 
the week and during the day, so very few people would be able to attend 
them even if they were aware that the event was occurring. (There will 
be another one on Wednesday, the day after this hearing, from 2:00 p.m. 
to 6:00 p.m.)
    The Park Service relies excessively on their web site. Many people 
simply are not in the habit of getting their information this way. 
There needs to be more use of mailings to update the public on 
projects, planning, and comment deadlines.
C. Potential problems because of litigation.
    Another reason for slowing the pace of development in the Valley is 
because litigation over the Merced River Plan still has not been 
resolved. It is currently before the Ninth Circuit Court of Appeals and 
the likely outcome is not at all clear. The River Plan is supposed to 
provide a foundation for the Valley Plan (as directed by a District 
Court judge), and projects now underway might have to be placed on hold 
if the Circuit Court should find even one problem with the River Plan. 
Particularly if that one problem happens to be the failure to ``address 
user capacity'' as called for by the Wild and Scenic Rivers Act. That 
issue alone could pull the underpinnings out from much of what is in 
the Valley Plan.
D. Simple measures would yield large results.
    Much of the development called for by the Valley Plan would not be 
necessary if simple steps were taken to deal with congestion. There are 
a few problem road intersections which have been allowed to fester for 
decades. Why not redesign those intersections instead of turning the 
whole Valley upside down? Again, inadequate or confusing directional 
signs has been a problem for decades. Instead of providing better 
signs, the Park Service points to the confused drivers going around and 
around and says the solution is to get rid of the drivers and their 
cars.
E. Day-use reservation system: simple and effective.
    And the most obvious solution of all to deal with the congestion 
which occurs a relatively small portion of the year would be to 
implement a day-use reservation system with a portion of the slots 
being available on a first-come-first-served basis. That way those who 
need to be assured of getting in on a specific date would have that 
assurance, while those who prefer a more spontaneous approach would 
probably still get in. Most of the time there is simply not a problem 
of too many people or too many cars.
    There is much anecdotal evidence that many people don't come 
because they think it is crowded, or they won't be able to get in, or 
they won't be able to drive their car in. A reservation would ensure 
their getting in, and would steer them away from the times that do tend 
to be crowded. We suspect that a reasonably implemented day-use 
reservation system would actually reverse the continuing decline in 
annual visitation, as well as improve the quality of the visitor's 
experience.
    We hasten to point out that the Valley Plan actually moved AWAY 
from the concept of a day-use reservation system. The idea was implied 
in the 1980 General Management Plan, but that seminal beginning was 
deleted by amendment through the Valley Plan process. It is one of the 
reasons that we are less than enthusiastic about the Valley Plan.
    This action of the Valley Plan was actually in contravention of the 
Park Service's own regulations, which direct that every unit of the 
National Park System address the carrying capacity issue. This 
requirement was brought out in the General Accounting Office's November 
15, 2002 report on transportation projects in the National Park System 
(``National Park Service: Opportunities to Improve the Administration 
of the Alternative Transportation Program'').
OTHER TRANSPORTATION ISSUES in addition to those mentioned above.
A. South Side Drive widening and North Side Drive closure.
    While it is not on the table yet, we dread the day that the Park 
Service starts widening South Side Drive in anticipation of closing 
North Side Drive. At present, South Side Drive (as well as North Side 
Drive) provides two lanes of one-way traffic, making for the safe and 
pleasant movement of movement of different types of vehicles in one 
direction. Faster and slower--autos, busses and bicycles--all are 
accommodated smoothly.
    In order to move traffic as well if it were two-way, as called for 
in the Valley Plan, four lanes would be required. Huge numbers of trees 
would have to be removed, and an ugly swath of asphalt inviting high 
speeds would take their place. The very idea is an abomination which 
never should have found its way onto paper. To keep it at two lanes 
(one in each direction) would result in gross traffic congestion, a 
high accident rate, and an unpleasant visitor experience.
    And all this because someone thought it would be a good idea to 
close North Side Drive to traffic. JUST LEAVE THINGS ALONE! This is a 
prime example of failure to anticipate that ``restoration'' of North 
Side Drive would inevitably result in gross destruction of natural 
values and quality of the visitor experience on South Side Drive.
B. Realignment of North Side Drive in vicinity of Yosemite Lodge.
    Again, why can't it just be left alone? Because the Lower Fall 
project has already committed the Park Service to another project which 
doesn't make sense. The four-way problem intersection could easily have 
been fixed without a massive realignment of North Side Drive, or moving 
overnight lodging closer to the rockfall zone. The entire Lower Fall, 
Lodge redevelopment, and North Side Drive realignment complex of 
projects is an example of planning run amuck. A massive urban 
redevelopment project, without regard for the fact that this is a 
national park.
C. Segment ``D'' of the El Portal road (Highway 120/140 junction to 
        Pohono Bridge).
    While it is not on the table yet, and the environmental reviews 
have not been started, it is quite clear that the Park Service has 
every intention of raising this segment of road to the same standard as 
the newly completed section. And this is in spite of the fact that the 
gradients and curves that provided the rationale for the other 
construction do not exist on Segment ``D''. Although portions of the 
road require stabilization because of flood damage, this could be 
accomplished without the massive impacts to the landscape that would be 
required if the road were reconstructed to the same standard as that 
already done. Rather than a blind insistence on uniform widths just for 
the sake of uniformity, we ask that the road not be rebuilt except as 
necessary for safety.
D. YARTS.
    Because there continues to be misunderstanding as to the Sierra 
Club's attitude toward YARTS, we wish to make it clear that we support 
efforts, including those by organizations such as YARTS, to address 
regional transportation issues which affect Yosemite provided those 
efforts advance the goals of the 1980 General Management Plan. Those 
goals include reduction of traffic congestion, reduction of 
overcrowding, and promotion of visitor enjoyment.
    We should also add that we strongly urge that transportation 
systems be implemented in such a way as to make progress toward cleaner 
air.
E. Tour (excursion) busses.
    One of the biggest deficiencies in the Valley Plan is its failure 
to address the ever-increasing demand for access to the Valley by tour 
busses. The Plan makes much of the problems which are perceived to be 
caused by autos, with Draconian restrictions on their use. Yet it 
simply ignores the potentially far worse problem which will be caused 
by unlimited numbers of highly polluting and noisy tour busses.
    It is our understanding that the Park Service has the authority to 
regulate tour bus access to the Park, and could require that the busses 
meet specific emission standards as a condition of entry. If the Park 
Service does not have that authority, it seems that enabling 
legislation would be appropriate. If they already have the authority, 
it seems that they need to be encouraged to move in that direction.
    And, to the extent that tour busses are carrying day-use visitors, 
our comments above regarding the wisdom of a day-use reservation system 
would apply to tour busses also.
F. Fuel cells.
    We appreciate Mr. Radanovich's interest in seeking cleaner air for 
Yosemite, and we support a fuel cell project provided the goal is to 
make progress toward cleaner air in Yosemite. Apparently the project 
would not necessarily be for a bus; if it is for a stationary facility, 
we suggest Crane Flat because the electricity supplied there now is 
from a diesel generator.
G. Valley shuttle busses.
    We would like to see the present fleet of old and polluting diesel 
busses replaced with vehicles which would match former Western Regional 
Director John Reynolds' vision of ``the cleanest busses in the world'', 
as articulated by him before this Subcommittee on March 27, 2001.
    We are not convinced that a diesel powered electric hybrid bus 
would meet that vision. We would like to see a comparison of the 
alternatives, including propane powered electric hybrid, gasoline 
powered electric hybrid, and straight propane powered. If emissions 
data shows that diesel powered hybrids would be the cleanest and 
otherwise suitable, we could support that. But diesels have such a bad 
reputation that it seems hard to believe they would prove to be the 
cleanest just because they are put into a hybrid application. It seems 
as though the others would also be cleaner in the hybrid application, 
still leaving diesel at a relative disadvantage. Like I said, we would 
like an opportunity to review the comparative data, but have been 
having some difficulty getting the information.
H. Expansion of the Valley Shuttle Routes.
    It would seem that this is one of the less controversial actions 
called for in the Valley Plan, and has the potential for reducing 
congestion and facilitating visitor access. Yet we see no indication 
that the Park Service has any plans for taking it up in the foreseeable 
future. We believe they have indicated that they would first have to 
build a series of stops complete with rest rooms, so they are looking 
upon it as a massive undertaking.
    It seems self-evident that people drive all around the Valley now, 
stopping and getting out of their cars, at countless places where there 
are no rest rooms. We see no reason why public transportation could not 
be provided on the same basis.
I. Day-use parking.
    As alluded to above, we find it highly inappropriate for the Park 
Service to continue to remove day-use parking without first providing 
suitable alternatives to the use of the private auto. Much of the 
congestion which actually occurs is the result of removal of parking, 
which has been ongoing for at least the last twenty years. We are 
usually in favor of removing asphalt, but not if it is simply going to 
get laid down somewhere else (as called for in the Valley Plan), and 
not if it results in degradation of the visitor experience (as called 
for in the Valley Plan)
IV. CAMPGROUNDS.
    We support the decision in the 2000 Yosemite Valley Plan to restore 
the Upper and Lower River Campground sites to natural conditions. We 
also support the expansion of additional camping opportunities outside 
Yosemite Valley as suggested by recent Park studies. In particular, we 
support the 1980 General Management Plan provision that there be ``in 
kind'' replacement of camping opportunities to compensate for those 
which are removed from Yosemite Valley.
    We note that there has been a continuing long-term process of 
reducing camping opportunities throughout the Park. It appears to be 
part of the pattern of phasing out lower-cost accommodations, and 
putting in higher cost accommodations, which has manifested itself so 
clearly in the Yosemite Valley Plan. Recognizing that it is difficult 
to find suitable locations for new camping opportunities in the Valley, 
we feel there is all the more reason to make every effort to find 
appropriate locations as near as possible outside the Valley.
    Another way of compensating for the loss of campgrounds within the 
Valley would be to provide adequate shuttle service into the Valley 
from outlying campgrounds.
V. CONCLUSION.
    We thank you for the opportunity of testifying.
                                 ______
                                 
    Mr. Radanovich. We will move to the asking of questions by 
the panel.
    Let me begin by asking Mr. Minault--thank you for being 
here--in your testimony, you stated that based on the 1980 
General Management Plan, the valley has a shortfall of over 300 
campsites. I am wondering how you would reconcile that with Mr. 
Watson's belief that the 500 campsites slated for the valley is 
sufficient.
    Mr. Minault. Thank you, Mr. Chairman. Our feeling is that 
the overnight accommodation pattern in the valley is skewed 
toward developed lodgings and that really the purpose of a park 
is to provide a recreational experience, that campgrounds do 
that, that developed lodgings are a form of leisure, as we have 
stated, and that there should be a shift to have a greater 
number of campgrounds and a gradually reduced number of 
developed lodgings.
    And it is hard to identify a perfect number, and we won't 
attempt to do that, but in our comments on the Valley Plan we 
did show that there was room for increased campsites east of 
the Ahwahnee, and in fact, we would love to see the Ahwahnee 
cabins, which are the valley's single most space-consumptive 
and most expensive lodgings and which were untouched in the 
Valley Plan while campsites were radically reduced--we would 
love to see those cabins removed and the part of the valley 
east of the Ahwahnee made into a Royal Arches campground so 
that east of the side valley where you have the most sun and 
the Ahwahnee has its own waterfall could be shared with some of 
the riffraff who have enjoyed camping, like myself.
    And, incidentally, we also believe that the Park Service's 
goal of adaptive management requires that they be a little bit 
more on the balls of their feet in handling NEPA documents, 
environmental documents, and that it is not necessary to bring 
the Valley Plan to a grinding halt in order to consider some of 
these campground options, that supplemental and environmental 
documents can be prepared and will have to be prepared as the 
plan goes on and as the concept of adaptive management is 
implemented and that additional campgrounds can be developed 
under those sorts of documents.
    Thank you.
    Mr. Radanovich. Thank you.
    Mr. Abshez, we appreciated your testimony, what I have 
gotten from it, and I am sorry to have to cut all of you off, 
or most of it, on this, but I do have a question. I want to ask 
you, you mentioned in your testimony the discrepancies in the 
final Yosemite Valley Plan regarding the number of campsites. 
Can you elaborate on that for me?
    Mr. Abshez. Well, when I was referring to discrepancies, I 
was referring to the baseline, the assumed baseline of post-
flood conditions.
    One of the alternatives which was not included in the 
discussion was the alternative of restoring the level of 
accommodations and campsites. So we are 40 percent down in 
campsites. I think we are approximately 500 units down in 
lodging, and yet there is no alternative that addresses 
restoration.
    If you look at campsites alone, using the map that was 
developed by The Wilderness Society, which looks like a good 
map, the campsites that were lost represent opportunities for 
19,680 family camping vacations every summer. And with regard 
to camping opportunities outside of the valley, there are lots 
of camping opportunities outside of the valley. They are 
available all over the Nation.
    The valley is unique. There is no substitute for a camping 
experience in the valley.
    Mr. Radanovich. Mr. Watson, I do have a question. It is my 
understanding that the mission of The Wilderness Society is to 
deliver to future generations an unspoiled legacy of wild 
places with all the precious values they hold, such as 
biological diversity, towering forest, rushing rivers, and 
safe, sweet, silent deserts.
    Assuming that you stand by the mission, how can a family 
truly experience all that the Yosemite Valley and the park have 
to offer without somehow disturbing nature? Can you reconcile 
those things for us?
    Please, no more comments from the audience. I have got to 
tell you it is just not appropriate for a congressional 
hearing.
    Mr. Watson. The Wilderness Society is fully supportive and 
thinks one of the highest and best uses of the national parks 
is for the public to visit them. That is in large part their 
purpose. It is balanced with sort of a dual mission in the 
organic act of protecting the underlying resources, but we do 
believe that restorative visits to the public lands are one of 
the highest and best uses of the public lands, including the 
parks.
    We all have impact. Backpackers have an impact. I am not 
saying we can't have any impact in the Yosemite Valley. 
Clearly, there is impact. There is impact in the back country 
from a backpacker. So I recognize that there is impact through 
that use, and that is just the way it is.
    It is the purpose of agencies to try to minimize that use, 
but not at the expense of locking people out, and I don't 
believe the purpose of the Valley Plan in any way is to lock 
people out of this park. It was to find a balance between 
habitat restoration and conservation and public use and 
enjoyment. Sure, you could have more people camping in Yosemite 
Valley. You could tear down the Lodge and build a campground 
and you wouldn't have as many hotel units. Under the plan it is 
interesting to note that while 300 campsites are being removed, 
lodging is decreasing by 262 units. So there is less of 
everything in the Yosemite Valley Plan, and camping has not 
been targeted for reductions at the expense of everything else.
    Mr. Radanovich. Thank you.
    Donna?
    Mrs. Christensen. Just two brief ones. Mr. Chairman and 
panelists, the goal here is sometimes difficult to achieve, but 
I want to commend you, Mr. Chairman, on the balance of the 
testimony that we have had here this morning.
    Mr. Whitmore, both the Chairman and I have felt that our 
desire to improve the gateway community process, gateway 
process--in your written testimony you stated you didn't feel 
that it was adequate. I thought we had established that with 
the 14-plus hearings, town meetings that were held around this 
particular plan, that it had been a very open process and there 
has been a lot of opportunity. Yet you don't seem to think the 
process has been as it should have been or provided the 
opportunity it could have.
    Mr. Whitmore. I don't recall having said that recently, but 
we have been involved in the past--well, in fact, currently--
with litigation challenging basically the planning processes on 
both the Merced River Plan and the Valley Plan--well, not the 
Valley Plan yet; that was perhaps a Freudian slip. But the 
Merced River Plan and a couple prior to that, we were actually 
the plaintiffs on two prior lawsuits, but we are not on the 
current Merced River litigation.
    So, yes, we did have some concerns with the process, but it 
mostly had to do with the internal procedures of the Park 
Service. I do not think that we ever felt that there had been 
an inadequate opportunity for the public to make its feelings 
known.
    And I do feel that while I realize it may be beyond the 
purpose of this hearing, but I think that I should point out 
that we do feel the Park Service was quite responsive to public 
input following the close of comment period on the draft Valley 
Plan. The final Valley Plan as it came out was substantially 
improved over the draft Valley Plan, and probably largely 
because of the input from the public which the Park Service 
listened to and acted upon.
    Mrs. Christensen. Thank you.
    Just one last question. Mr. Minault, in your testimony, and 
you said it in response to a question also, that the National 
Park Service plans for lodging in the valley is geared to the 
upper end of the income scale.
    In contrast, Mr. Watson, in your testimony, you noted that 
81 percent of the overnight accommodations are economically 
minded campsites, tent cabins, et cetera, with 19 percent at 
the upper cost levels.
    I am trying to reconcile that. So my question is, what is 
the lodging situation? Do you feel that a broad economic range 
of options is being offered, or is it really geared to the 
upper end? I am just trying to reconcile those two views.
    Mr. Minault. My feeling is that the park has an affirmative 
obligation to create a situation of social equality in the 
parks, not simply to accommodate the social distinctions which 
exist in the greater society and which--
    Mrs. Christensen. And you--
    Mr. Minault. --which any careful observer will see are 
increasing as the society matures.
    I think we need to be compressing the distance between 
people socially in the parks rather than just reflecting the 
distance between classes that we have in our society now.
    So my feeling is--also the parks are a recreational 
resource. My feeling is, we should not be using the parks as a 
place where people come and enjoy leisure. This is a place for 
recreation, and campgrounds, more than developed lodgings, 
foster leisure. And I also believe that the lodging situation 
we have in Yosemite right now reflects the history of Yosemite 
when there were not accommodations outside the park and the 
park needed to have accommodations geared toward guests. That 
is increasingly changing, and I do not think the plan that we 
have now recognizes that change. So--
    Mrs. Christensen. Even though the number of lodging units 
are also decreasing?
    Mr. Minault. Yes. I don't think they are decreasing as fast 
as I would like to see them decrease.
    Ms. Christensen. Mr. Watson?
    Mr. Watson. Yes. Thank you.
    In my calculations, what I do is combine five categories. 
There are campsites, there are rustic tent cabins, there are 
economy-level cabins, mid-scale lodge units, and upscale, the 
Ahwahnee. So I included the three at the lower-end campsites, 
rustic tent cabins and economy cabins would probably cost less 
than motel unit outside the valley and added those all up and 
that is how I came up with 81 percent.
    You could perhaps count it a different way, but that is how 
I chose to do it. I think it was accurate and fair.
    You know, The Wilderness Society would certainly support 
more campgrounds in the Yosemite Valley, but there is only so 
much room. Something else is going to have to come out, and I 
guarantee you whatever comes out to replace campgrounds has a 
local constituency for it, just like everything else.
    Ms. Christensen. Thank you, Mr. Chairman.
    Mr. Radanovich. Thanks, Donna.
    Devin?
    Mr. Nunes. Mr. Watson, assuming that the 1980 baseline is 
correct, that there are 2,500 campsites, do you agree with that 
number?
    Mr. Watson. You know, I really don't know. I would have to 
go back and look at documents in my office. But assuming it 
is--
    Mr. Nunes. Assuming it is--
    Mr. Watson. Let us just assume it is.
    Mr. Nunes. --and we are down to 50 percent of that number 
23 years later, where do you think that number should go over 
the next 20 years?
    Mr. Watson. Well, I am assuming that other types of 
facilities have, in part, replaced some of those campsites that 
were lost. Perhaps others have been--have become natural 
habitat. I tend to kind of doubt that. I think, if anything, 
the trend in the valley over the years was to cram on more 
stuff in here.
    You know, I think if the Park Service could find a way, 
like they have in this study, to locate 204 some-odd sites 
outside of the valley, that is a terrific start. I am assuming 
that those would be attached to existing campgrounds, and that 
is why they would be easier to do through a regulatory process 
that is less complicated to add on to an existing site than 
build a brand-new campground somewhere in the park.
    There is one location for an additional campground, though, 
and that is on a piece of private land that is currently on the 
market called Hazel Green. It has been eyed for resorts and for 
ecoresorts in the past by a company that went out of business. 
So it is now on the market. That could be a relief out there 
for additional camping and that is something that we would be 
more than interested in looking at because we fully support 
camping in Yosemite National Park.
    Mr. Nunes. Those are not on the valley floor?
    Mr. Watson. They are not on the valley floor. That is 
correct.
    Mr. Watson. You can certainly have more camp sites and they 
would fill up, but then they would compromise other aspects of 
the plan. I mean, there was a balance between providing for 
visitor use and enjoyment, allowing natural processes to 
prevail and restoring scenic beauty. Those are three goals that 
date back to the 1980 plan. So it was a balance between those, 
and I know ``balance'' is a loaded word. It means something 
different to everyone. But I believe they have struck that now. 
Like I said, if there is a way to find additional camp sites 
outside of the valley, we will have to allow the Congress to 
make the money available to build those.
    Mr. Radanovich. Mr. Abshez, could you answer that same 
question from the 1980 baseline in comparison to now? Where do 
you think, as a hiker and an avid user of the park, where do 
you think the numbers should go?
    Mr. Abshez. I think we need to bring back up the number of 
camp sites throughout the park. I personally know that there 
are many cases when I have sought to come in places other than 
the valley where camp site accommodations have not been 
available, even that other than peak seasons. And I personally 
am familiar with many camp grounds that have been abandoned. 
There might be good reasons for abandoning those particular 
camp grounds.
    In the valley, I agree with Mr. Radanovich, that their use 
of floodplains for a campground is a good use. In fact, if you 
would examine the U.S. Supreme Court's decision in First 
Evangelical Church versus County of Los Angeles, you will see 
that the County of Los Angeles once took the position that they 
would prohibit building in floodplains but that the property 
owner could still make viable use of it for camping, which is 
an interesting point. And I am informed that the camp sites 
after the 1997 floods were not destroyed by the floods, but 
they were damaged, but they were removed after the floods.
    So I think we--you know, there is a lot of reason to look 
at responsibly planning the reintroduction of the camping in 
the valley and increasing the camping in other parts of the 
park so that people can enjoy it. They are being denied that 
visitation, and sometimes when you can't get in it is not an 
option to stay outside the park. Often that is a good option, I 
want to support the gateway communities, but other times people 
would just pass on because they feel they can't visit their 
destination.
    Mr. Radanovich. Thank you.
    Mr. Abshez. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, gentlemen.
    Mr. Abshez, can you tell me--tell me, help me to reconcile 
this. Do you believe that the Park Service must reduce access 
in Yosemite to save the valley for future generations?
    Mr. Abshez. I don't know that the Park Service believes 
that. I certainly don't believe it. We look at the history of 
human development in the park. We have seen that there has 
been--previously there has been much more intensive use of the 
valley as a city, as farmland. There have been bowling alleys 
and pool halls in the valley. We have had much more parking 
here previously. We had driving all over the valley. There was 
reform and the valley is a lot better for that today.
    I think we have the tools to have intelligent land planning 
and management in the valley and enable all sorts of people to 
come here, stay in all sorts of accommodations. I like to camp 
but I have nothing against people who don't like to camp and 
would rather stay in a lodge. My grandmother was an example. I 
like economy accommodations. I have stayed in them. Sometimes I 
was flat broke. I love the chance to stay in Ahwahnee. I 
wouldn't deny that opportunity to anyone. Let's get the access 
for people.
    Mr. Radanovich. Mr. Minault, can you--you represent through 
the access fund and promote the need for camping. Does that 
type of camping go anywhere from minimal-use, walk-in 
campgrounds to the 40-foot RV, beer-popping camper that likes 
to fish and everything else with him when he goes camping? Do 
you have some parameters as to what you support and what you 
don't support or--well.
    Mr. Minault. Well, I am afraid I do. You know, climbers are 
famous for being able to subsist on very minimal conditions. 
And we have many climber campgrounds in the United States with 
no water, no trash facilities, no really developed facilities, 
simply minimal toilets. And in Yosemite we have recommended in 
the outer valley parkwide--I have to remember the name of 
this--parkwide out of valley campground study--that there be 
development of those type of campgrounds, walk-in campgrounds 
that serve climbers and backpackers and people who are able to 
live successfully in a campground with less developed 
facilities as a balance to the more developed campgrounds.
    And frankly, you know, I have to say personally, an RV to 
me is really--is not really a campground use. It is a movable 
building and doesn't really belong in a campground in a place 
like Yosemite where there's so much competition for space.
    Mr. Radanovich. If somehow some camping sites were to go 
back into upper- and lower-river campgrounds, without reopening 
the general plan or creating havoc, what kind of campgrounds 
would you like to see?
    Mr. Minault. We would like to see some group sites which 
are missing or lacking in the valley, walk-in sites that allow 
people to--basically get more people in a small space, 
fundamentally--and a mix of regular family and car camping 
sites. And the political reality is you would have to have some 
RV sites as well.
    But I think if I could just speak for climbers, we are 
content with less. If less is what it takes to get us in the 
valley and housed here, then less is what we will be happy to 
take.
    Mr. Radanovich. Can you define for me this idea of group 
camp sites? Is that some like Boy Scout group or is that--what 
do you mean by group camping?
    Mr. Minault. Right. They are group sites like those in 
Tuolumne Meadows Campground. There may be groups sites in the 
valley that were. I think they were lost in the floods. But 
there are a half a dozen group sites in Tuolumne Meadows 
Campground where you have school camps, church camps, Boy 
Scouts, that kind of thing, and you may have 20 or 30 people.
    Mr. Radanovich. Thank you.
    Mr. Whitmore, thanks for your testimony. And I am 
interested in your support of the North Side Drive staying in, 
and Mr. Watson had mentioned there is always--you know, this 
plan is so interconnected; one thing out, one thing in has some 
pretty dynamic effects to the whole plan all together.
    How do you reconcile, though, the issue of North Side Drive 
is the fact that it is in the floodplain, Stoneman Bridge down 
to Yosemite Village, the idea of removing that which is in the 
floodplain of the river, as are the campground spaces; how can 
you reconcile leaving a road in there and removing--but 
removing the campgrounds?
    Mr. Radanovich. They are both in the floodplain. It is a 
floodplain issue that drives both of these, and yet if you are 
respecting--or of the opinion that they should be removed 
because they are in a floodplain, why would you allow one and 
not the other?
    Mr. Whitmore. Well, I don't think that we can use presence 
in the floodplain to be an absolute standard in Yosemite Valley 
as to whether something is permitted or not. If you wait long 
enough you will get a very giant flood; and, potentially, 
practically all of the valley floor is a floodplain. And so I 
think you are going to have to make compromises just with 
everything else.
    I think that having a road in a floodplain is probably a 
little more practical than having buildings or structures or 
restrooms, other constructed facilities. But actually as far as 
closure of North Side Drive, I was referring to the section 
from Yosemite Lodge and Camp 4 to the west, to the El Capitan 
crossover where they are proposing to make that into a walking 
and bicycle trail. A lot of that does get flooded.
    But I think the main reason that--their main rationale, I 
believe, for proposing that to be closed to autos was simply to 
make more of the valley more natural, which is normally 
something we would support. But in that particular case, I 
think the impact on South Side Drive would be so immense and 
unacceptable that we just cannot see that it is feasible to 
close North Side Drive.
    Mr. Radanovich. OK, thank you. We may be closing down on 
our questions.
    I have got to ask this thing because this has really been 
in my craw for a long time. During the plan--and I guess I can 
direct this to you, Mr. Whitmore, because it is regarding the 
Le Conte Memorial. Why was there no consideration--or was 
there--to removing the Le Conte Memorial and getting it out of 
the valley for habitat restoration? It just bothered me that 
that building is still there and, you know, John Muir would be 
turning over in his grave to have something built in his memory 
that is a man-made object in the valley. And I--why is that? I 
mean, it seems to me if we are really interested in habitat 
restoration, it ought to be in areas that affect us, not other 
people, and I have got to ask this question.
    Mr. Whitmore. Well, it is not in its original location, as 
I understand it. I don't know where it was first built.
    Mr. Radanovich. It was somewhere else.
    Mr. Whitmore. It was somewhere else and it was relocated to 
where it is now.
    Mr. Radanovich. Right.
    Mr. Whitmore. And it is my understanding that it is 
considered to be a national historic site, and so that 
immediately invokes a bunch of rules that don't apply to other 
things. I think it is sort of like the Ahwahnee in that regard. 
It is sort of a landmark structure, and it may be inconsistent 
with the natural scene but it is there and it is one of the 
things we live with.
    Mr. Radanovich. Right. It troubles me that--it just seems 
to me that it is for a special interest group in some ways, and 
if we are willing to shut down certain areas for habitat 
restoration, it seems to me that that would be an ideal spot. 
And it is where it affects perhaps your interest group as well, 
and maybe not others--other interest groups. And I just--I see 
a double standard there and I don't, you know--it troubles me.
    Mr. Whitmore. I think it would be well to note that there 
is some question as to ownership of the building. The title has 
been sufficiently obscure over the years; that it is my 
understanding that the Park Service and the Sierra Club just 
came to an understanding: We will talk about management and 
never mind who owns it. So it is not known that it belongs to 
the Sierra Club, it may belong to the Park Service.
    Mr. Radanovich. Right.
    Mr. Whitmore. And so basically the Sierra Club operates it 
as a tenant of the Park Service, you might say.
    Mr. Radanovich. Right. Which to me--yeah. That just chaps 
me, I have got to tell you. I think this should go because of 
that. And I--it is mainly because what I want to make sure, you 
know, that everybody has--if we are going to limit access, we 
should do it for everybody. And I just want that on the record. 
I am sorry, but that just really troubles me.
    Mr. Whitmore. I would hasten to note that the Sierra Club 
is not favoring limiting access. We favor a reservation system 
in order to spread out the access and manage it better.
    Mr. Radanovich. Right.
    Mr. Whitmore. So that the experience becomes more pleasant 
and is more predictable, and my feeling is it probably would 
result in a decrease in annual visitation by removing the 
uncertainty that we have now--
    Mr. Radanovich. Right.
    Mr. Whitmore. --as to whether someone will get in or not.
    Mr. Radanovich. OK. Well, it is that question of balance, 
and their results probably seems to be different in everybody's 
mind. So I think that is what we are trying to get here, so--
Donna, any more questions, or Devin?
    Well, listen, I want to thank everybody for being here. I 
know it went a little bit longer than what we thought, but I 
think that we got out all the issues out on the table. I think 
that we have adequately addressed them for now. This is going 
to be a long process. And I appreciate you being here. And with 
that, the hearing is closed.
    [Whereupon, the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
